<html>
<title> - NASA'S FISCAL YEAR 2008 BUDGET REQUEST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NASA'S FISCAL YEAR 2008 
                             BUDGET REQUEST 
=======================================================================
                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2007

                               __________

                           Serial No. 110-12

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

33-803 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio














                            C O N T E N T S

                             March 15, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    12
    Written Statement............................................    14

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    17
    Written Statement............................................    18

Statement by Representative Ken Calvert, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    21

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    22

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science and Technology, U.S. House of Representatives..........    23

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    23

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    23

                                Witness:

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)
    Oral Statement...............................................    24
    Written Statement............................................    25

Discussion
  Budget Shortfalls and Discrepancy Between Administration 
    Requests and Authority Levels................................    36
  Crew Safety of Future Projects.................................    38
  Status of the SOFIA Program....................................    39
  Delays in CEV Program..........................................    40
  Implementation of Decadal Survey Recommendations...............    41
  Negative Ramifications of American Hiatus From Human Space 
    Flight.......................................................    42
  Funding Needed to Maintain CEV/CLV.............................    44
  Budget Prioritization Process..................................    46
  Education......................................................    46
  Status of China's Space Program................................    47
  Future Missions and Foreign Abilities..........................    48
  Global Warming and Near-Earth Object Budget Prioritization.....    49
  ITAR...........................................................    51
  Impact of Reductions on Shuttle Use and Workforce Flexibility..    52
  Space Station Research and Status..............................    55
  CEV Projecting and Budget......................................    58
  Decadal Survey Suggestions.....................................    60

              Appendix: Answers to Post-Hearing Questions

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)                                        64

                 NASA'S FISCAL YEAR 2008 BUDGET REQUEST

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2008

                             Budget Request

                        thursday, march 15, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 15, 2007 at 10:00am, the Committee on Science 
and Technology will hold a hearing on the National Aeronautics and 
Space Administration's (NASA) Fiscal Year 2008 Budget Request and 
NASA's proposed Fiscal Year 2007 Operating Plan.

Witness:

Dr. Michael D. Griffin, Administrator, National Aeronautics and Space 
Administration

Background Information

Overview
    The National Aeronautics and Space Administration (NASA), which was 
established in 1958, is the Nation's primary civil space and 
aeronautics R&D agency. The current civil service workforce consists of 
approximately 18,100 full time equivalent (FTE) employees. According to 
NASA's budget request, that level is projected to decline to 17,000 
FTEs by 2012. NASA has ten field Centers, including the Jet Propulsion 
Laboratory (JPL) FFRDC. Although there have been discussions in the 
past regarding the future disposition of NASA's Centers (e.g., 
potential closure or privatization of one or more Centers), NASA 
Administrator Griffin has stated his intention to maintain ``ten 
healthy Centers.''
    NASA conducts research and development activities in a wide range 
of disciplines including aeronautics, astrophysics, heliophysics, 
planetary science, Earth science and applications, microgravity 
research, and long-term technology development. NASA also operates a 
fleet of three Space Shuttles and is assembling and operating the 
International Space Station. NASA also maintains a space communications 
network that supports both NASA missions and other federal agency 
requirements. Almost 90 percent of NASA's budget is for contracted 
work. In addition, a number of NASA's scientific and human space flight 
activities involve collaboration with international participants.
    In January 2004, President Bush announced his ``Vision for U.S. 
Space Exploration'' (VSE). According to the President, the United 
States is to do the following:

        <bullet>  ``Implement a sustained and affordable human and 
        robotic program to explore the solar system and beyond;

        <bullet>  Extend human presence across the solar system, 
        starting with a human return to the Moon by the year 2020, in 
        preparation for human exploration of Mars and other 
        destinations;

        <bullet>  Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and support decisions about the 
        destinations for human exploration; and

        <bullet>  Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.''

    With respect to the Space Shuttle, the President's policy stated 
that NASA should:

        <bullet>  ``Focus use of the Space Shuttle to complete assembly 
        of the International Space Station; and

        <bullet>  Retire the Space Shuttle as soon as assembly of the 
        International Space Station is completed, planned for the end 
        of this decade.''

    With respect to development of a new human transportation system, 
the President's policy states that the U.S. shall:

        <bullet>  ``Develop a new crew exploration vehicle to provide 
        crew transportation for missions beyond low-Earth orbit;

        <bullet>  Conduct the initial test flight before the end of 
        this decade [i.e., before end of 2010] in order to provide an 
        operational capability to support human exploration missions no 
        later than 2014.''

Budgetary Information
    NASA's proposed budget for FY 2008 is $17.3 billion, an increase of 
3.1 percent over the FY07 President's request for NASA and an increase 
of 6.5 percent over the FY 2007 Joint Resolution [P.L. 110-5] 
appropriation for NASA. Attachment 1 summarizes the FY08 budget request 
and its five-year funding plan. It should be noted that NASA has once 
again changed its accounting structure, and the budget request now 
incorporates ``full cost simplification.'' As a result, some of the 
overhead burden has been reallocated among the Mission Directorates at 
NASA, leading to some accounts having to include more of the overhead 
costs in their budgets (and other accounts including less). NASA has 
stated that no program funds have been increased or decreased as a 
result of the full cost simplification process.
    As noted in the Committee's Views and Estimates submitted to the 
Budget Committee, the FY08 budget request is ``approximately $690 
million less than the amount stipulated for FY 2008 in the FY 2005 
five-year budget plan that accompanied the President's Vision for Space 
Exploration (VSE). That shortfall replicates the practice in each of 
the previous two years, i.e., the Administration's FY 2006 NASA request 
and its FY 2007 NASA request were approximately $546 million and $1.02 
billion less than the amounts stipulated for FY06 and FY07 respectively 
in the five-year budget plan that accompanied the President's VSE. The 
cumulative effects of those budgetary shortfalls, coupled with OMB's 
under-budgeting for the costs of Space Shuttle and the International 
Space Station (ISS) in that same five-year budget plan, are manifested 
in the strains and stresses that are visible in all of the Agency's 
programs.''
    The Minority Views and Estimates echoed that conclusion, stating 
that the Minority Members of the Committee are ``concerned that NASA's 
budget request, together with reductions in FY07 appropriations, may 
jeopardize NASA's ability to successfully accomplish its portfolio of 
missions, and is especially threatening to our manned space flight 
capabilities.''
    Attachment 2 compares the NASA budget plan that accompanied the 
President's Vision initiative with the actual funds requested (or 
planned to be requested per the FY08 budget request's five-year plan) 
by the President for the years FY06-12. As can be seen, the President's 
requests have been significantly less (i.e., typically on the order of 
a half-billion dollars or more in the early years) than what was 
projected by the Administration as being needed to carry out the 
Exploration initiative and NASA's other core missions. The cumulative 
shortfall over that period is in excess of $3.8 billion.
    The FY07 appropriation contained in the Joint Resolution maintains 
NASA's overall funding level at the FY06 level. As a result, the FY07 
appropriation is approximately $545 million lower than the FY07 budget 
request for the Agency. NASA was not given the authority to transfer 
funds between appropriations accounts. Under the terms of the Joint 
Resolution, NASA is to submit to Congress by March 15, 2007 a revised 
Operating Plan that reflects how the Agency will allocate its FY07 
appropriation within the constraints of the Joint Resolution. 
Administrator Griffin has been asked to discuss the FY07 Operating Plan 
at the hearing.
    To put the FY08 budget request into context, NASA has been tasked 
with flying the Shuttle safely until the end of decade and then 
retiring the Shuttle fleet; assembling, operating, and utilizing the 
International Space Station; completing the development of a new Crew 
Exploration Vehicle/Crew Launch Vehicle by 2014; pursuing human 
exploration of the Moon no later than 2020; and conducting science and 
aeronautics programs. The NASA Authorization Act of 2005, which was 
signed into law in December 2005, authorized an FY07 funding level for 
NASA of $17.93 billion; the FY07 NASA appropriation is $16.25 billion. 
The NASA Authorization Act authorized an FY08 funding level for NASA of 
$18.69 billion; the President's FY08 budget request is $17.3 billion.
    With respect to NASA's contract management practices, NASA remains 
on GAO's ``high risk'' list for its contract management practices. With 
respect to its financial management, NASA once again failed to pass an 
independent audit, and the auditors identified a number of ``material 
weaknesses'' that NASA will have to address.
Program Areas
            Space Science
    The President's FY 2008 budget requests $4.019 billion to fund 
NASA's space science programs, including Heliophysics, which seeks to 
understand the Sun and how it affects the Earth and the solar system; 
Planetary Science, which seeks to answer questions about the origin and 
evolution of the solar system and the prospects for life beyond Earth; 
and Astrophysics, which seeks answers to questions about the origin, 
structure, evolution and future of the universe and to search for 
Earth-like planets. The proposed budget represents a $16.5 million 
increase (or about 0.4 percent) over the President's proposed FY07 
budget.
    Programmatic content changes in the FY08 budget include the 
following:

        <bullet>  Geospace Missions of Opportunity Phase B studies not 
        funded

        <bullet>  MMS Solar Terrestrial Probe descoped to stay within 
        budget profile

        <bullet>  New Millennium ST-9 technology demonstrator mission 
        award delayed at least two years

        <bullet>  Planetary Science program reserves reduced and re-
        phased; future Planetary Science projects and Juno and New 
        Frontier missions ``re-phased''

        <bullet>  New ``Lunar Science'' budget line created

        <bullet>  GLAST and Kepler astrophysics mission launch dates 
        slipped

        <bullet>  Reserves for James Webb Space Telescope (JWST) 
        increased

        <bullet>  Space Interferometry Mission (SIM) deferred and 
        reduced to a technology development program with no identified 
        launch date

        <bullet>  SOFIA project reinstated.

    The FY08 budget request maintains the research and analysis (R&A) 
accounts at FY07 budget levels and thus sustain the 15 percent R&A cuts 
included in the FY06 and FY07 NASA budgets. Astrobiology, an 
interdisciplinary field that NASA created to study the origin, 
evolution, and possible existence of life in the Universe, has been cut 
by some 50 percent since FY06. The competitively-selected Explorer and 
small missions programs that National Academy Decadal Surveys have 
emphasized as vital, continue to lack the required funds to restore the 
two-year cycle of issuing announcements of opportunity (AOs). The 
current AO rate has been diminished considerably compared to earlier 
periods. The last Explorer AO was issued in 2003; under the FY08 budget 
request, the next AO is expected to be issued in late 2007 or 2008 
leaving a gap of approximately five years in new selections.
            Other Space Science issues include the following:
    Mission Size and Programmatic Balance--The FY08 budget request 
continues budgetary trends that are creating imbalances in science 
programs, especially in the research and analysis (R&A) accounts, which 
fund grants to analyze science mission data, and in the portfolio of 
sizes for science missions. Science programs that lack balance are not 
robust: they cannot be sustained or contribute adequately to high 
priority research questions laid out in National Academy decadal 
surveys. Moreover, in addition to their high scientific productivity, 
small and medium-sized missions are instrumental in training young 
scientists and engineers and in exciting the science and broader 
communities through the Principal Investigator team's promotion of the 
mission.
    Cost-Growth in Missions--Several of the increases in the proposed 
FY08 Science budget provide funds for projects that have run over 
budget or schedule, or that run the risk of doing so. The factors 
contributing to cost and schedule growth are not easy to pinpoint, but 
include under-estimates in the technology developments required for 
mission readiness; increases in launch vehicle costs; inadequate models 
to estimate mission costs; internal decisions to delay missions or 
alter budget profiles; project management difficulties; and delays in 
contributions from international or interagency partners. Mission cost 
growth erodes opportunities to conduct other high priority science and 
can lead to delays, cancellations, or reduction in funds for other NASA 
science missions and activities.
    Launch Services/Access to Space--Officials from NASA's Science and 
Space Operations Mission Directorates have called attention to a 
potential crisis in launch vehicle access for science missions. The 
Space Science program has been a regular user of Delta II vehicles, 
which are reported to have a 98 percent success rate for science 
missions flown since 1961. Between 2007-2009, NASA's Science Mission 
Directorate plans to launch at least eight missions on the Delta II 
vehicle. NASA is uncertain about the availability of the Delta II 
beyond 2009 and is conducting a study to investigate options for 
alternatives to the Delta II. The potential loss of Delta II raises the 
question of reliable access to space for science missions. Shifting to 
alternative vehicles could affect mission costs and schedule.
            Earth Science
    The President's budget for FY08 requests $1.497 billion for Earth 
science research, applications, Earth observing missions, education and 
outreach, and technology development. The proposed FY08 Earth science 
budget represents an increase of $32.8 million (or about 2.2 percent) 
over the President's FY07 budget request. The increase reflects the net 
addition of funds to address cost and schedule issues for Earth Science 
missions under development including the Landsat Data Continuity 
Mission, Glory mission, NPOESS Preparatory Project (NPP), and the 
Global Precipitation Measurement mission (GPM). Increases were also 
provided for Earth System Science Pathfinder missions (Orbiting Carbon 
Observatory and Aquarius) to help maintain schedule.
    The proposed FY08 budget maintains the nearly 20 percent cuts to 
the Earth science research and analysis (R&A) accounts that were 
proposed in FY07 budget. The R&A accounts fund grants for fundamental 
research, technology development, training of graduate students, theory 
research, and data analysis, in essence the intellectual underpinning 
for the program. As stated in the Decadal Survey, ``Without adequate 
R&A, the large and complex task of acquiring, processing, and archiving 
geophysical data would go for naught. Finally, the next generation of 
Earth scientists--the graduate students in universities--are often 
educated by performing research that has originated in R&A efforts.''
    Other Earth Science issues related to the FY08 budget request 
include the following:

Future Earth Observing Missions and Measurements--As discussed in the 
full House Committee on Science and Technology hearing on February 13, 
2007, the National Academy of Sciences recently released the results of 
the first-ever decadal survey on Earth science. The report, which was 
requested by NASA, NOAA, and USGS, states that ``the number of 
operating sensors and instruments on NASA spacecraft, most of which are 
well past their nominal lifetimes, will decrease by some 40 percent'' 
by the end of the decade. The report also states that ``. . .the United 
States' extraordinary foundation of global observations is at great 
risk.'' Many of the measurements that may be lost with these sensors 
provide critical information on weather and climate. Some of the 
planned replacement sensors, which are to be flown on NPOESS, are less 
capable than existing sensors and may affect future abilities to 
forecast El Nino events, hurricanes and weather forecasts in coastal 
areas. Moreover, the Decadal Survey notes that between 2000 and 2006 
NASA's Earth science budget decreased by more than 30 percent when 
adjusted for inflation. The proposed FY08 budget for NASA's Earth 
science programs responds to the recommendations of the interim report 
of the Decadal Survey by adding funds to complete missions currently 
under development that will sustain critical, high priority 
measurements (e.g., the Landsat Data Continuity Mission, the Glory 
mission and the GPM). However, the proposed FY08 budget does not 
provide out-year funding that would enable development of even the 
first few of the 15 new, high-priority NASA missions recommended in the 
Decadal Survey.
            Aeronautics Research
    The President's FY 2008 budget requests $554M for Aeronautics 
Research, which includes aviation safety, airspace systems, fundamental 
aeronautics, and aeronautics test program. While the FY08 budget for 
Aeronautics represents a $170.4 million decrease from the President's 
FY07 NASA budget request, NASA states that the decrease can be 
attributed to changes in NASA's allocation of overhead rates (referred 
to as ``full cost simplification'') and does not reflect any changes in 
programmatic content. If full cost simplification is taken into 
account, NASA would say that the FY08 request is an increase of $24.7 
million (or about 4.7 percent). After FY08, the NASA Aeronautics 
funding would decline to $546.7 million in FY09. As a point of 
comparison, NASA Aeronautics funding was about $1.85 billion (2006 
dollars) in 1994--the current budget request is thus only about 30 
percent of that level.
    The FY08 five-year budget plan would increase Aeronautics funding 
by $222 million (or about 10 percent) over the period FY08-11 relative 
to the amounts in the FY07 five-year budget plan (assuming full cost 
simplification). However, the budget request for FY08 is approximately 
$336 million less than the $890.4 appropriated for NASA Aeronautics in 
the FY07 Joint Resolution, or approximately $141 million less if NASA 
is able to apply full cost simplification to the FY07 appropriated 
amount. Thus the funding reduction from the FY07 appropriation to the 
FY08 budget request would largely or completely negate the funding 
increase to Aeronautics over the FY08-11 period.
    The aeronautics community relies upon NASA for aeronautical 
research and development. Beginning in late 2005, NASA began 
restructuring its aeronautics program to move away from a program that 
included technology demonstration projects and R&D that led to greater 
technology maturity and towards a program focused on more fundamental 
research. In addition, NASA has cut back substantially on the amount of 
the research that would be conducted by universities and industry, with 
almost 90 percent of the research conducted in-house at NASA. The 
specific types of projects that NASA will undertake and the level of 
technical maturity that the R&D will be allowed to reach are still 
unclear. These changes in NASA's Aeronautics program occur at a time 
when the Next Generation Air Transportation System (NGATS), which will 
modernize the air traffic control system to accommodate projected 
growth in air passenger and cargo rates over the next decade, is 
ramping up. The FAA has traditionally relied on NASA for a significant 
fraction of the R&D related to air traffic management, and concerns 
have been expressed that NASA's redirection of its aeronautics research 
priorities could lead to a significant ``technology gap'' in a number 
of key next generation air traffic management programs.
            International Space Station
    The President's FY 2008 NASA budget requests $2.2 billion for the 
International Space Station (ISS) program to continue ISS assembly and 
development of assembly elements, augment ISS robotic capability (by 
adding the Canadian Special Purpose Dexterous Manipulator), conduct ISS 
crew exchanges (two Russian Soyuz flights per year); carry out ISS 
operations, including conducting extra vehicular activities for 
maintenance, science, and assembly. The proposed FY08 budget represents 
an increase of $476 million (or about 27 percent) over the FY07 budget 
request. The increase reflects a number of factors, including the such 
things as the transfer of the ISS Crew and Cargo Services budget from 
the Exploration Systems budget where it had been book-kept; addition of 
funds to deal with the Shuttle transition and retirement impacts; and 
an increase in the amount of overhead allocated to the ISS program.
    Some of the issues related to the FY08 budget request include the 
following:

ISS Cargo and Crew Transportation Services--According to NASA, the FY08 
budget request and five-year budget plan include an estimated shortfall 
of $924 million in funding needed for ISS Crew and Cargo transportation 
services. $308 million of the shortfall is supposed to be made up by 
the Space Operations Mission Directorate and the remainder has been 
placed as a lien against the Exploration Systems Mission Directorate's 
programs. Commercial orbital transportation services [COTS] are still 
being developed and the costs of these privately-provided options for 
cargo services are uncertain. The recently released Final Report of the 
International Space Station Independent Safety Task Force notes that 
COTS, as a new development activity, will likely cost more and take 
longer than expected. Purchases of Russian Progress, European ATVs, 
Japanese HTV launch vehicles, or possibly other commercial systems 
could potentially provide some back-up should the COTS program not 
deliver an operational capability when needed, but those alternatives 
would require some time to procure.

International Space Station Research--The ISS is intended to serve as 
an on-orbit facility where R&D in support of both human exploration and 
non-exploration purposes and other exploration technologies is to be 
conducted. However, the ISS research budget, which is book-kept in the 
Exploration Systems (ESMD) budget has been significantly cut back in 
recent years to help fund the Crew Exploration Vehicle/Crew Launch 
Vehicle and for other purposes. The FY08 budget request for the ESMD 
ISS research budget is $78 million, a 25 percent decrease from the FY07 
budget request, which itself represented a cut relative to previous 
years.

ISS Reserves--According to NASA briefing charts, the ISS program is 
``facing most challenging period of assembly with minimal reserve 
posture. . .negative reserves in FY 2007; nearly depleted reserves in 
FY 2008.''
            Space Shuttle
    The President's FY 2008 budget requests $4.0 billion to operate and 
maintain NASA's three Space Shuttles, and to conduct four ISS assembly 
flights and a Hubble Space Telescope (HST) servicing mission in FY08. 
The proposed budget represents a decrease of $10 million from the 
President's FY07 budget request. The decrease represents the net 
difference between funding increases for flight and ground operations 
and flight hardware and a funding decrease for program integration.
    Some of the issues related to the FY08 budget request include the 
following:

Space Shuttle Program Transition and Retirement--There will be a 
significant level of effort required for program shutdown after the 
Shuttle's retirement in FY10. However, the FY08 budget request's five-
year plan doesn't include funds to address Space Shuttle program 
transition and retirement past FY10 even though NASA knows there will 
be costs associated with the shutdown. In addition, the budget number 
for FY11 only includes a ``placeholder'' amount for severance and 
retention payments.

Space Shuttle Program Reserves--NASA states that the FY08 budget 
request has reduced the level of reserves that would be available to 
address remaining program threats. For FY08, NASA is bookkeeping $62 
million in program reserves for a $4 billion Shuttle program.

            Exploration Initiative
    The President's proposal for NASA's FY 2008 budget provides $3.92 
billion for Exploration Systems to fund Constellation Systems, which 
includes the development, demonstration, and deployment of the Orion 
Crew Exploration Vehicle (CEV) and the Ares 1 Crew Launch Vehicle (CLV) 
as well as associated ground and in-orbit infrastructure; and Advanced 
Capabilities, which includes human research to support ISS and future 
exploration; a lunar precursor robotic program; microgravity research; 
and technology development to support Orion and other exploration 
programs.
    The proposed FY08 budget represents a decrease of $229 million 
(about 5.5 percent) from the President's FY07 budget request. In 
addition, the President's request for the Constellation program (which 
funds the CEV and CLV development) declines from the FY07 request level 
of $3.23 billion to $3.07 billion in the FY08 budget request. The bulk 
of the decline is due to the transfer of the ISS Crew and Cargo 
services account from the Exploration Systems Mission Directorate to 
the Space Operations Mission Directorate.
    Some issues related to the FY08 budget request and FY07 
appropriation include the following:

CEV and CLV schedule and budget--The President's Vision statement 
directed NASA to have the CEV operational no later than 2014. The NASA 
Authorization Act of 2005 directed the NASA Administrator ``manage 
human space flight programs to strive to achieve. . .launching the Crew 
Exploration Vehicle as close to 2010 as possible'' subject to the 
proviso that the Administrator shall ``construct an architecture and 
implementation plan for NASA's human exploration program that is not 
critically dependent on the achievement of milestones by fixed dates.'' 
NASA had been saying that its budget plan would deliver an operational 
CEV in 2014. However, independent of any potential impact of the FY07 
Joint Resolution, NASA has recently concluded that ``As a result of 
this analysis over the past two months, the FY 2008 budget request does 
not support a 2014 initial operational capability, but March 2015, even 
before the FY07 CR impact. . ..'' NASA is now projecting a six-month 
slip in the CEV schedule, independent of the Joint Resolution impact. 
NASA estimates that the Joint Resolution could potentially add another 
four to six-month delay on top of that, although that would depend on 
how NASA implemented the Joint Resolution.

ISS Cargo and Crew Transportation Services--The Exploration Systems 
budget has had a lien of $616M put on it to help fund the $924 million 
shortfall in funding for ISS Crew and Cargo transportation services 
during 2010-2015 when the Shuttle is no longer operating. Those 
transportation services are expected to be provided by privately-
provided Commercial Orbital Transportation Services [COTS]. COTS are 
still being developed and the costs as well as the viability of these 
privately-provided options for cargo services are uncertain. The 
shortfall will likely have to be taken from the Exploration Systems 
Advanced Capabilities program.

Lunar Robotic Precursor Program--NASA indicates that funding will be 
eliminated for any lunar robotic missions that were to follow the Lunar 
Reconnaissance Orbiter (LRO) and its accompanying payload--the LCROSS--
which is scheduled to launch in October 2008.

Exploration Technologies--As a result of the shift of Advanced 
Capabilities funds to support the CEV/CLV development program, the 
amount of money available to support technologies not directly related 
to the CEV/CLV program needs has been significantly constrained, and 
the funding outlook is bleak for any near-term restoration of such 
long-term technology development activities.

            Space Communications
    The Tracking and Data Relay Satellite System (TDRSS) system, which 
provides in-orbit communications links between on-orbit systems (e.g., 
the Shuttle, Hubble, and near-Earth orbiting satellites) and the ground 
is aging. Other agencies such as DOD also rely on TDRSS. The 
communications support provided by TDRSS is projected to decline by 
2011. After seeking funds to replace TDRSS satellites in several past 
budgets without success, the Space Operations Mission Directorate 
redirected $78.4 million from the Space Shuttle Transition and 
Retirement (STAR) budget and ISS reserves, as well as $33.6 million 
from Shuttle reserves as a down-payment on two TDRSS replacement 
spacecraft. NASA has also secured an agreement from the DOD to fund 
approximately two-thirds of the total cost of TDRSS replacements. These 
replacements will ensure TDRSS support until 2016.
            Education
    The President's budget proposes $154 million in FY 2008 to support 
NASA's Education program, including projects targeted at higher 
education, minority university research and education, elementary and 
secondary education; and the E-education project, which supports 
development of technology products, services, and applications, as the 
informal education project, which seeks to expand student, educator, 
and public learning in STEM areas. The proposed FY08 budget represents 
a reduction of $13.7 million (about eight percent) from the President's 
FY07 budget request. In addition, funding for NASA's educations 
programs is projected to decline over the next five years from the FY07 
request level.
            Commercial Technology
    The President's budget proposes $198 million in FY 2008 to fund 
NASA's Innovative Partnerships Program, which is intended to establish 
partnerships with industry, academia, other government agencies and 
national laboratories in the interest of leveraging technologies and 
capabilities for NASA missions and programs. These programs include 
technology transfer, Small Business Innovative Research (SBIR) and 
Small Technology Transfer Research (STTR) programs. The proposed FY08 
budget represents a decrease of $17 million (about eight percent) from 
the President's FY07 budget request. The Red Planet venture capital 
fund program, which was modeled on CIA's In-Q-Tel program, is 
eliminated in this budget request.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Gordon. The Committee will come to order, and I 
want to welcome everyone. We normally meet on Wednesdays, and 
so folks try to keep their schedules available for Wednesday. 
On a Thursday morning, we are competing with a variety of 
markups today, so we will have folks that will be, I am afraid, 
coming and going. But we will still gain all of this good 
information, and we welcome all of you here.
    And I particularly would like to begin by welcoming Dr. 
Griffin to today's hearing. And we look forward to your 
testimony. You have always been straightforward with me and 
this committee, and I very much appreciate that, as I have told 
you on a number of occasions.
    And in that same spirit of candor, I will say that--what I 
have said before, and that is that I am afraid that NASA is 
headed for a financial ``train wreck'' if things do not change.
    Your testimony outlines some of the challenges NASA is 
facing as a result of the fiscal year 2007 Joint Resolution. We 
will explore those in more detail during today's hearing, but 
it is clear that NASA's problems run much deeper. And let me--
or budget problems run much deeper.
    Let me just list a few of them. First, the fiscal year 2008 
budget request continues a pattern of the Administration's 
requests that fail to ask for the level of funding that the 
White House had said NASA would need to carry out the 
Exploration Initiative and some other core activities.
    Specifically, in the three years since the President 
announced his Exploration Initiative, the White House has cut 
NASA's five-year budget plan by a total of $2.26 billion. And 
based on this year's budget submittal, the shortfall will 
worsen by another $420 million in fiscal year 2009. The impact 
of the $2.7 billion shortfall is compounded by the 
Administration's under-budgeting of the Space Shuttle and the 
International Space Station programs in that same five-year 
budget.
    The under-budgeting forced you to take some $3.7 billion 
out of the rest of the Agency's programs to cover that 
shortfall, which brings me to the fiscal year 2008 budget 
request and its five-year budget plan.
    The budget plan includes an estimated shortfall of $924 
million in ISS crew and cargo services funding, a shortfall 
that will have to be made up one way or the other. The budget 
plan does not include funds to address Space Shuttle program 
termination and retirement costs past fiscal year 2010, 
although NASA concedes that there may be additional costs.
    The budget plan doesn't include funds for the required 
upgrade of the aging Deep Space Network, although NASA says it 
will need to start funding it in fiscal year 2009. The budget 
plan reduces the amount of Space Shuttle reserves available to 
address remaining Shuttle program threats during the remaining 
missions.
    The budget plan contains almost no funds to initiate the 
series of new missions recommending by the National Academies 
Earth Science Decadal Survey. The budget plan defers a 
significant amount of research to be done on the International 
Space Station and provides no grounds for optimism that the 
research will be adequately funded prior to NASA's planned 
withdrawal from the ISS program.
    The budget plan continues the Administration's under-
funding of NASA's aeronautics program. The budget plan 
continues to cut back on NASA's long-term exploration 
technology program. For example, NASA will eliminate its lunar 
robotic program, the precursor program for its human lunar 
initiative after only one mission.
    And even before the Joint Resolution impact is factored in, 
NASA's personnel were looking at a six-month slip in the Crew 
Exploration Vehicle schedule to 2015.
    I could go on, unfortunately, but I think it is clear we 
have budgetary situation that bears little resemblance to the 
rosy projections offered by the Administration when the 
President announced the mission for space exploration three 
years ago and a vision that is now increasingly, and 
unfortunately, blurred.
    And, Dr. Griffin, in your testimony, you mention the 
negative impacts of the Joint Resolution passed to deal with 
the unfinished fiscal year 2007 appropriations left to us by 
the previous Congress.
    I agree with you that those impacts are not good, and that 
is the reason that I went before our Budget Committee and urged 
them to increase the budget to over $1 billion, to our 
authorized levels. However, I am afraid you were left hanging 
by your own Administration when it said nothing about NASA in 
the Statement of Administration Policy that it sent over to the 
House.
    The Administration's silence, unfortunately, sent a message 
that it was not helpful. I will not kid you that it is going to 
be--or it is not going to be easy getting the funding you are 
requesting in this year's budget, especially if the White House 
remains disengaged. Yet, based on the items I have already 
listed, I am worried that even getting the President's 
requested level is just going to push the looming budgetary 
problem down the road until the next election.
    And so today, I would like to find out at least the 
following.
    Given your assessment of the negative impact of the Joint 
Resolution, did you ask the White House to weigh in with the 
House of Representatives? If so, why not? If you think the 
submittal--or if you think submitting a budget request with a 
shortfall of almost a billion dollars in ISS crew and cargo 
funding embedded in it makes sense, was it your idea or OMB's? 
Given the agreement I thought NASA had with the OMB on the ISS 
and the Shuttle funding last year, why did this year's budget 
request come over with shortfalls and reduced reserves in the 
Shuttle and the ISS accounts? Did you shift the money or did 
OMB change the agreement?
    Well, we have a lot to talk about, and I am sorry to start 
off on such a negative or a--I won't say negative, but a 
difficult posture, but these are issues that are very 
important, and we need to know more about them.
    Thank you.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning. I'd like to begin by welcoming Dr. Griffin to today's 
hearing. We look forward to your testimony.
    You always have been straightforward with me and this committee, 
and I appreciate it. And in that same spirit of candor, I will say what 
I've said before--that I'm afraid that NASA is headed for a ``train 
wreck'' if things don't change.
    Your testimony outlines some of the challenges NASA is facing as a 
result of the FY 2007 Joint Resolution. We will explore those in more 
detail during today's hearing, but it is clear that NASA's problems run 
much deeper.
    Let me just list a few of them:
    First, the FY 2008 budget request continues a pattern of 
Administration requests that fail to ask for the level of funding that 
the White House had said NASA would need to carry out the exploration 
initiative and its other core activities.
    Specifically, in the three years since the President announced his 
exploration initiative, the White House has cut NASA's five-year budget 
plan by a total of $2.26 billion. And based on this year's budget 
submittal, that shortfall will worsen by another $420 million in FY 
2009.
    The impact of that $2.7 billion shortfall is compounded by the 
Administration's under-budgeting of the Space Shuttle and International 
Space Station programs in that same five-year budget plan. That under-
budgeting forced you to take some $3.7 billion out of the rest of the 
Agency's programs to cover that shortfall.
    Which brings me to the FY08 budget request and its five-year budget 
plan. That budget plan includes an estimated shortfall of $924 million 
in ISS crew and cargo services funding--a shortfall that will have to 
be made up one way or another. The budget plan does not include funds 
to address Space Shuttle program termination and retirement costs past 
FY 2010, although NASA concedes there will be additional costs.
    The budget plan doesn't include funds for the required upgrade of 
the aging Deep Space Network, although NASA says it will need to start 
funding it in FY 2009. The budget plan reduces the amount of Space 
Shuttle reserves available to address remaining Shuttle program threats 
during the remaining missions.
    The budget plan contains almost no funds to initiate the series of 
new missions recommended by the National Academies' Earth Science 
Decadal Survey. The budget plan defers a significant amount of the 
research to be done on the International Space Station and provides no 
grounds for optimism that the research will be adequately funded prior 
to NASA's planned withdrawal from the ISS program.
    The budget plan continues the Administration's underfunding of 
NASA's aeronautics program. The budget plan continues to cut back on 
NASA's long-term exploration technology program. For example, NASA will 
eliminate its lunar robotic program--the precursor program for its 
human lunar initiative after just one mission-LRO--has flown.
    And even before the Joint Resolution impact is factored in, NASA 
personnel were looking at a six-month slip in the Crew Exploration 
Vehicle schedule to 2015.
    I could go on, but I think it's clear we have budgetary situation 
that bears little resemblance to the rosy projections offered by the 
Administration when the President announced his ``Vision for Space 
Exploration'' three years ago--a vision that is now increasingly 
blurred. . ..
    Dr. Griffin, in your testimony you mention the negative impacts of 
the Joint Resolution passed to deal with the unfinished FY 2007 
appropriations left to us by the previous Congress.
    I agree with you that those impacts are not good, and I urged that 
increased funding be made available for NASA. However I'm afraid you 
were left hanging by your own Administration when it said nothing about 
NASA in the Statement of Administration Policy that it sent over to the 
House.
    The Administration's silence unfortunately sent a message that was 
not helpful.
    I will not kid you that it is going to be easy to get the funding 
you are requesting in this year's request, especially if the White 
House remains disengaged.
    Yet based on the items I've already listed, I'm worried that even 
getting the President's requested level is just going to push the 
looming budgetary problem down the road until after the next election.
    And so today, I'd like to find out at least the following:

         Given your assessment of the negative impact of the Joint 
        Resolution, did you ask the White House to weigh in with the 
        House of Representatives? If so, why didn't they?

         Do you think submitting a budget request with a shortfall of 
        almost a billion dollars in ISS crew and cargo funding embedded 
        in it makes sense? Was it your idea or OMB's?

         Given the agreement I thought NASA had with OMB on ISS and 
        Shuttle funding last year, why did this year's budget request 
        come over with shortfalls and reduced reserves in the Shuttle 
        and ISS accounts--did you shift the money, or did OMB change 
        the agreement?

    Well we have a lot to talk about today. Once again, I want to 
welcome you to this hearing, Dr. Griffin, and I look forward to your 
testimony.

    Chairman Gordon. Mr. Hall.
    Mr. Hall. Mr. Chairman, I thank you, and I would like to 
also welcome our NASA Administrator, Dr. Michael Griffin, to 
this very important hearing.
    And as I have said many times before, NASA is in the 
business of doing difficult and challenging tasks. And our 
country looks to NASA to inspire us and to push the boundaries 
of exploration. Mike Griffin understands this. We are fortunate 
to have such an intelligent man and focused man leading the 
Agency, because NASA faces tough challenges ahead.
    NASA actually performs best when it has a clear mission. In 
my opinion, they have a clear mission, a mission they shouldn't 
retreat from. The mission--the vision was established a few 
years ago when the economy wasn't as strong as it is now. 
Today, the economy is strong, and the time will come when the 
stresses and strains of the Iraq War are going to subside. I 
would like to see NASA press on. Don't be bullied into a 
compromise that might cost us our allies. Those are some of the 
things that we hope you will remember.
    In the aftermath of the Columbia tragedy, we all recognize 
that NASA needed a new, clearly-defined, affordable mission, 
and a mission that would take us beyond the low-Earth orbit. 
After careful study, the Administration proposed their Vision 
for Space Exploration, which I support and which this committee 
and the entire Congress endorsed through the NASA Authorization 
Act of 2005. That consensus gave NASA the stable direction that 
it had lacked.
    Since the Vision was first announced, two major financial 
obstacles have occurred. First, earlier estimates for the 
remaining Shuttle flights understated the costs by roughly $3 
billion. Second, the five-year budget run-out presented at the 
time the Vision was announced assumed a higher funding profile. 
In the years since, the Administration requests for NASA have 
come in lower, and unfortunately, Congress failed to fully fund 
the fiscal year 2007 request.
    Everyone bears some blame for the funding shortfalls, but 
the point I want to stress is that NASA continues to hold to 
its original schedule for the Vision, but doing it with smaller 
budgets, consequently, the stress on the Agency is enormous. In 
our own NASA Authorization Bill, written after the vision was 
announced, for 2008 we authorized $1.4 billion more than the 
Administration has requested.
    Mr. Griffin, I never have been, and I will never be, 
critical of your performance. You are doing a superb job, and I 
don't know of anyone better qualified to lead the Agency, but I 
certainly encourage you to talk to your friends at OMB, to Rob 
Portman, who is a class guy and a former Member of this 
Congress, and to the White House and tell them that NASA's 
friends on Capitol Hill are growing concerned that the Agency's 
squeezing too hard and will suffer for it unless realistic 
budgets are presented.
    Congress supports the Vision. Congress certainly supports 
NASA's science and aeronautics program, but if forced to choose 
between science, aeronautics, or human space flight, I am not 
sure, at the end of the day, what the final choice would be. As 
one who believes in the necessity of having a robust, human 
space flight program, I want to work with you to ensure we have 
the CEV flying by 2014. The brave men and women we ask to 
explore space deserve the best equipment and the safest 
spacecraft we can build.
    I thank you, sir, for coming before us, and I look forward 
to hearing your testimony to help us to understand how NASA 
plans to manage these challenges.
    Mr. Chairman, I thank you, and I yield back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Mr. Chairman, I would like to welcome our NASA Administrator, Dr. 
Michael Griffin, to this important hearing. As I've said many times 
before, NASA is in the business of doing difficult and challenging 
tasks, and our country looks to NASA to inspire us and push the 
boundaries of exploration--Mike Griffin understands this. We are 
fortunate to have such an intelligent and focused man leading the 
Agency because NASA faces tough challenges ahead.
    NASA performs best when it has a clear mission. In my opinion they 
have a clear mission. A mission they shouldn't retreat from. The Vision 
was established a few years ago when the economy wasn't as strong as it 
is now. Today the economy is strong and the time will come when the 
stresses and strains of the Iraq war will subside. I'd like to see NASA 
press on. Don't be bullied into a compromise that might cost us our 
allies. Those are some of the things I hope you'll remember.
    In the aftermath of the Columbia tragedy we all recognized that 
NASA needed a new, clearly defined, affordable mission that would take 
us beyond low Earth orbit. After careful study, the Administration 
proposed the Vision for Space Exploration--which I support--and which 
this committee and the entire Congress endorsed through the NASA 
Authorization Act of 2005. That consensus gave NASA the stable 
direction it had lacked.
    Since the Vision was first announced, two major financial obstacles 
have occurred. First, earlier estimates for the remaining Shuttle 
flights understated the cost by roughly $3 billion. Second, the five-
year budget runout presented at the time the Vision was announced 
assumed a higher funding profile. In the years since, the 
Administration requests for NASA have come in lower, and unfortunately 
Congress failed to fully fund the FY 2007 request. Everyone bears some 
blame for the funding shortfalls, but the point I want to stress is 
that NASA continues to hold to its original schedule for the Vision, 
but doing it with smaller budgets. Consequently, the stress on the 
agency is enormous.
    In our own NASA authorization bill, written after the Vision was 
announced, for FY 2008 we authorized $1.4 billion more than the 
Administration has requested.
    Mr. Griffin, I would never be critical of your performance. You are 
doing a superb job, and I don't know anyone better qualified to lead 
the Agency. But I'd certainly encourage you to talk to your friends at 
OMB--to Rob Portman who is a class guy and a former Member of this 
Congress--and to the White House, and tell them that NASA's friends on 
Capitol Hill are growing concerned that the Agency is squeezing too 
hard and will suffer for it unless more realistic budgets are 
presented. Congress supports the Vision. Congress also supports NASA's 
science and aeronautics programs but if forced to choose between 
science, aeronautics or human space flight, I'm not sure at the end of 
the day what the final choice would be. As one who believes in the 
necessity of having a robust human space flight program, I want to work 
with you to ensure we have the CEV flying by 2014. The brave men and 
women we ask to explore space deserve the best equipment and the safest 
spacecraft we can build.
    Thank you for coming to talk to us today, and I look forward to 
hearing your testimony to help us understand how NASA plans to manage 
these challenges.

    Chairman Gordon. Thank you, Mr. Hall.
    You know, during the last couple of years, I think Sherry 
Boehlert, Chairman Sherry Boehlert and I, could have exchanged 
opening statements many times and not known a difference. I 
think you and--I certainly could have--would have welcomed to 
have given that same opening statement today. I think we are 
very much in tune.
    And now the Chair recognizes Mr. Udall.
    Mr. Udall. Thank you, Mr. Gordon.
    Given your comments, it is tempting to just submit my 
statement for the record, as well, but I think I will go ahead 
and present it to Dr. Griffin, because I, too, agree with Judge 
Ralph Hall and our Chairman, Mr. Gordon.
    Dr. Griffin, always great to see you. Thank you for coming 
up here today. As you know, this is the first formal review of 
the 2008 budget request, and we are, of course, looking forward 
to your testimony.
    You have got a tough job, and we need to understand the 
basis of the decisions you are making as well as the--any 
concerns you have about the budget. As I mentioned, I agree 
with Chairman Gordon's assessment of the situation we are 
facing.
    It is going to be a tough year to get the resources that we 
need for space and aeronautics, but all of us are going to make 
the best effort that we possibly can. And we are going to do so 
because NASA's space and aeronautics programs are a very 
important component of our overall R&D enterprise throughout 
this nation. And I think there is agreement across the board 
that we need to be investing more, not less, in these areas.
    On Tuesday, we held a hearing on science and technology 
leadership in the 21st century global economy, and we heard a 
distinguished panel of witnesses stress the importance of 
investing in basic research if we are going to remain 
competitive in this nation. And NASA's space and Earth science 
basic research activities, along with microgravity research, 
are prime examples of research investments that cannot only 
advance our knowledge but benefit society. And it should be 
known, I think we all agree here, that the investments also 
play a critical role in educating the next generation of 
scientists and engineers.
    Aeronautics R&D, we have discussed that at some great 
length, is another area where investments we make benefit our 
economy, our quality of life, and our national security. And 
when we fail to invest adequately in a range of basic and 
applied aeronautics R&D, as I fear we are doing in this budget, 
we foreclose future options and fail to meet future needs in 
ways that we are likely to regret.
    Human space flight and exploration is another area that 
offers benefits ranging from the very important intangible 
inspiration it provides to the public, to the advanced 
technologies, and research results that can come from those 
initiatives.
    So in sum, I strongly support a robust budget for NASA, but 
as I mentioned earlier, I just don't think we are getting the 
budget requests that are matched to the tasks we want NASA to 
undertake. And those stresses resulting from the past 
shortfalls are now reinforced by the funding plateau imposed in 
fiscal year 2007 by the Joint Resolution.
    Dr. Griffin, I know it is your job to put the best face on 
the budget that you have to defend, but as Judge Hall and 
Chairman Gordon mentioned, we need to know where the stresses 
are as well as the deferred opportunities that result from this 
budget request. And as an example of that, last month, we heard 
from the National Academies about their recommendations for 
future science research and applications missions, something 
that we all care deeply about. However, as I look at the out-
year budget request, I see very little that would give me 
confidence that NASA will be able to undertake any substantial 
fraction of the recommended missions for the foreseeable 
future.
    Another example is the International Space Station. You 
testified that NASA expects to cease funding the ISS after 
2016, yet the plan, the budget plan, continues the deferral of 
any significant investments in the ISS research through the 
five-year budget horizon associated with the fiscal year 2008 
budget request. And the research plan still contains no clear 
research objectives and associated milestones to complete the 
needed research during the Space Station's operation life. And 
that troubles me. And it raises questions about the 
Administration's stewardship of this unique lifetime, limited 
orbital research and engineering facility in which the country 
has invested so much to build.
    Again, I don't fault you for attempting to prioritize 
within a hopelessly inadequate budget, but we, here in the 
Committee and in Congress, have to step back and consider 
whether the Administration's approach to the Nation's civil 
space and aeronautics R&D enterprise is credible and supported 
by the needed resources, and your testimony today will help us 
gather the information needed for the tough decisions that lie 
ahead.
    Again, let me join Chairman Gordon and Judge Hall and thank 
you for your service. And I look forward to your testimony, 
and, as important, to continue to work with you.
    Thank you.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    Good morning. I'd like to join my colleagues in welcoming you to 
today's hearing, Dr. Griffin. This will be the Committee's first formal 
review of NASA's FY 2008 budget request, and we look forward to your 
testimony.
    You have a tough job, and we need to understand the basis of the 
decisions you are making, as well as any concerns you have about the 
budget.
    I agree with Chairman Gordon's assessment of the situation we are 
facing. It is going to be a tough year for space and aeronautics 
supporters to get the budgetary resources NASA needs, but we are going 
to try.
    We are going to try because NASA's space and aeronautics programs 
are a very important component of the Nation's R&D enterprise, and we 
need to be investing more in those areas--not less.
    On Tuesday, this committee held a hearing on Science and Technology 
Leadership in a 21st Century Global Economy. We heard a distinguished 
panel of witnesses stress the importance of investing in basic research 
if this nation is to remain competitive.
    NASA's space and Earth science basic research activities, along 
with microgravity research, are prime examples of research investments 
that cannot only advance our knowledge but also benefit our society. 
And it should be noted that those investments play a critical role in 
educating the next generation of scientists and engineers.
    Aeronautics R&D is another area where the investments we make 
benefit our economy, our quality of life, and our national security. 
And when we fail to invest adequately in a range of basic and applied 
aeronautics R&D--as I fear we are in this budget--we foreclose future 
options and fail to meet future needs in ways that we are likely to 
regret.
    Human space flight and exploration is another area that offers 
benefits--ranging from the intangible inspiration it provides to our 
public to the advanced technologies and research results that can come 
from those initiatives.
    So, I strongly support a robust budget for NASA. Unfortunately, I 
don't think we have been getting budget requests that are matched to 
the tasks we want NASA to undertake. And the stresses resulting from 
those past shortfalls are now reinforced by the funding plateau imposed 
in FY07 by the Joint Resolution.
    Dr. Griffin, I know that it is your job to put the best face on the 
budget that you have to defend. But this committee needs to know where 
the stresses are, as well as the deferred opportunities that result 
from this budget request.
    For example, last month we heard from the National Academies about 
their recommendations for future Earth Science research and 
applications missions--something I care deeply about. However, as I 
look at your out-year budget request, I see little that would give me 
confidence that NASA will be able to undertake any substantial fraction 
of the recommended missions for the foreseeable future.
    Another example is the International Space Station. You have 
testified that NASA expects to cease funding the ISS after 2016. Yet 
your budget plan continues the deferral of any significant investments 
in ISS research through the five-year budget horizon associated with 
the FY08 budget request. And your ISS research plan still contains no 
clear research objectives and associated milestones to complete the 
needed research during the ISS's operational life.
    That troubles me and raises questions about the Administration's 
stewardship of this unique lifetime-limited orbital research and 
engineering facility in which the country has invested so much to 
build. Again, I don't fault you for attempting to prioritize within a 
hopelessly inadequate budget. But we in Congress have to step back and 
consider whether the Administration's approach to the Nation's civil 
space and aeronautics R&D enterprise is credible and supported by the 
needed resources.
    Your testimony today will help us gather the information needed for 
the tough decisions that lie ahead. Again, I want to thank you for your 
service and I look forward to your testimony.

    Chairman Gordon. I think Mr. Calvert holds the record here, 
current record, for the--going to the most NASA centers. And so 
he brings us a lot of good knowledge to the Committee, and he 
is now recognized for five minutes.
    Mr. Calvert. Well, as my former Ranking Member, and now my 
Chairman, probably knows, there are a lot of golf courses near 
each one of those centers, so I do try to see every one of 
them.
    Mr. Chairman, I want to certainly welcome the NASA 
Administrator, Mike Griffin, to this important hearing today. 
The American people are lucky to have such a well-qualified 
Administrator during this exciting and challenging time in 
NASA's history. And it is a challenging time for the agency.
    NASA is in a budgetary vice that is making it extremely 
difficult for the agency to successfully meet the many demands 
for its diverse portfolio of missions. The demands of the 
Agency are legitimate and critical to maintaining the global 
leadership our nation has held since Neil Armstrong first 
walked on the Moon back in 1969 in the areas of human space 
exploration, science, and aeronautics.
    In 2004, the President unveiled a bold Vision for Space 
Exploration to be implemented by NASA, which I strongly 
support. The Vision gives this nation's human space program the 
direction it has lacked, arguably, for several decades, and 
lays out an approach for long-term space exploration with 
measured milestones.
    During my Subcommittee chairmanship in the 109th Congress, 
I developed a clear understanding of the many trials of 
budgetary, organizational, political, and technological 
challenges facing NASA as it implements the Vision and works to 
balance the needs of its many stakeholders.
    In 2005, Congress passed the first NASA Authorization Act 
in five years. That process underscored the lack of funding, 
which is the key factor blocking the Agency from realizing its 
highest potential in all its core mission areas. As made clear 
in the 2005 Act, the Committee sought to provide NASA with the 
rules and tools to thrive as a multi-missioned agency with 
robust, cutting-edge activities in human exploration of space 
and space science, Earth science, and aeronautics. For fiscal 
year 2008, the Act authorizes $18.7 billion for NASA to achieve 
these programs.
    Unfortunately, as we have heard, the fiscal year 2008 
budget request seeks just $17.3 billion for NASA, substantially 
less than the authorized but still a three percent increase is 
well above many other agencies within the discretionary budget. 
Nonetheless, this parity, paired with the Agency's fiscal year 
2007 appropriations reduction of $545 million, jeopardizes 
NASA's ability to substantially accomplish its portfolio of 
missions, and it comes at a time when other countries, such as 
China, are eagerly ramping up their own space and aeronautics 
program. The recent ASAT strike should remind us all that the 
second space age will be crowded and competitive.
    Now we can all argue who is at fault for NASA's quandary, 
but really, the blame belongs to all involved parties: NASA, 
the past and current Administrations, the Congress, and the 
best way to resolve this situation is to move beyond the blame-
game and toward a coordinated effort to secure a top-line 
budget for the agency that is closer to the authorized amount 
and consistent with the breadth of programs, projects, and 
missions. This committee must be instrumental in that effort, 
so I call on my Science Committee colleagues to work in a 
bipartisan fashion and aggressively educate our peers, who are 
not familiar with NASA's activities and the importance of the 
robustly-funded civil space agency.
    For an agency that has made immense contributions to the 
quality of life, our economy, and international relations, the 
little more than one-half of one percent of the total federal 
budget investment we are providing is just not sufficient. 
NASA's stakeholders must stop fighting each other for a larger 
piece of the NASA pie and work on securing a bigger overall 
NASA pie.
    Administrator Griffin, I don't envy your predicament to 
manage our civil space agency under such daunting budgetary 
circumstances. As you know, there is justified frustration with 
many of my colleagues, but I am certain that no one can be more 
frustrated than you. I have every confidence in your ability to 
lead NASA at this time and to make the hard decisions as 
required by the budget that is ultimately provided.
    I do believe, like so many others, that you are, clearly, 
the right person for the job. I look forward to your important 
testimony, which will lay out next year's budget, as well as 
give us insight into the out-years. We will continue to work 
with you to provide NASA the Congressional resources and 
support needed to advance our nation's civilian space and 
aeronautics agency works. We have the building blocks for a 
fantastic space and aeronautics program, and this country 
should be second to none in those endeavors.
    With that, I yield back the balance of my time, Mr. 
Chairman.
    [The prepared statement of Mr. Calvert follows:]
            Prepared Statement of Representative Ken Calvert
    Mr. Chairman, I want to welcome NASA Administrator, Dr. Michael 
Griffin, to this important hearing today. The American people are lucky 
to have such a well-qualified Administrator during this exciting and 
challenging time in NASA's history.
    And it is a challenging time for the Agency.
    NASA is in a budgetary vise that is making it extremely difficult 
for the Agency to successfully meet the many demands of its diverse 
portfolio of missions. The demands on the Agency are legitimate and 
critical to maintaining the global leadership our nation has held since 
Neil Armstrong first walked on the Moon in 1969, in the areas of human 
space exploration, science and aeronautics.
    In 2004, the President unveiled a bold Vision for Space Exploration 
to be implemented by NASA, which I strongly support. The Vision gives 
our nation's human space program the direction it has lacked, arguably 
for several decades, and lays out an approach for long-term space 
exploration with measured milestones.
    During my Subcommittee Chairmanship in the 109th Congress, I 
developed a clear understanding of the many trials--budgetary, 
organizational, political, and technological--facing NASA as it 
implements the Vision and works to balance the needs of its many 
stakeholders.
    In 2005, Congress passed the first NASA Authorization Act in five 
years. That process underscored the lack of funding which is the key 
factor blocking the Agency from realizing its highest potential in all 
of its core mission areas.
    As made clear in the 2005 Act, this Committee sought to provide 
NASA the ``Rules and Tools'' to thrive as a multi-mission agency with 
robust, cutting edge activities in human exploration of space, space 
science, Earth science and aeronautics. For FY 2008, the Act authorizes 
$18.7 billion for NASA to achieve these programs.
    Unfortunately, the FY 2008 budget request seeks just $17.3 billion 
for NASA, substantially less than authorized but still with a three 
percent increase that is well above many other agencies within the 
discretionary budget. Nevertheless, this disparity, paired with the 
Agency's FY 2007 appropriations reduction of $545 million, jeopardizes 
NASA's ability to successfully accomplish its portfolio of missions. 
And it comes at a time when other countries, such as China, are eagerly 
ramping up their own space and aeronautics programs. Their recent ASAT 
strike should remind us all that the Second Space Age will be a crowded 
and competitive.
    Now we can all argue who's at fault for NASA's quandary but really 
the blame belongs to all involved parties--NASA, past and current 
Administrations and the Congress. The best way to resolve the situation 
is to move beyond the blame game and toward a coordinated effort to 
secure a top-line budget for the Agency that is closer to the 
authorized amount and consistent with the breadth of programs, projects 
and missions. This committee must be instrumental in that effort and so 
I call on my Science Committee colleagues to work in a bipartisan 
fashion and aggressively educate our peers who are not as familiar with 
NASA's activities on the importance of a robustly funded civil space 
agency.
    For an Agency that has made immense contributions to our quality of 
life, economy and international relations, the little more than one-
half of one percent of the total federal budget investment we are 
providing is just not sufficient. NASA stakeholders must stop fighting 
each other for a larger piece of the NASA pie and work on a securing a 
bigger overall NASA pie.
    Administrator Griffin, I do not envy your predicament to manage our 
civil space agency under such daunting budgetary circumstances. As you 
know there is justified frustration among many of my colleagues but I 
am certain that no one can be more frustrated than you. I do have every 
confidence in your ability to lead NASA at this time and to make the 
hard decisions as required by the budgets ultimately provided. I do 
believe, like so many others that you are clearly the right person for 
the job.
    I look forward to your important testimony which will lay out next 
year's budget, as well as give us insight into the out-years. We will 
continue to work with you to provide NASA the Congressional resources 
and support needed to advance our nation's civilian space and 
aeronautics agency's work. We have the building blocks for a fantastic 
space and aeronautics program--and this country should be second to 
none in these endeavors.

    Chairman Gordon. Thank you, Mr. Calvert.
    And once again, I think you can see, there is enmity in our 
thoughts here, and I want to echo Mr. Calvert when he says that 
we have to work with the other Members outside this committee. 
We are going to have a challenge on the House Floor when it 
comes, and it will be whether it is a motion to strike, whether 
it is a motion to change, we are going to have a challenge at 
that time, and we need to work together. We have already 
started, in a bipartisan way, talking with the appropriators so 
that we can try to move forward. And we want to--we will have 
a--we will join this committee with them earlier. I really 
would--even been thinking about having some joint hearings with 
the appropriators, because this is going to be a tough one, and 
we are going to have to work together. And again, I don't want 
to get into the blame-game, but I do want to say, we need the 
President to help us. And I mean, that is part of it. We can't 
do it--well, I won't say that. It would be very difficult to do 
it without the Administration and OMB's help. And so, we need 
to all get on this together, because it is going to be a 
challenge.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank Administrator Griffin for appearing 
before this committee to examine the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2008 (FY08) budget request as well 
as NASA's proposed FY07 Operating Plan.
    The President's budget proposal for FY08 provides $17.3 billion for 
NASA, which represents an increase of 3.1 percent over the FY07 
Continuing Resolution. I signed the Committee's Views and Estimates to 
the Budget Committee expressing our concerns that the FY08 budget 
request is approximately $690 million less than the amount authorized 
for FY08, based on the FY05 five-year budget plan that accompanied the 
President's Vision for Space Exploration. As the appropriations process 
moves forward, I urge the Committee to work together in a bipartisan 
fashion to ensure NASA's ability to continue to pioneer the future in 
space exploration, scientific discovery, and aeronautics is not 
hindered by a low funding allocation.
    NASA has played a vital role in the advancement of aerospace 
engineering jobs and development in the U.S. A number of NASA's 
scientific and human space flight activities involve collaboration with 
international participants and almost 90 percent of NASA's budget is 
for contract work. While I recognize the vital need to work in 
conjunction with foreign countries and maintain the Agency's 
flexibility to procure goods and services overseas, it is important 
that NASA keeps track of these contracts and subcontracts. To this end, 
I authored a provision in the NASA reauthorization legislation Congress 
passed and the President signed into law, to require NASA to submit an 
annual report to Congress, beginning January 2007, regarding its 
contracts and subcontracts performed overseas. Following the bill's 
enactment, Congressman Mark Udall and I asked the Government 
Accountability Office (GAO) to look into the matter and report their 
findings to Congress. In October of last year, GAO concluded that NASA 
will not be able to issue its reporting requirements. While I find this 
conclusion concerning, I am pleased that NASA is taking steps to be in 
full compliance with the reporting requirement and has agreed to work 
with the Office of Management and Budget (OMB) to improve its 
performance and establish a federal database to track these 
subcontracts more fully in 2008.
    I look forward to hearing from the Administrator on NASA's 
progress.
    Finally, I am opposed to the decrease in the President's FY08 
budget request for aeronautics research, which includes aviation 
safety, airspace systems, and development programs. The Federal 
Aviation Administration (FAA) has traditionally relied on NASA for a 
significant portion of the R&D related to air traffic management. I am 
concerned that NASA's funding reduction of its aeronautics research 
priorities could affect the FAA's attempts to transition to our Next 
Generation air traffic control system. As Chairman of the Aviation 
Subcommittee and a senior Member of this committee, I intend to monitor 
the funding levels for aeronautical research and development closely to 
ensure technology continues to progress to accommodate projected growth 
in air passenger and cargo rates over the next decade and beyond.
    I welcome Administrator Griffin and look forward to his testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman.
    As a Texan, I have a great admiration for NASA. NASA research and 
contracts provide important economic development for our State.
    NASA inspires generation after generation of young people to pursue 
careers in space, aeronautics, engineering, physics and mathematics.
    Not only that, but NASA research has yielded important results that 
have affected Americans' everyday lives.
    The computer mouse is a product of NASA research. Cochlea implants 
came from NASA research. Wine making has benefited from NASA research. 
Even Internet dating match technologies came from NASA research.
    As you can see, NASA funding affects us all. We on the Science and 
Technology Committee want to protect and support NASA. We just need 
clear information on how to do that.
    It is my hope that the NASA budget receives the support it needs to 
sustain strong programs that will continue to benefit Texas, and our 
nation.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for holding today's hearing on the National 
Aeronautics and Space Administration's (NASA) Fiscal Year 2008 Budget 
Request.
    As the primary civil space an aeronautics research and development 
agency, NASA plays a leading role in sustaining American technological 
competitiveness and economic security.
    I am concerned that the President's 2008 budget request neither 
adequately supports NASA, nor gives NASA the support the Administration 
promised in 2004 when the President announced his ``Vision for U.S. 
Space Exploration.''
    While the President's budget request does propose a modest increase 
of 3.1 percent over the FY07 President's request, the President's 
proposal still leaves NASA nearly $690 million behind the amount 
promised for FY 2008 in the budget plan that accompanied the 
President's Vision for Space Exploration. This also comes after years 
of deep cuts and budget freezes for NASA.
    Despite the importance of the aeronautics industry to our nation, 
the budget request for aeronautics research in FY 2008 is approximately 
$336 million less than the $890.4 million appropriated in the FY 2007 
Joint Resolution. This budget request represents a long decline in 
Aeronautics Research, and NASA funding in general.
    I know that today's hearing will be informative. I look forward to 
hearing your testimony, Dr. Griffin. Thank you very much for being here 
today.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Over that past few weeks the Committee has reviewed many aspects of 
the President's budget proposal. We have seen over and over again how 
this proposal under funds long-term research and undercuts American 
competitiveness.
    I am pleased to see that the President's proposed budget includes 
an increase for NASA above the Fiscal Year 2007 levels. Increased 
funding for NASA is good for Arizona.
    NASA business and educational contracts and grants for my district 
in Fiscal Year 2007 totaled nearly $6.5 million. ASU, also in the 5th 
district, receives funding from NASA to conduct important research for 
the space agency.
    At the same time, once again, while Fiscal Year 2008 proposed 
funding is increased for space operations and exploration, educational 
programs and long-term research and development are under funded.
    The Decadal Survey report which we reviewed in February found that 
the Earth observation systems are at ``the risk of collapse'' and are 
in ``disarray.'' These critical satellites enhance our understanding of 
the planet, and global warming. At ASU, researchers use data generated 
from Earth observation satellites to investigate rapid urbanization. 
However, development of Earth observation satellites is not a budget 
priority.
    Maintaining American competitiveness also means increasing the 
number of innovators. We must encourage and inspire a new generation of 
scientists and engineers. Under funding education programs does not 
accomplish this.
    If we don't invest now and invest well, we will fall even further 
behind. I am concerned that the President's budget priorities are 
misguided and I look forward to today's testimony.
    I yield back the balance of my time.

    Chairman Gordon. And at this time, now, I would like to 
introduce our witness today, our only witness, and that is the 
Director and Administrator, Dr. Michael Griffin. He is no 
stranger to this committee. And as we have said on a number of 
occasions, he is straightforward and candid.
    And, Dr. Griffin, let me remind you that we all recognize 
you are the messenger, and it is not our effort to shoot the 
messenger. And so please keep that, as I know that you will, in 
mind. We just wish you had a better message.
    So I will yield, and you may proceed.
    I can understand for you not wanting for us to hear this, 
but you do need to turn your microphone on.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. I am sorry.
    Chairman Gordon, Mr. Hall, thank you for having me here 
today. I was about to say, I am a big boy, and I think I can 
take the beating with a smile.
    I had a written opening set of remarks that I would, at 
this point, like to enter into the record rather than to read 
to give you back the most amount of time. I would like to make 
a couple of very brief remarks.
    The substance of my written remarks was to the point of 
asking for your strong support to get the full President's 
request. I see that is not quite the topic on the table today, 
so let me enter this for the record and make just a couple of 
brief remarks.
    First of all, there are--I think it needs to be said that 
there are two ways to approach a problem of budgeting. We must 
first have a strategy. And I want to remind you that when the--
and that when the Columbia Accident Investigation Board 
released their findings, they made a couple of very significant 
statements at the strategic level that went beyond the root 
causes of the problem. One of the things they said was that the 
U.S. civilian space effort has moved forward for more than 30 
years without a guiding vision. And they also expressed dismay 
at how previous attempts to develop a replacement vehicle for 
the aging Shuttle represent a failure of national leadership.
    Now, I agreed with those statements. I agreed with those 
statements in testimony to this committee as a private citizen. 
And they were damning statements, citing, as they did, a lack 
of leadership in space policy in this country that had gone on 
for a couple of generations.
    I think we now have the strategic vision that will tie this 
agency and our space and aeronautics program together. I think 
we have the right strategic vision. And I certainly appreciate, 
with you, that if that is the right strategic vision, which I 
hear--to which I hear no one objecting, if that is the right 
strategic vision, it is certainly true that one can adopt a 
budgeting approach to say what does it take to purchase all of 
the things in that vision.
    The other budgeting approach that one can take, which this 
Administration has taken, is to say that we will allocate a 
generous budget, generous in comparison to other domestic 
discretionary agencies, and we charge you, the Administrator, 
with preparing the best program that you can that will fit 
within that budget. And that, sir, is what I have--is what we 
have done at NASA. We have--the Administration requires of me 
that I carry out the best space and aeronautics program that 
can be done for the budget dollars to be made available. I have 
tried--I have submitted to you a balanced budget that respects 
all of our portfolios, but, nonetheless, adheres to that 
guiding vision, which came out of the tragedy of Columbia. It 
is $17.3 billion. It is 3.1 percent above last year's request. 
And it is well above the average domestic, non-defense 
discretionary program.
    It does reflect a strong commitment by the Administration 
to NASA. It does not purchase all of the things that all of us 
would like to purchase. But that is a fact of life, in public 
life as well as the private, and I am here to defend that 
budget as best I can do.
    Thank you, sir.
    [The prepared statement of Dr. Griffin follows:]
                Prepared Statement of Michael D. Griffin
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today to discuss the President's FY 2008 budget 
request for NASA. The President's FY 2008 budget request for NASA is 
$17.3 billion. This represents a 3.1 percent increase over the FY 2007 
request for the Agency, but not the enacted FY 2007 appropriation. The 
FY 2008 budget request for NASA demonstrates the President's continued 
commitment to our nation's leadership in space and aeronautics 
research, especially during a time when there are other competing 
demands for our nation's resources. The FY 2008 budget request reflects 
a stable plan to continue investments begun in prior years, with some 
slight course corrections. Overall, I believe that we are heading in 
the right direction. We have made great strides this past year, and 
NASA is on track and making progress in carrying out the tasks before 
us.
    Before I outline the FY 2008 budget request for NASA any further, 
in the invitation to testify today you asked that I address current 
NASA plans for the use of FY 2007 funding. On February 15, 2007, the 
President signed into law a joint resolution stipulating FY 2007 
funding levels for NASA and other federal agencies. This appropriation 
represents a funding level that is $545 million below the President's 
FY 2007 request. The FY 2008 budget request could not possibly factor 
the impact of this reduced level from the FY 2007 request for NASA's 
carefully-considered multi-year programs, and thus, several programs in 
the FY 2008 budget request will be impacted. The FY 2007 appropriation 
further specifies funding levels in human space flight of that are $677 
million below the request--$577 million of that from Exploration 
Systems. This reduction from the requested level may significantly 
impact our ability to safely and effectively transition from the 
Shuttle to the Orion Crew Exploration Vehicle and Ares I Crew Launch 
Vehicle. It will have serious effects on many people, projects, and 
programs this year, and for the longer term. As I noted during last 
year's Congressional hearings on NASA's FY 2007 budget request, we have 
a carefully balanced set of priorities to execute on behalf of our 
nation. So as a result of these funding levels that are less than the 
FY 2007 request, NASA is carefully assessing the implications to 
overall Exploration priorities and milestones, and will present 
detailed impacts after a full analysis is complete. The initial NASA 
Operating Plan for FY 2007, which we are endeavoring to finalize as 
soon as practicable, will reflect the impacts of less funding than 
planned and the requisite decisions. As always, we are here to carry 
out our nation's civil space and aeronautics programs with the 
resources made available by the Congress. All of our programs proceed 
in a ``go-as-we-can-afford-to-pay'' manner; so if we receive less 
funding than requested, we will adjust our pace. Our stakeholders have 
my commitment to continue to keep them informed as to what I believe is 
the best approach to carrying out NASA's space and aeronautics research 
missions with the resources provided. In this determination, I will be 
guided by the NASA Authorization Acts, annual Appropriations Acts, 
Presidential policy, and the decadal survey priorities of the National 
Academy of Sciences. If we determine that there is an Agency objective 
that we will be unable to meet, I will inform our Agency's 
stakeholders, including this committee.

Highlights of the NASA FY 2008 Budget Request

    The FY 2008 budget request for NASA is a carefully considered and 
balanced request formulated over many months with the White House. 
Unfortunately, the Congress had not completed action on the FY 2007 
budget at the time the FY 2008 budget was being finalized, so the 
impact of the final FY 2007 appropriation outcome is not accounted for 
in NASA's FY 2008 budget request. The FY 2008 budget request weaves 
together the Nation's priorities in space exploration, scientific 
discovery, and aeronautics research that will help fuel this nation's 
future, creating new opportunities for scientific benefit, economic 
growth, national security, and international cooperation.
    The greatest challenge NASA faces is safely flying the Space 
Shuttle to assemble the International Space Station (ISS) prior to 
retiring the Shuttle in 2010, while also bringing new U.S. human space 
flight capabilities on-line soon thereafter. We must understand that, 
given proper goals, human space flight is a strategic capability for 
this nation, and we must not allow it to slip away. In January, we 
remembered those whom we have lost in the exploration of space. In the 
aftermath of the Columbia tragedy, President Bush addressed the NASA 
workforce, saying, ``In your grief, you are responding as your friends 
would have wished--with focus, professionalism, and unbroken faith in 
the mission of this agency.'' We must commit ourselves to the focus of 
professionalism and unbroken faith every day in order to carry out the 
tasks before us.
    In analyzing not only the root causes, but also the systemic 
reasons behind the Columbia accident, the Columbia Accident 
Investigation Board (CAIB) made critical observations that guided the 
formulation of our present civil space policy. I fear that with the 
passage of time and the press of other concerns, we may be losing sight 
of some of these principles, so let me reiterate some of them here 
today. First, the CAIB noted that, ``The U.S. civilian space effort has 
moved forward for more than 30 years without a guiding vision.'' 
Second, ``because the Shuttle is now an aging system but still 
developmental in character, it is in the Nation's interest to replace 
the Shuttle as soon as possible as the primary means for transporting 
humans to and from Earth orbit.'' Third, ``the previous attempts to 
develop a replacement vehicle for the aging Shuttle represent a failure 
of national leadership.'' And finally, the Board noted that ``this 
approach can only be successful: if it is sustained over the decade; if 
by the time a decision to develop a new vehicle is made there is a 
clearer idea of how the new transportation system fits into the 
Nation's overall plans for space; and if the U.S. Government is willing 
at the time a development decision is made to commit the substantial 
resources required to implement it.''
    Since then, the President, the Congress and NASA have charted a new 
course in U.S. civil space policy that addresses all of these points, 
and the President's FY 2008 budget reaffirms that commitment with the 
necessary funds for the Space Shuttle and the ISS. NASA will continue 
forward at the best possible pace with the development of the Orion and 
Ares I crew vehicles. However, due to the cumulative effect of 
previously underestimated costs to retire/transition the Space Shuttle 
and support the International Space Station, the reduction from the FY 
2007 request reflected in the FY 2007 Continuing Resolution, and the 
maturing design and integrated flight tests baselined for the 
Constellation program, it is unlikely that NASA will be able to bring 
these new Exploration capabilities online by 2014. Full funding of 
NASA's FY 2008 Exploration Systems request is critical to ensuring the 
gap between retirement of the Space Shuttle and the new U.S. human 
space flight capability does not grow longer. If the gap in our human 
space flight capability extends even further than already planned, I 
believe our nation will be ceding leadership in human space flight at a 
time when China and Russia have their own indigenous capabilities and 
India is developing its own capabilities. If we do not quickly come to 
grips with this issue, America may have a prolonged gap between the end 
of the Shuttle program and the beginning of Orion and Ares I 
operational capability, a gap similar to the one that occurred from 
1975 to 1981 when our nation transitioned from Apollo to the Space 
Shuttle.
    NASA has a lot of hard work ahead of it and many major milestones 
this year and next. The transition from the Space Shuttle to the Orion 
and Ares launch vehicles over the next several years must be carefully 
managed, and we must be focused, professional and committed to our 
mission. This is NASA's greatest challenge, and I ask the Committee's 
help in meeting it.
    In the important area of Earth Science, we recently received the 
first-ever Decadal Survey for Earth Science from the National Academy 
of Sciences, which NASA, the National Oceanic and Atmospheric 
Administration (NOAA), and the United States Geological Survey (USGS) 
requested in 2003. As the first of its kind, the Survey has drawn 
considerable attention, and we will observe the programmatic priorities 
for Earth Science which it advocates. In addressing the Survey's Earth 
Science priorities, and consistent with ensuring that NASA maintains a 
balanced portfolio of science as directed by the NASA Authorization Act 
of 2005 (P.L. 109-155), we have added funding to the Global 
Precipitation Measurement (GPM) mission, the follow-on to the highly 
successful Tropical Rainfall Measuring Mission (TRMM), to improve our 
ability to keep this mission on schedule. Our plan is to launch the 
first Core satellite for the GPM mission not later than 2013, followed 
by the second Constellation spacecraft the following year. The FY 2008 
budget request also augments funding for the Landsat Data Continuity 
Mission (LDCM) and Glory missions in order to help keep those projects 
on schedule. Within Planetary Sciences, funding has been identified for 
Lunar Science research project beginning in FY 2008 to leverage the 
many opportunities for payloads on NASA and other nations' lunar 
spacecraft, such as India's Chandrayaan-1, as well as to analyze the 
science data from these missions, including NASA's Lunar Reconnaissance 
Orbiter. In 2008, we will launch a host of Heliophysics missions, many 
with international and interagency partners, to analyze the effects of 
solar flares, coronal mass ejections, and galactic cosmic rays. In 
Astrophysics, the final Hubble servicing mission is currently planned 
for a Space Shuttle flight in September 2008. And, as I advised the 
Congress and the science community last summer, NASA has reinstated the 
Stratospheric Observatory for Infrared Astronomy (SOFIA) mission. 
Though we know of no technical showstoppers in regard to the 
airworthiness of the aircraft or operation of the telescope, this 
program has some remaining hurdles to overcome and so remains subject 
to a management review later this spring. NASA will launch or 
participate in seven science missions in FY 2007, followed by 10 
missions in FY 2008, resulting in many new Earth and space science 
discoveries in the years ahead.
    The FY 2008 budget request increases the budget profile for 
Aeronautics Research over the President's FY 2007 request, aligns our 
aeronautics activities with the President's recently issued Aeronautics 
Research and Development Policy, and advances U.S. technical leadership 
in aeronautics. NASA has made significant progress in reformulating its 
approach to aeronautics research by collaborating with the broad 
research community including industry, academia, and other government 
agencies including the Federal Aviation Administration (FAA) and the 
Department of Defense (DOD). Through these changes, NASA will help 
ensure that America continues to lead the way in aeronautics research.
    NASA continues to monitor and manage our ``uncovered capacity'' 
(employees not directly assigned to specific projects and programs). A 
little over 18 months ago, nearly 3,000 of NASA's 19,000 employees were 
designated as ``uncovered capacity.'' Today, largely with the work 
defined in the Constellation program, we have greatly reduced that 
problem to manageable levels. As of February 2007, we have fewer than 
200 uncovered capacity employees in FY 2007 and FY 2008. More 
importantly, many of our best engineers are working diligently on the 
great challenges before us. Every NASA Center is now vested in our 
space exploration mission. While we are proud of the progress that has 
been made, significant human capital challenges remain. These include 
matching available skills with the important work to be done, managing 
attrition, retraining and hiring, and improving our workforce planning 
for future years in FY 2009 and beyond. To address these challenges and 
any potential impacts resulting from the FY 2007 funding reductions, we 
have established a new intra-agency Workforce Planning Technical Team.
    In addition, beginning in FY 2007, the Agency revised overhead 
allocations to simplify how we manage under full cost accounting. These 
changes will ensure a uniform cost rate for all NASA civil servants 
across the Agency's Government field centers. All changes are revenue-
neutral to programs and projects; none of NASA's missions gain or lose 
funding as a result of this accounting change. At first glance, this 
accounting change appears to reduce the Aeronautics Research budget 
because so much of that work is done at our smaller research Centers. 
However, in actuality, NASA's direct spending for Aeronautics Research 
has increased in the FY 2008 budget run-out by $205 million through FY 
2011 compared to the FY 2007 budget run-out.
    Beyond our budget request, NASA is beginning to transition the 
workforce, infrastructure, and equipment from the Space Shuttle to new 
Exploration systems. Many of our most experienced people will be 
considering retirement between now and 2010. We will need the means to 
manage this attrition in a targeted manner to achieve better alignment 
of the workforce with our mission without creating unwanted losses and 
skills imbalances. One tool we may be using is the authority for the 
Agency to be able to re-employ selected retirees without an offset to 
their annuity--thus giving them an incentive to see a project or 
program to completion. To assist employees with transition to the 
private sector, and to ease that upheaval, another tool would authorize 
NASA to continue their coverage under the Federal Employees Health 
Insurance for one year after departure.
    We will also need better tools to manage the transition of our 
facilities. The Agency is proposing slight changes and expansion to 
existing authority to permit leasing of underutilized facilities and 
related equipment. The Agency would retain the proceeds of those leases 
to be deposited in a NASA capital asset account and invested in 
activities to improve and sustain our facilities and infrastructure. We 
plan to discuss the details of these legislative requests with Members 
of Congress in the weeks and months ahead.
    The remainder of my testimony outlines the FY 2008 budget request 
for NASA in greater detail.

Science Mission Directorate

    This past year was truly remarkable for science discovery about the 
Earth, Sun, solar system, and universe. NASA was responsible for 11 
percent of Science News magazine's top stories (covering all fields of 
science) for 2006, which is an all-time record in the 34 years of 
tracking this metric. NASA's findings ranged from new observations of 
familiar phenomena like hurricanes, thunderstorms, and rainfall, to the 
identification of 16 new extra-solar planets orbiting distant stars 
near the center of our galaxy. As NASA continues to add observations 
from long-lived assets such as the Spirit and Opportunity Mars 
Exploration Rovers, it continues to successfully develop and launch the 
next generation of missions and to support a vigorous scientific 
community.
    In 2006, NASA launched four new science missions, one technology 
demonstration mission, and partnered with other federal and 
international agencies to launch three other science and technology 
missions, as well as the GOES-O satellite, to bring the current total 
number of operational science missions to 52. In January 2006, we 
launched the New Horizons spacecraft to the planet Pluto. Scheduled to 
arrive at Pluto in 2015, the spacecraft is making its closest approach 
to Jupiter as we speak. With the April 2006 launch of the CloudSat and 
Cloud-Aerosol Lidar and Infrared Pathfinder Satellite Observations 
(CALIPSO) spacecraft, NASA added to the ``A-train'' of satellites 
flying in close proximity around Earth to gain a better understanding 
of key factors related to climate change. In October 2006, NASA's twin 
Solar Terrestrial Relations Observatories mission (STEREO) spacecraft 
were launched to help researchers construct the first-ever three-
dimensional views of the sun. Although the two spacecraft will not 
return images until later this year, initial results from STEREO have 
provided us with an unprecedented look at solar activity. On February 
17, 2007, we launched five Time History of Events and Macroscale 
Interactions during Substorms (THEMIS) microsatellites to study the 
Earth's magnetosphere, and we are on track to launch the Dawn mission 
to main belt of asteroids between Mars and Jupiter and the Phoenix Mars 
mission later this year.
    NASA's FY 2008 budget requests $5.5 billion for the Agency's 
Science portfolio. This represents an increase of $49.3 million (or one 
percent) over the FY 2007 request and it will enable NASA to launch or 
partner on 10 new missions, operate and provide ground support for more 
than 50 spacecraft, and fund scientific research based on the data 
returned from these missions. For FY 2008, NASA separated the Earth-Sun 
System theme into two themes: Earth Science and Heliophysics, and 
programmatic responsibility for studies of Near Earth Objects is 
transferred to the Exploration Systems Mission Directorate.
    The Earth Science budget requests $1.5 billion--an increase of 
$27.7 million over the FY 2007 request--to better understand the 
Earth's atmosphere, lithosphere, hydrosphere, cryosphere, and biosphere 
as a single connected system. This request includes additional funding 
for the Global Precipitation Measurement (GPM) mission to improve 
schedule assurance in response to the high priority placed on GPM in 
the Decadal Survey. As the follow-on to the highly successful Tropical 
Rainfall Measuring Mission, NASA's plans to launch GPM's first Core 
satellite no later than 2013, followed by the second Constellation 
spacecraft the following year. The Earth Science budget also includes 
increased funding for the Landsat Data Continuity Mission and Glory in 
order to help keep them on their schedules, and provides funds for the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) Preparatory Project (NPP) to reflect instrument availability 
and launch delays. Funds are requested for continued development and 
implementation of the Ocean Surface Topography Mission to launch in 
2008, the Aquarius mission to measure the ocean's surface salinity to 
launch in 2009, and the Orbiting Carbon Observatory mission planned for 
launch in 2008. NASA will continue to contribute to the President's 
Climate Change Research Initiative by collecting data sets and 
developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change. 
Over the coming months, NASA will evaluate opportunities for 
implementing the recommendations of the National Research Council's 
Earth Science Decadal Survey and responding to challenges to the 
continuity of climate measurements resulting from the Nunn-McCurdy 
recertification of the NPOESS program.
    The Heliophysics budget request of $1.1 billion will support 14 
operational missions to understand the Sun and its effects on Earth, 
the solar system, and the space environmental conditions that will be 
experienced by astronauts, and to demonstrate technologies that can 
improve future operational systems. During FY 2008, the Explorer 
Program will launch the Interstellar Boundary Explorer (IBEX) mission, 
focused on the detection of the very edge of our solar system, and the 
Coupled Ion-Neural Dynamics Investigation (CINDI) Mission of 
Opportunity conducted by the University of Texas. The Solar Dynamics 
Observatory (SDO) to study the Sun's magnetic field will complete 
launch readiness milestones in FY 2008 and is presently scheduled for 
launch in August of 2008. The Geospace Radiation Belt Storm Probes 
(RBSP) mission, presently in formulation, will undergo a Preliminary 
Design Review and a Non-Advocate Review in FY 2008 in preparation for 
entering development in early FY 2009. RBSP will improve the 
understanding of how solar storms interact with Earth's Van Allen 
radiation belts. While the ST-7 and ST-8 missions are on track for 
launches in 2009, the New Millennium ST-9 mission, along with follow-on 
missions, is delayed.
    The Planetary Science budget request of $1.4 billion will advance 
scientific knowledge of the solar system, search for evidence of 
extraterrestrial life, and prepare for human exploration. NASA will get 
an early start on Lunar science when the Discovery Program's Moon 
Mineralogy Mapper (M3) launches aboard India's Chandrayaan-1 mission in 
March 2008, along with the Mini-RF, a technology demonstration payload, 
supported by NASA's Exploration and Space Operations Mission 
Directorates and the Department of Defense, which may glean water in 
the Moon's polar regions. In addition, the budget requests $351 million 
from FY 2008 to FY 2012 for new Lunar Science research, including 
Missions of Opportunity, data archiving, and research. The budget 
supports the Mars Exploration Program by providing for a mission every 
26 months, including the Phoenix spacecraft, scheduled for launch in 
2007, and the Mars Science Laboratory, with a launch scheduled for 
2009. The Discovery Program's Dawn Mission is scheduled to launch later 
this year, and the Mercury Surface, Space Environment, Geochemistry and 
Ranging (MESSENGER) spacecraft is already on its way to Mercury. Three 
Discovery mission proposals and three Missions of Opportunity were 
selected in 2006 for Phase A studies, and the Discovery Program will 
invite proposals for additional new missions in 2008. With the New 
Horizons spacecraft continuing on its way to Pluto, the New Frontiers 
Program's Juno Mission will undergo a Preliminary Design Review and a 
Non-Advocate Review in FY 2008 in preparation for entering development. 
The New Frontiers Program will release its third Announcement of 
Opportunity (AO) in late 2008.
    The Astrophysics budget requests $1.6 billion to operate NASA's 
astronomical observatories, including the Hubble Space Telescope (HST), 
Chandra X-Ray Observatory, and Spitzer Space Telescope, and to build 
more powerful instruments to peer deeper into the cosmos. HST is 
scheduled for a final servicing mission in September 2008 using the 
Space Shuttle Atlantis. Along with service life extension efforts, two 
new instruments will be installed during the servicing mission that are 
expected to dramatically improve performance and enable further 
discoveries, including enabling some science observations that have 
been affected by the recent failure of the Advanced Camera for Surveys. 
After the servicing mission, HST will once again have six fully 
operational instruments (including a suite of cameras and spectrographs 
that will have about 10 times the capability of older instruments) as 
well as new hardware capable of supporting at least another five years 
of world-class space science. The ESA Herschel and Planck missions, 
both of which include contributions from NASA, will launch in FY 2008 
aboard an ESA-supplied Ariane-5. Kepler instrument and spacecraft 
integration and test will be completed in preparation for launch in 
November 2008, to determine the frequency of potentially habitable 
planets. The Gamma-ray Large Area Space Telescope (GLAST) will launch 
in FY 2008 to begin a five-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. The James Webb Space Telescope will 
undergo Preliminary Design Review and a Non-Advocate Review in FY 2008, 
in preparation for entering development. The SOFIA observatory has been 
reinstated. Though we know of no technical showstoppers in regard to 
the airworthiness of the aircraft or operation of the telescope, this 
program has some remaining hurdles to overcome and so remains subject 
to a management review later this spring chaired by the NASA Associate 
Administrator. The SOFIA program baseline will be finalized at that 
time.

Exploration Systems Mission Directorate

    The FY 2008 budget request for the Exploration Systems Mission 
Directorate (ESMD) is $3.9 billion to support continued development of 
new U.S. human space flight capabilities and supporting technologies, 
and to enable sustained and affordable human space exploration after 
the Space Shuttle is retired in 2010. With this budget, ESMD will 
continue to develop our next-generation crew exploration vehicle, while 
also providing research and developing technologies for the longer-term 
development of a sustained human presence on the Moon. However, due to 
the cumulative effect of previously underestimated costs to retire/
transition the Space Shuttle and support the International Space 
Station, the reduction from the FY 2007 request reflected in the FY 
2007 Continuing Resolution, and the maturing design and integrated 
flight tests baselined for the Constellation program, it is unlikely 
that NASA will be able to bring these new Exploration capabilities 
online by 2014. ESMD will also continue to work with other nations and 
the commercial sector to leverage its investments and identify 
opportunities for specific collaboration on lunar data and lunar 
surface activities. New human space flight development of this 
magnitude, such as the Orion Crew Exploration Vehicle, occurs once in a 
generation. The next five years are a critical period in our nation's 
space flight efforts.
    The Constellation program includes the Orion Crew Exploration 
Vehicle; Ares I, a highly reliable crew launch vehicle; Commercial 
Orbital Transportation Services (COTS) demonstrations of cargo and crew 
transport to the International Space Station; Ares V, a heavy-lift 
launch vehicle; spacesuits and tools required by the flight crews and; 
associated ground and mission operations infrastructure to support 
either lunar and/or initial low-Earth orbit (LEO) missions.
    For FY 2008, pending a full analysis of the FY 2007 budget impacts, 
ESMD is on track to maintain its commitments for Ares I and Orion, and 
to continue meeting major milestones. This year Constellation will 
continue to mature and develop overall. Formulation of the 
Constellation elements will continue, leading to the Preliminary Design 
Review in 2008, at which time the program will be baselined. NASA will 
conduct an update for the overall Constellation Systems Requirements 
Review (SRR) in 2007 after the completion of all the Program Element 
SRRs--the Orion Project recently completed its SRR on March 1, 2007. 
ESMD released the Ares I Upper Stage Request for Proposals (RFP) on 
February 23, 2007. The RFP for the Ares I Avionics Ring is scheduled 
for release in May 2007, with selection and contract award scheduled 
for November 2007.
    Facility, equipment, and personnel transitions from Space Shuttle 
to Constellation will be the major emphasis of the FY 2009 budget 
process. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. This joint effort between the 
Space Operations Mission Directorate (SOMD) and ESMD includes the 
utilization and disposition of resources, including real and personal 
property, personnel, and processes, to leverage existing Shuttle and 
International Space Station assets for NASA's future Exploration 
activities. Formalized Transition Boards are working to achieve this 
outcome. A Human Space Flight Transition Plan was developed in 2006; 
updates are in work, and metrics for the plan are being refined and 
will be implemented in 2007.
    In August 2006, NASA signed Space Act Agreements with Space 
Exploration Technologies Corporation, of El Segundo, California, and 
Rocketplane-Kistler, of Oklahoma City, Oklahoma, to develop and 
demonstrate COTS that could open new markets and pave the way for 
commercial providers to launch and deliver crew and cargo to the ISS. 
The Space Act Agreements establish milestones and identify objective 
criteria to assess their progress throughout Phase 1 of the 
demonstrations. In the FY 2008 budget, funding for the purchase of crew 
and cargo transportation services, either from international partners 
or preferably from commercial providers, is transferred from ESMD to 
SOMD. COTS demonstration funding remains in ESMD to better exploit 
potential synergies with the Constellation Program.
    With activities in the Advanced Capabilities program, NASA seeks to 
understand the space environment as it relates to human performance by 
addressing respective recommendations from the Exploration Systems 
Architecture Study that was conducted 2005. This included refocusing 
biomedical research and human life-support activities through new 
milestones and requirements to target the timely delivery of research 
products. Accordingly, ESMD created two new programs under Advanced 
Capabilities: the Human Research Program (HRP) to study and mitigate 
risks to astronaut health and performance and the Exploration 
Technology Development Program (ETDP) to enable future Exploration 
missions and reduce cost and risk. Plans for 2008 include:

        <bullet>  Testing of prototype ablative heat shield materials, 
        low-impact docking systems, and landing attenuation systems;

        <bullet>  Testing of advanced environmental control systems on 
        the ISS;

        <bullet>  Developing a lightweight composite command module 
        test article for the Orion;

        <bullet>  Conducting studies to assess risks of long-term 
        radiation exposure and continuing the use of the ISS as a 
        testbed for studying human health and safety in space;

        <bullet>  Spacecraft integration and testing in preparation for 
        the Lunar Reconnaissance Orbiter (LRO) launch in October 2008;

        <bullet>  Next-generation spacesuit capable of supporting 
        exploration; and

        <bullet>  Developing jointly with the U.S. Air Force the RS-68 
        engine that will be used on the Ares V.

    Finally, the LRO and the Lunar CRater Observatory Sensing Satellite 
(LCROSS) to the Moon is planned to be launched in early FY 2008. These 
dual-manifested spacecraft have completed Critical Design Review and 
are currently in development. The science yielded from these missions 
will enable future outpost site selection and new information about the 
deep craters at the lunar poles. The LRO/LCROSS missions represent 
NASA's first steps in returning to the Moon.

Aeronautics Research Mission Directorate

    In 2006, NASA's Aeronautics Research Mission Directorate (ARMD) 
conducted a significant restructuring of its aeronautics program, 
allowing NASA to pursue high-quality, innovative, and integrated 
research that will yield revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and efficient national air transportation system. As such, 
ARMD's research will continue to play a vital role in supporting NASA's 
human and robotic space activities. The reshaped Aeronautics Program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, signed by the President on December 
20, 2006.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships involving NASA, other government agencies, 
academia, and industry in order to enable significant advancement in 
our nation's aeronautical expertise. Because these partnerships are so 
important, NASA has put many mechanisms in place to engage academia and 
industry, including industry working groups and technical interchange 
meetings at the program and project level, Space Act agreements for 
cooperative partnerships, and the NASA Research Announcement (NRA) 
process that provides for full and open competition for the best and 
most promising research ideas. During 2006, ARMD's NRA solicitation 
resulted in the selection of 138 proposals for negotiation for award 
from 72 different organizations representing 29 different states plus 
the District of Columbia. NASA's FY 2008 budget request for Aeronautics 
includes $51 million for NRA awards.
    In FY 2008, the President's budget for NASA requests $554 million 
for Aeronautics Research. This budget reflects full cost 
simplification, which significantly reduces the Center overhead and 
infrastructure allocated to the Aeronautics programs.
    NASA's Airspace Systems Program (ASP) has partnered with the Joint 
Planning and Development Office (JPDO) to help develop concepts, 
capabilities and technologies that will lead to significant 
enhancements in the capacity, efficiency and flexibility of the 
National Airspace System (NAS). Such improvements are critical to meet 
the Nation's airspace and airports requirements for decades to come. In 
FY 2008, NASA's budget request would provide $98.1 million for ASP to 
conduct further research in operational concepts and human-in-the-loop 
simulation modeling that supports advancements in automated separation 
assurance capabilities. In addition, ASP will pursue enhanced 
development of airport surface movement trajectory models to provide a 
basis for optimized use of super density airports, integrated airport 
clusters, and terminals where demand for runways is high. Last year, 
ASP took an important step toward this goal by completing development 
of a system-wide operational concept that provides a detailed 
description of future NAS capacity enhancements while assessing the 
benefits of such system improvements. Key to the analysis of the 
operational concepts was program-developed tools such as the Airspace 
Concepts Evaluation System and the Future Air Traffic Management 
Concepts Evaluation Tool, both of which have successfully transitioned 
from NASA to the Federal Aviation Administration and the JPDO.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
the engineering and scientific disciplines that enable the design of 
vehicles that fly through any atmosphere at any speed. The FY 2008 
budget request, amounting to $293.4 million, will enable significant 
advances in the Hypersonics, Supersonics, Subsonic Fixed Wing, and 
Subsonic Rotary Wing projects that make up the FAP. These projects 
focus on creating innovative solutions for the technical challenges of 
the future: increasing performance (range, speed, payload, fuel 
efficiency) while meeting stringent noise and emissions constraints; 
alleviating environmental and congestion problems of the Next 
Generation Air Transportation System (NGATS) through the use of new 
aircraft and rotorcraft concepts; and, facilitating access to space and 
re-entry into planetary atmospheres. A wide variety of cross-cutting 
research topics are being pursued across the speed regimes with 
emphasis on physics-based multi-disciplinary analysis and design, 
aerothermodynamics, materials and structures, propulsion, aero-servo-
elasticity, thermal protection systems, advanced control methods, and 
computational and experimental techniques. A number of key activities 
are planned for FY 2007 and FY 2008 including the launch of a sub-
orbital rocket to conduct flight experiments in hypersonic boundary 
layer transition and re-entry shapes, the flight test of scale models 
of the X-48B Blended Wing-Body concept to assess this advanced 
unconventional airframe configuration for its potential to decrease 
aircraft noise while also improving performance, the evaluation of 
radical new concepts for variable-speed rotor technologies that can 
result in highly improved performance, and the evaluation of actively-
controlled inlets for supersonic transports.
    The FY 2008 budget request for NASA's Aviation Safety Program 
(AvSP) is $74.1 million. The four projects within the Program 
(Integrated Intelligent Flight Deck, Integrated Resilient Aircraft 
Control, Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NGATS. In FY 2008, the Program will complete a study of human-
automation technology that will improve safety during approach and 
landing operations by allowing for active operator assistance that 
maintains appropriate levels of workload and will be conducted to 
evaluate neural networks for direct adaptive control that will maximize 
adaptation to simulated in-flight failures while minimizing adverse 
interactions. At the same time, onboard sensor technology will be 
developed and validated to achieve significant improvement in measuring 
atmospheric water content that will improve the ability to detect the 
onset of potential icing hazards. Challenges related to aircraft aging 
and durability will also be addressed by developing models capable of 
simulating the initiation and propagation of minute cracks in metallic 
materials.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet Agency and national 
aeronautics needs. The FY 2008 budget request for ATP is $88.4 million, 
which will enable strategic utilization, operations, maintenance and 
investment decisions for major wind tunnel/ground test facilities at 
Ames Research Center, Glenn Research Center and Langley Research Center 
and for the Western Aeronautical Test Range support aircraft and test 
bed aircraft at Dryden Flight Research Center. In FY 2006, NASA 
implemented procedures to ensure affordable and competitive pricing of 
its aeronautics facilities for use by other parties, including industry 
and university researchers. In FY 2008, ATP plans to continue ensuring 
competitive prices for ATP facilities, reducing a backlog of 
maintenance issues and investing in advanced technologies such as 
installing consistent angle of attack instrumentation at the research 
Centers.

Space Operations Mission Directorate

    This was an extraordinary year for the Space Shuttle and 
International Space Station (ISS) Programs. NASA celebrated 
Independence Day 2006 by launching Space Shuttle Discovery on the STS-
121 mission. The second of two test flights (the first was STS-114 in 
July/August 2005), STS-121 helped validate the improvements made to the 
Space Shuttle system since the loss of Columbia on February 1, 2003. 
The mission also marked the return of a complement of three crew 
members to the ISS. The Space Shuttle Atlantis (STS-115), which 
launched on September 9, marked a return to sustained Space Shuttle 
operations and placed NASA on track to completing assembly of the ISS 
by 2010. STS-115 delivered the critical P3/P4 truss to the ISS, which 
will provide a quarter of the power services needed to operate the 
completed research facility. The last flight in December 2006, STS-116, 
was devoted primarily to deactivating the electrical power systems on 
the U.S. segment of the ISS and making a series of electrical and 
coolant connections between the P3/P4 truss segment and the rest of the 
Station. To do this, flight controllers at the mission control centers 
in Houston and Moscow up-linked over 17,900 commands to the ISS during 
the mission--all without a single unplanned or command error. STS-116 
crew member Robert Curbeam also set a record for the most space walks 
ever conducted by an astronaut on a single Space Shuttle mission, with 
four excursions totaling over 25 hours.
    Operational activities on-board the ISS have continued into 2007, 
with a series of space walks that reconfigured the thermal system on 
the Station and prepared us for future assembly tasks. The Station is 
now able to provide additional power to the Space Shuttle, allowing two 
extra docked days, and we have connected permanent systems in place of 
temporary ones. The sequence of three complex space walks within nine 
days also demonstrated capabilities we will need later this year to 
fully install Node 2 following its delivery on STS-120.
    These mission achievements reflect the NASA team's dedication to 
safely and successfully flying out the Space Shuttle program and 
meeting our nation's commitments to our international partners. The 
program's successes also led to the decision in October 2006 to move 
forward with plans for a final servicing mission to the Hubble Space 
Telescope (HST). Following an extensive review by the relevant NASA 
offices of all safety and technical issues associated with conducting 
such a mission, it became clear that an HST servicing mission could be 
carried out effectively and safely. While there is an inherent risk in 
all space flight activities, the desire to preserve a truly 
international asset like the HST makes doing this mission the right 
course of action.
    The Space Shuttle FY 2008 budget request of $4.01 billion would 
provide for five Shuttle flights, including four ISS assembly flights 
as well as the HST servicing mission. The ISS assembly flights include 
the launch of major research facility modules from the European Space 
Agency and Japan. The Canadian Special Purpose Dexterous Manipulator 
robotic system will also be flown in 2008. These flights are a major 
step towards fulfilling U.S. commitments to NASA's international 
partners as specified in the ISS agreements and the Vision for Space 
Exploration.
    The FY 2008 budget request includes $2.24 billion for ISS 
activities. NASA has consulted with our international partners on the 
configuration of the ISS, and is working closely with them to determine 
the detailed plans for logistics required during and after assembly. 
The FY 2008 budget request provides the necessary resources to purchase 
Soyuz crew transport and rescue for U.S. astronauts as well as Progress 
vehicle logistics support for the ISS from the Russian Space Agency.
    As the Shuttle approaches its retirement, the ISS Program intends 
to use alternative cargo and crew transportation services from 
commercial industry. Once a capability is demonstrated in Phase 1 of 
the Commercial Orbital Transportation Services (COTS) Space Act 
Agreements, NASA plans to purchase cargo delivery services 
competitively in Phase 2 and will decide whether to pursue crew 
demonstrations. In the FY 2008 budget, funding for the purchase of crew 
and cargo transportation services, either from international partners 
or preferably from commercial providers, is transferred from the 
Exploration Systems Mission Directorate to the Space Operations Mission 
Directorate. One item of significance in the FY 2008 budget run-out, 
especially in the out-years, is that it allows for increases to our 
previously estimated costs for purchasing commercial cargo and crew 
services to support the ISS, assuming these commercial services are 
successfully demonstrated and are cost-effective. Should costs for 
those services be greater than what is presently budgeted, NASA has 
accepted a management challenge to scale back on our space operations 
costs and will curtail some of our robotic lunar exploration or long-
term exploration technology development in the out-years. COTS 
demonstration funding remains in ESMD to better exploit potential 
synergies with the Constellation Program.
    The Space Shuttle Program's highest priority is to safely complete 
the mission manifest by the end of FY 2010, using as few flights as 
possible. Working through formalized Transition Control Board 
processes, the Space Shuttle Program will also play a key role in 
coordinating the smooth transition of Space Shuttle assets and 
capabilities to the next generation of Exploration systems without 
compromising the safety of ongoing flight operations. The greatest 
challenge NASA faces is safely flying the Space Shuttle to assemble the 
ISS prior to retiring the Shuttle in 2010, while also bringing new U.S. 
human space flight capabilities on-line soon thereafter. There are a 
number of major transition milestones set for FY 2008, including the 
transition of one of the four high bays in the Vehicle Assembly 
Building and Launch Pad 39B to the Constellation Systems Program. Space 
Shuttle Atlantis may also be retired in FY 2008 after the HST SM-4 
mission and its systems and parts would be used to support the 
remaining Space Shuttle Orbiters, Discovery and Endeavour, during the 
program's last two years of operations. The FY 2008 budget request 
reflects the current assessment of costs to retire the Space Shuttle. 
Over the next year, NASA will develop additional detail and refine our 
cost estimates for the transition.
    The FY 2008 budget also provides for the procurement of two 
additional Tracking and Data Relay Satellite System (TDRSS) satellites 
to replenish the constellation. NASA projects that the availability of 
aging TDRSS satellites to support overall user demand will be reduced 
by 2009 and depleted by 2015. In order to continue to support all 
users, NASA must begin the procurement process immediately, with 
planned launches in FY 2012 and FY 2013. By replenishing the 
satellites, NASA will be able to meet overall user demand through 2016. 
The Space Operations Mission Directorate has partnered with non-NASA 
users to provide a proportionate investment in the replacement 
capabilities.

Cross-Agency Support Programs

    The FY 2008 Budget Request for activities within the Cross-Agency 
Support Programs (CASP)--Education, Advanced Business Systems, 
Innovative Partnerships Programs, and Shared Capabilities Assets 
Program--is $498.2 million. Within this amount, $34.3 million is for 
the Shared Capability Assets Program (SCAP), which is designed to 
ensure that critical capabilities and assets (e.g., arc jets, wind 
tunnels, super computing facilities, rocket propulsion testing, etc.) 
required Agency-wide are available to missions when needed. The FY 2008 
budget request for Advanced Business Systems, comprising the Integrated 
Enterprise Management Program (IEMP), is $103.1 million. FY 2007 and FY 
2008 funding will support IEMP in implementing capabilities that 
improve NASA's tracking and accountability of its property, plant, and 
equipment; integrate human capital information, providing employees and 
management with new, secure tools for accessing personnel data, and 
planning and budgeting NASA's workforce; and, provide more relevant and 
accurate financial information in support to NASA's programs and 
projects. This funding also supports ongoing operations and maintenance 
of NASA's financial system and other Agency-wide business systems.
    For NASA's Education activities, the FY 2008 budget request totals 
$153.7 million and sustains our ongoing commitment to excellence in 
science, technology, engineering, and mathematics (STEM) to ensure that 
our Agency is equipped with the right workforce to implement the Vision 
for Space Exploration. NASA will continue the tradition of investing in 
education and supporting educators who play a key role in preparing, 
inspiring, exciting, encouraging, and nurturing the youth who will 
manage and lead the laboratories and research centers of tomorrow. NASA 
Education is committed to three primary objectives to help improve the 
state of STEM education in our country: strengthen the Nation's and 
NASA's future workforce; attract and retain students in the STEM 
discipline and; engage the American people in NASA's missions through 
partnerships and alliances.
    The Innovative Partnerships Programs (IPP) provides leveraged 
technology investments, dual-use technology-related partnerships, and 
technology solutions for NASA. The FY 2008 budget request for IPP 
activities is $198.1 million. The IPP implements NASA's Small Business 
Innovative Research (SBIR) and Small Business Technology Transfer 
(STTR) Programs that provide the high-technology small business sector 
with an opportunity to develop technology for NASA. Recently, NASA has 
made some changes to the management structure of these two programs to 
better enable technology infusion and to increase the efficiency of the 
operations. IPP also manages the Centennial Challenges Program. NASA 
has already benefited from the introduction of new sources of 
innovation and technology development even though the Program is 
relatively new and no prizes have yet been awarded. In addition, 
ongoing and future prize challenges will continue to inspire brilliant 
young minds.

Conclusion

    NASA has many challenges ahead of us, but we are on track and 
making progress in managing these challenges. The FY 2008 budget 
request demonstrates commitment to our nation's leadership in space and 
aeronautics research, and while we may face a significant funding 
reduction for FY 2007, we will carry on, though not at the pace we had 
previously hoped.
    I ask your help to ensure this nation maintains a human space 
flight capability. Without stable funding as requested in this budget, 
we face the very real possibility of allowing that capability to slip 
away for the foreseeable future--even as other nations continue to 
develop similar capabilities.
    I also need your help to effectively transition key elements of our 
Space Shuttle workforce, infrastructure, and equipment to our nation's 
exploration objectives. The provisions I referenced earlier, as well as 
stable funding, will help ensure we preserve a critical and unique 
industrial base capability that has allowed the United States to lead 
the world in space exploration.
    Again, thank you for the opportunity to appear before you today. I 
would be please to respond to any questions that you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Discussion

       Budget Shortfalls and Discrepancy Between Administration 
                     Requests and Authority Levels

    Chairman Gordon. Thank you, Mr. Griffin.
    At this point, we will open our first round of questions, 
and the Chairman recognizes himself for five minutes.
    Let me--you do have a dilemma, but it doesn't--the budget 
doesn't even recognize what the President is asking you to do. 
I mean, it is not a matter of what we want to do. I mean, 
certainly we would like to do even more. But the budget doesn't 
even pay for what you are asked to do. That is what we are 
talking about. We are not trying to get into some la-la land of 
Christmas trees. We are talking about trying to do what you are 
charged to do. And that is where somewhere we have to decide 
are you being charged too much.
    And also, you had mentioned that it was obvious that we 
don't support the President's proposal. That is right. We 
don't. We support the authorizing level, not the President's 
level, and we would--you know, we would like for you and OMB to 
try to get to the authorizing level, rather than the 
President's level, so it wouldn't be as tough.
    So I just wanted to try to get ourselves in the right 
perspective.
    Dr. Griffin, it was my understanding that when you 
testified before the Committee last year that you had reached 
an agreement with OMB to correct for the under-budgeting that 
had occurred in the Space Station and the Space Shuttle 
accounts prior to your arrival at NASA. And it is my 
understanding that the fiscal year 2007 budget request and the 
five-year run-out reflected that agreement.
    However, just a year later, we have been presented with a 
NASA budget request for fiscal year 2008 that, according to 
NASA's own data, includes an estimated shortfall of almost a 
billion dollars in the ISS crew and cargo service funding, does 
not include funds to address the Space Shuttle program 
termination and retirement costs past fiscal year 2010. And 
although NASA concedes that there will be additional costs, it 
reduces the amount of Space Shuttle reserves available to 
address remaining Shuttle programming threats during the 
remaining missions, and it reduces the reserves available to 
the ISS program during the most challenging assembly phase.
    Would you agree that this is an accurate description of 
what budget request or that fiscal year 2008 budget request?
    Dr. Griffin. I can't agree or disagree, specifically. I can 
talk about specific points of that with you. With regard to----
    Chairman Gordon. Well, just for the lack of time, did 
anything I state there--did you find that wasn't accurate?
    Dr. Griffin. No, sir, I did not find any inaccuracies in 
your statement. We did reach agreement last year, within the 
Administration, to budget--to replace the previous placeholder 
estimates for Shuttle and Station completion, Shuttle fly-out 
and Station completion. They were about--and I would like to 
correct the record of some earlier statements that were made 
during the opening statements, that the overall shortfall was 
about $5.6 billion in the Shuttle and Station account, which 
is, you know, on the record from last year, and we were able to 
reduce that to a number on the order of $3.8 billion because 
the exploration architecture that we advanced had considerable 
synergy with today's Shuttle fleet. So by that means, we 
reduced the overall problem down to about $3.8 billion, and we 
did reprioritize within the NASA budget with the assistance and 
concurrence of the Executive Office of the President to produce 
a budget, which addressed those shortfalls. We did, absolutely, 
do that. And the budget, the 2007 budget run-out that we 
brought you last year, the 2007 request, addressed everything 
that Station and Shuttle were understood by the best minds we 
had to be--allow us to finish out the program.
    The $924 million in crew cargo to which you refer 
represents a lien for transportation services against the 
program after Shuttle retirement because of a very simple fact. 
When we were still--when we were planning in the United States 
to fly the Shuttle indefinitely, then transportation to the 
Space Station of crew and cargo was essentially a free good to 
the Space Station program. Now that we are retiring the Shuttle 
in 2010, we must purchase transportation services----
    Chairman Gordon. Well, I would agree with that, and I think 
you are doing it in the most efficient way, but we still have a 
shortfall. And again, I am concerned that with----
    Dr. Griffin. So that does represent a lien against the 
program----
    Chairman Gordon. Yes.
    Dr. Griffin.--which we--it is a management challenge we 
have taken to try to find $924 million.
    Chairman Gordon. So there is that shortfall then?
    Dr. Griffin. There is that lien.
    Chairman Gordon. And was it your ideas or--since there was 
an agreement last year with OMB, apparently that agreement 
hasn't been kept, so was it your idea to change it or was it 
OMB's idea?
    Dr. Griffin. Well, we have, as you might appreciate, a 
multitude of discussions in the eight months or so that we take 
to prepare the budget within the Administration, and I just--I 
do not, and cannot, disclose or discuss which ideas came from 
which parties, but--or which individuals, but the end result 
was that we have a management challenge to find $924 million 
within the manned space flight accounts to address the 
transportation requirements----
    Chairman Gordon. But I think the end result, though----
    Dr. Griffin.--for the Station.
    Chairman Gordon.--is that the agreement that was reached 
with OMB wasn't honored. That is the end result.
    So--and also, as you know, the Columbia Accident 
Investigation Board documented the negative effects of the 
schedule and budgetary pressure on the Shuttle program. And now 
we have a Space Station and the Shuttle program that are under 
pressure to complete the ISS assembly by the time the Shuttle 
is retired in 2010. At the same time, we have a budget request 
before us that reduces the Shuttle and Station reserves and 
includes a billion dollar shortfall in the funding needed to 
sustain the Station after 2010. And I guess I should say, why 
should I not be worried that we are seeing parallels to the 
environment that the CAIB warned us about earlier?
    Dr. Griffin. I understand your concerns, sir, and we have 
addressed that. Of the $924 million that we believe, based on 
existing prices for commercial service, we have budgeted the 
$924 million for--through the run-out to buy the services we 
need. Of that, $300 million, approximately, is being--will be 
sought within space ops, and the $600 million will be sought 
within exploration systems. So, on an annual basis, we are 
talking about an average of $60 million a year within the Space 
Station and Space Shuttle accounts to provide that 
transportation service. And I would not have allowed that to be 
imposed on space ops if they had not stepped forward and said 
they thought they could find the money.
    So, with regard to safety of the Shuttle and Station 
programs, in respect of the budget allocated to them, I think 
they are okay. The larger issue is, of course, what does an 
additional $600 million from the exploration account--the 
larger issue is what does the additional $600 million cut to 
the exploration account do to the delivery of the CEV and the--
or the Orion and the Ares vehicles? And we are still working 
through that.
    Chairman Gordon. As you can hear, we have votes going on, 
so I want to let Mr. Hall move forward.
    You know, I don't, in any way, want to infer that you would 
ever have an unsafe mission. That will not occur. I just 
remember, as hard--or as much as I wanted to dunk the ball when 
I was playing basketball, I wasn't able to. Sometimes, we can 
be asked--or want to do more than we are able to. I do not want 
us to get into a situation where, at a later date, you have to 
say, ``This is not safe.''
    Dr. Griffin. Right.
    Chairman Gordon. And so that is what I am trying to avoid. 
And----
    Dr. Griffin. I do understand, sir. I truly do. And I 
believe that we are okay within space ops on our budget line.
    Chairman Gordon. Okay.
    Dr. Griffin. We have prioritized Shuttle and Station above 
other things in order to complete that commitment. We are still 
assessing the consequences of that prioritization on the other 
things.

                     Crew Safety of Future Projects

    Chairman Gordon. I yield to--five minutes to Mr. Hall.
    Mr. Hall. Yes. Thank you, Mr. Chairman. And I will try not 
to take the full five minutes.
    I think, Mike, that money is so important and something we 
have to really be aware of at all times and in all budgetary 
gusts. I have often heard it said that money ain't everything, 
but it sure keeps you in touch with your kids. Well, I know 
that we have got to be totally aware of the funds that we are 
asking for and the funds that we are going to appropriate, but 
something that keeps biting at me and something that I keep 
having to note, the next thing the American people are 
interested in is the safety of those that still are flying a 
fragile mission and that we know that--we were reminded of that 
some couple years ago.
    As you know, I have always been concerned about----
    Chairman Gordon. Excuse me. Mr. Hall, would you yield for 
just one----
    Mr. Hall. I do yield.
    Chairman Gordon. We only have one vote. Mr. Lampson, would 
you go on and vote, if you don't mind? We only have one vote. 
You go--if you would go on, and if you could come back, and we 
will impose as little as possible on Dr. Griffin.
    Anyone else that would like to--well, we are going to go to 
Mr. Udall, and maybe he can get through his, but any of the 
rest of you, if you want to go on, you can come back and be 
ready to ask questions.
    Excuse me, Mr. Hall.
    Mr. Hall. Yes, I will take the Chair for you, if you--okay. 
So we will get back on now.
    For several years, I have been frustrated by the fact that 
the Shuttle couldn't be modified with the crew escape system, 
and it couldn't for two reasons: one was the amount of money it 
would have cost, and the other was the physical inability 
weight-wise to do it. It just was not possible. We could never 
say there is not--no amount of money was too much for safety, 
but the physical facts kept us from doing that and still keep 
us from doing it. But I understand that one of the benefits of 
the crew exploration vehicle is the ability to jettison the 
entire crew module if there is a catastrophic accident. Please 
assure us that the crew escape system plan for the CEV is 
robust enough to safely jettison the entire crew to safety in 
the unfortunate event of a catastrophic accident. And will this 
system be functional throughout all phases of the powered 
flight?
    Dr. Griffin. The answer to your question is unequivocally 
yes.
    Mr. Hall. Great. That is all I would like to hear.

                      Status of the SOFIA Program

    I want to ask you about another mission. The SOFIA mission 
is moving forward, as you know, but your statement indicates 
the program has remaining hurdles. Now, I am getting fairly 
tired of ``remaining hurdles'' on SOFIA. When we are 90 percent 
complete on it and have 10 percent to go, surely we are not 
going to have any hurdle. If it is a hurdle, it is a low hurdle 
and not a high hurdle. And we--that is such an important 
program. A management review is going to be held again after 
this spring, is that right? Is that what your testimony was?
    Dr. Griffin. Let me give you a quick couple of minutes on 
the status of SOFIA.
    Mr. Hall. Give me the good answers you gave to my first 
questions.
    Dr. Griffin. It can't be as short, I am sorry, sir, but----
    Mr. Hall. Okay.
    Dr. Griffin.--I will make it as short as I can.
    We did a very careful review of the SOFIA program last 
year. We determined that the airplane modifications, due to 
changing external situation, United Aircraft--Airlines have 
gone out of the business of modifying airplanes, we needed to 
put the SOFIA airplane modification program at Dryden, which is 
where our experimental aircraft work is located. The airplane 
modifications are now going much better. We expect to be on the 
verge of our first certification flights within months. We 
think we have a solid handle on getting the airplane to work 
properly. The German scientific payload is ready, so it is a 
matter of finishing up on the airplane and integrating the 
payload. We will do that. The science management operations 
group that you were referring to in your question----
    Mr. Hall. Yes, sir.
    Dr. Griffin.--meets, I think, next month or in May. I think 
they meet in May. They will be looking forward to how to 
operate the observatory. I think we have got SOFIA back on 
track.
    Mr. Hall. Yes. That is great. We had--it seemed like we had 
almost $600 million in it, and it is about 90 percent complete. 
Somewhere along, if those aren't exact figures----
    Dr. Griffin. The program was----
    Mr. Hall.--the percentages are probably correct.
    Dr. Griffin. The program was in great distress. I think we 
are now okay.
    Mr. Hall. I thank you. And I yield back my time.
    Mr. Udall. [Presiding.] I thank the gentleman.

                         Delays in CEV Program

    Dr. Griffin--I would, at this point, yield myself five 
minutes.
    In your testimony, you state that, due to the cumulative 
effect of a number of factors, including the somewhat infamous 
now Joint Resolution for fiscal year 2007, that NASA is 
unlikely to bring the CEV online in 2015. The briefing material 
indicates that independent of any Joint Resolution impacts, the 
CEV program is already looking at a six-month delay, which 
would slip the operational date to March 2015. Could you 
explain the specific reasons for the six-month delay?
    Dr. Griffin. Yes, sir. And I will, in fairness, state at 
the outset, I will reinforce your point, that it is an 
accumulated set of circumstances, one of which was the extra 
funding needed last year to complete the Space Station and 
Space Shuttle fly-out that we talked about just a few moments 
ago. That, of course, was a major factor.
    But added to all of that, the net programmatic effect of 
reducing by some, you know, almost $600 million, the Joint 
Continuing Resolution reduced the money available for the CEV 
program by almost $600 million over the next five years. So 
that is a fact. And the schedule slip that goes with that 
reduction is about six months.
    Mr. Udall. Now on top of that delay, the Joint Resolution 
could result, as we understand it, another four- to six-month 
delay. Is that correct? And what will determine the length of 
the delay due to the Joint Resolution?
    Dr. Griffin. That was about six months, yes, sir.
    Mr. Udall. So it is not a cumulative 12 months? It is still 
six months?
    Dr. Griffin. No, no, no. It is--the effect of the Joint 
Resolution, by itself, that particular reduction in ability to 
obligate funding, just the Joint Resolution, that effect is 
about six months. So we have several effects, and that one is 
there.
    Mr. Udall. So there are two effects, and you believe it 
will total up to 12 months, or you think the two, cumulatively, 
will result in six months?
    Dr. Griffin. No, there are a number of different things, 
which have gone on, over--let me take you back, again, a couple 
of years, as briefly as I can.
    In the 2005 budget, the Administration planned for the 
start of the CEV program. At that point--or from that point, we 
have had reductions, as the Chairman noted earlier, in the 
amount of funding budgeted to NASA. We have had reductions in 
CEV funding, which have been necessary to pay for Shuttle and 
Station. We have had rescissions due to Katrina and we have had 
rescissions due to other reasons. And so, the combination of 
all of these things had, up to that point, delayed the CEV out 
to the very end of 2014. There--no one funding reduction is 
more responsible than the others. It is just that there was a 
chronological sequence, and the last one to be applied was the 
Continuing Resolution, and that was the--that is the most 
recent delay, not the only delay, and the magnitude of that 
delay was about six months.
    Mr. Udall. So, at this point, we are looking at September 
of 2015 or----
    Dr. Griffin. March of 2015.
    Mr. Udall. March of 2015. You are holding fast to that?
    Dr. Griffin. Yes, sir.
    Mr. Udall. Good.

            Implementation of Decadal Survey Recommendations

    If I could, let me move to the National Academies' 
recommendations around the new Earth science and application 
missions. And while I recognize that it may not be possible to 
do all of the proposed missions at the rate recommended, and I 
also acknowledge that some of the Academies' cost estimates may 
be optimistic, I don't see anything in the 2008 budget request 
and run-out that would allow NASA to make any kind of a 
credible start on these new missions. What priority do you 
attach to the missions recommended by the Decadal Survey? And 
do you have any plans to initiate any of the new missions 
recommended by the Survey?
    Dr. Griffin. The answer I would give you is exactly the 
same as the answer I would give you for any of our four science 
portfolios. Our priorities are strongly influenced by the 
Decadal Surveys that we get from the National Academies. We do 
respect those. I have said that on the record any number of 
times. I think it is important that we do so. The National 
Academies is as close to a governing body of science in this 
nation as we are, I think, ever going to get.
    That said, every one of our four portfolios has a Decadal 
Survey now, and every one can use up, by itself, the entire 
science budget. So we cannot do every mission on the Earth 
science Decadal with the money that we have, just as we cannot 
do every mission on the astrophysics Decadal or heliophysics 
Decadal or planetary science Decadal. So we will use the 
Decadal prioritization to inform the sequence in which we do 
our Earth science missions. We have already used it to plus-up 
the funding for GPM, and we will continue to use it. But we 
cannot immediately start a program, which is going to go and 
execute every single Earth science mission on the Decadal.
    Mr. Udall. So, Doctor, I don't hear you saying you have 
plans to initiate any of the new missions recommended by the 
Survey, is that correct? I want to make sure the record 
reflects your point that----
    Dr. Griffin. I am--I will have to take that for the record. 
I am not sure what the next mission that we would initiate 
would be. It--anything we initiate will be in conformance with 
the priorities of the Decadal Survey.
    Mr. Udall. Thank you. I look forward to reading your 
response, for the record, and at this point, we will 
temporarily recess the Committee until the----
    Dr. Griffin. Okay.

                   Material requested for the record
    With the Decadal Survey now in hand, NASA is actively developing an 
integrated Earth Science mission roadmap to address the Earth Science 
scientific priorities identified in the Decadal Survey. As recommended 
in the Decadal Survey, the new NASA integrated mission roadmap will 
take into account contributions from international partners, the 
availability of supporting measurements from precursor missions that 
are expected to still be operating after 2010, and the data expected 
from National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) in light of the Nunn-McCurdy recertification. NASA will work 
to address the science priorities outlined in the Decadal Survey for 
Earth Science through the Earth System Science Pathfinder (ESSP) 
missions and Earth Systematic Missions. The FY 2008 budget request 
includes $492.3 million (over five years, FY 2008-FY 2012) for a new 
ESSP mission; this budget request supports a solicitation to be 
released in late FY 2008, with launch of a small-to-medium class 
mission in the 2014 time frame. While ESSP missions are competitively 
selected from among proposals submitted by researchers, the ESSP 
Announcement of Opportunity will solicit proposals for missions 
addressing one or more of the top four scientific priorities assigned 
to NASA in the Decadal Survey: quantitative measurement of solar 
irradiance and spectrally resolved Earth radiation budget; active and 
passive microwave measurements of soil moisture and vegetation freeze/
thaw cycles; detailed measurements of ice sheet dynamics and extent; 
and solid Earth processes combined with measurements of vegetation 
canopy characteristics. In addition, the FY 2008 budget requests 
includes the start of a funding wedge for additional future Decadal 
Survey missions, with a small amount of funding ($1.2 million) for 
early work in FY 2009-2011 and growing to $30.6 million in FY 2012. 
This funding supports future Earth Systematic Missions.

    Mr. Udall. There is a vote on. There is about two minutes 
left. You and I running. So we will temporarily recess, and we 
will be back shortly.
    Dr. Griffin. I will be here. Thank you.
    [Recess.]
    Chairman Gordon. The Committee will come back to order. We 
thank all of you for your patience, and the--Mr. Calvert is 
recognized for five minutes.

      Negative Ramifications of American Hiatus From Human Space 
                                 Flight

    Mr. Calvert. Thank you, Mr. Chairman.
    Administrator, if the Shuttle is retired in 2010, and I 
assume that we are on schedule to do so, and a CEV is not 
operational until 2015, as NASA budget predicts, there could be 
a minimum of a five-year delay in our human space flight 
capability. The last time we had an extended hiatus between the 
Apollo and the Shuttle programs, as you know, we paid a 
tremendous price in the loss of the aerospace industries and 
workforce.
    In order to assure that we do not have further slips in the 
CEV, is--it is vital that we maintain the funding for the 
exploration systems. The fiscal year 2008 is a pivotal year. If 
we do not quickly come to grips with the funding problems and 
the gap in the human space flight capability extends even 
further than currently planned, I believe we face the risk of 
losing our young and talented workforce to other industries. We 
must focus on maintaining funding for exploration, because 
without some expectation of certainty in the program, people 
will either choose or be forced to leave the industry.
    But today, unlike the late 1960s and early 1970s, we now 
face increasing competition from China, Russia, India, and 
others, countries that may have agendas very different from our 
own. An extended gap in America's space flight capabilities 
could lead to an erosion of our workforce and our industrial 
supplier base, and I am very concerned about this.
    So my question, Doctor, do we risk more than loss of jobs 
as a result of an extended hiatus? Do we risk losing our 
technological leadership in a vital industry as well? If we 
start to lose our workforce, do we run the risk of increasing 
the gap further, because we don't have the talent we need to 
get the job done?
    Those are a number of questions, but can you provide us 
your views on that subject?
    Dr. Griffin. Yes, sir. I think it is clear to all those who 
are in or who observe the high technology sector of this 
country, of which, of course, space exploration and development 
is one, that if--that the best people tend to go where the 
emphasis is clearly being placed. And I do worry that if we 
appear to have an unfocused space program that we will lose 
people. And I consider that to be an issue. So that was your 
last question, but I will answer it first. It does concern me 
very greatly.
    To your--to the point of your other questions, I have said 
many times, beginning during my confirmation hearings, that I 
believe that the American space program is one of this nation's 
strategic assets in the world. It is one of the things that 
distinguishes us, sets us apart from, and frankly, sets us 
above many other societies. Our ability to do things that other 
people can only dream about matters. It matters greatly. And 
when we compromise it, we compromise our nation's position in 
the world. I believe that.
    When we terminated Apollo and initiated Shuttle, then, as 
now, we didn't have the money to do those two things together, 
so there was a six-year gap that developed out of what was 
originally planned to be a two-year gap in human space flight 
capability. Programmatic slips took care of the other four 
years.
    Today, at a comparable state in the program, we are looking 
at a now nearly five-year gap in human space flight capability, 
but it is at a different time. In the 1970s, we had one 
competitor, the then-Soviet Union, and in what was viewed as a 
race to the Moon, we had won.
    In today's world, energy dollars are flowing into Russia. 
Russia loves its space program, as they should. They have kept 
it despite tremendous exigencies, and they have supported it. 
The Chinese now have the capability to put people in space. 
India has announced its intentions to join the Chinese. Other 
nations could do it, if they chose to, as a matter of political 
will. They certainly have the capability and have the money.
    So I fear for our nation's posture as a nation among 
nations when we allow this capability to be mitigated or 
damaged in any way, which is why I have urged full support for 
the President's budget so that we can minimize any disruptions. 
There will be disruptions, but I would like to minimize it.
    Mr. Hall. Mr. Chairman, if he has a half a minute left, 
could I ask the gentleman a question?
    Chairman Gordon. Absolutely.
    Mr. Calvert. I will yield all my time to you, Mr. 
Chairman--or----
    Mr. Hall. You know, I think you were here when we lost the 
supercollider with X billions of dollars into it. And when it 
came time to reauthorize it, they asked for--it is my best 
recollection it was $600 million to keep it going. And we had 
$200 million for them. And because they thought they could 
force Congress into keeping that program alive, and they should 
have been able to, they weren't able to, and they held on to 
demanding what they had when $200 million would have kept them 
alive and we would still have a--we would be having it 
operating by now and be a leader in the technology fields of 
the world. We have a hole in the ground there now and a huge 
amount of money spent. I think we ought to learn from that and 
support this program and support it the way they set it out and 
pull our hat down over our ears and ride this thing out.
    Mr. Calvert. Thank you, Mr. Hall.
    Chairman Gordon. Mr. Lampson is recognized for five 
minutes.

                   Funding Needed to Maintain CEV/CLV

    Mr. Lampson. And thank you, Mr. Chairman, and welcome, Dr. 
Griffin. It is a pleasure to have you here. It is always nice 
to see you.
    And I have to make a comment about the opening remarks of 
all our colleagues and how I want to associate myself with what 
everyone said. I think that this is a wonderful opportunity for 
this committee to make a big difference right now because of 
the unity that we do have. And I look forward to working with 
you.
    I am proud, also, to serve for--to serve as the 
Representative of the Johnson Space Center, and I can't think 
of anything that is as important, not just to that area of 
Texas where Johnson Space Center is, but that NASA is to our 
nation, as Mr. Hall was just now saying. So it is a pleasure, 
always, to consider these problems that we face and see if we 
can't find the right ways to address them. I certainly want to.
    Your prepared statement notes that previously under-
estimated costs to retire or transition to Space Shuttle and to 
support the International Space Station, the reduce--the 
reduction from the fiscal year 2007 request reflected in the 
fiscal year 2007 Continuing Resolution and the maturing design 
and integrated flight test baselined for the Constellation 
program have affected the ability to deploy Orion in areas by 
2014. And in previous testimony to the Senate Subcommittee on 
Space, Aeronautics, and Related Sciences, you remarked that the 
CEV/CLV program will slip to 2015, and you just said it again 
just a minute ago.
    What is the bottom line of dollars, the additional funding 
that NASA needs for 2008 to maintain the 2014 CEV/CLV launch 
date?
    Dr. Griffin. I answered that question, for the record, for 
that Senate testimony to which you refer, and I will give you 
the same answer here. What we--the funding we would need to 
return the Orion and Ares systems, CEV, to a 2014 capability is 
not needed in 2008. It would be needed in 2009 and 2010. And 
the funding requirement would be $350 million in 2009 and $400 
million in 2010. Okay. So that is the direct answer to your 
question.
    Mr. Lampson. Okay. Thank you.
    And the effect--what effect will slipping the date, if we 
don't do that of the first operational--the initial operational 
capability the first crewed launch have on the nature of 
existing contracts for the Constellation program?
    Dr. Griffin. Well, we are obligating money, of course, now 
on the contract, the existing contract, to--for the CEV, so if 
we do not in fiscal year 2009 and fiscal year 2010, and bear in 
mind that we are--we start next month to prepare the budget for 
fiscal year 2009. It is not as far away as it sounds. So if we, 
in fiscal year 2009, do not obligate additional money to buy 
back that schedule, then the date, as we currently project it, 
with no further reductions, would be March 2015.
    Mr. Lampson. And that will, ultimately, further drive up 
the cost, overall, of the project.
    Dr. Griffin. Well, lengthening the program certainly does 
drive up the out-year's cost, of course. Yes, sir.
    Mr. Lampson. Are you confident that NASA now understands 
the costs required to retire or transition Space Shuttle, 
support International Space Station, and accommodate the design 
and integrated flight tests for the Constellation program?
    Dr. Griffin. I am. When I came into this position, and I 
think very understandably, a decision had been made to retire 
the Space Shuttle in 2010 and to move on with a new system. And 
not everyone agreed with that, but I think the balance of the 
community of people who are concerned about space flight agreed 
to that. And Mr. Gordon, you and I have talked about that. We 
need--the Space Shuttle will have been in service by that time. 
We need to move on. But--for 30 years by that time. We need to 
move on, and we are moving on.
    Now what had not been done was to properly allocate the 
costs necessary to fly the Shuttle out until 2010. That--you 
know, it is difficult to calculate what it is going--what is 
going to be needed to fly out and retire a complex system like 
that. So we had placeholder estimates in the budget when I came 
in the door. We spent a good chunk of 2005 trying to refine 
those estimates, and we have. And I am confident that we have 
the right estimates to finish out the Space Shuttle and Space 
Station program, completing it by 2010.
    Mr. Lampson. Thank you very much. My time has expired.
    Thank you, Mr. Chairman.
    Chairman Gordon. The gentlelady from Arizona, Ms. Giffords, 
is recognized for five minutes.

                     Budget Prioritization Process

    Ms. Giffords. Thank you, Mr. Chairman.
    Dr. Griffin, good to see you. Thank you for being here 
today.
    Dr. Griffin. Good to see you again, Ms. Giffords.
    Ms. Giffords. I represent the University of Arizona, and 
one of the interesting things that comes up all the time is 
this balance between your job, in terms of manned space flight 
compared to research. And I know that there is great concern on 
behalf of astronomers and scientists, and I just think about 
how difficult it is to be in your position, trying to balance a 
budget with very different objectives.
    So could you please address the Committee on how you make 
those determinations in this time of a shrinking budget?
    Dr. Griffin. Well, these are not solely my determinations. 
It really is a community effort. I would tell you directly that 
science today, at NASA, all of science, is 32 percent of our 
budget. In the early 1990s, science was 24 percent of our 
budget. In the Apollo era, science was 17 percent of our 
budget. So science has grown within the agency. In the Apollo 
era, human space flight was 63 percent of our budget. It is 62 
percent of our budget today. So human space flight has 
remained, across decades, a remarkably stable fraction of our 
portfolio, and science has grown. It is, in my judgment, doing 
well. It is at a historic high, in terms of its fraction of the 
NASA portfolio.
    Within science, how do we prioritize? Well, we have four 
major science portfolios: astrophysics; heliophysics, the study 
of the sun and the solar system, space; Earth science; and 
planetary science. And while those four portfolios are not 
identically equal in their funding, we try to balance them 
carefully. And so astrophysics has a good share of the 
portfolio but doesn't get the whole thing, just as in my 
response a few moments ago about Earth science. So within the 
astrophysics portfolio, one of four, we take our priorities for 
missions to be done from the Decadal Surveys.
    Currently, number one on the Decadal Survey for 
astrophysics is the James Webb space telescope, and we are 
pushing that. Number two is SOFIA. We are pushing that. We hope 
to get both of those programs down the line and open up a new 
funding wedge in astrophysics by 2009. And whatever the next 
new astrophysics mission is, starting in 2009, it will come 
from the community of astrophysicists in accordance with what 
they judge to be the most important mission at the time that 
decision has to be made.
    Ms. Giffords. Thank you for that.

                               Education

    And, Mr. Chairman--Dr. Griffin, in terms of this 2006 
National Academies report, it stated that, you know, in terms 
of technology products or projects that, you know, basically 
that science not being enough, and you couple that with the 
testimony we had a couple of days ago in terms of ``Rising 
Above the Gathering Storm'' and us not producing enough 
engineers and mathematicians and scientists. And I believe that 
NASA is in a unique position, because there is really no way to 
get kids or young people excited about science like space and 
exploration and, I mean, this ability to go to places that we 
have never been before. How do you--when you look at your 
overall projections in terms of your workforce, how do you 
figure into educating young kids, getting kids invited? I mean, 
how does that figure into your budget in terms of how much 
allocation you can spend on that next generation and educating 
the sort of next group of future scientists?
    Dr. Griffin. Well, our primary mission, of course, is to 
conduct space missions of all kinds and aeronautical research 
missions, and I mean, that is what we are paid to do, not to 
determine educational strategy for the Nation. It is, of 
course, in the role of executing space missions that I think we 
have our highest value, which is to provide stimulating 
intellectual content and fascinating things that kids can 
aspire to work on when they grow up. When I was a child, I was 
fascinated by space from the age of five years old onward. So I 
understand that feeling that you talk about that nothing 
excites kids like space flight.
    Specifically, to education, we are spending about $150 
million a year on specific education-oriented enterprises. Now 
that will be reduced, somewhat, in respect of the fiscal year 
2007 Continuing Resolution, but our 2008 budget and beyond 
contains about $150 million a year specific to educational 
outreach activities. In addition to that, our science missions, 
when we do them as well as our human space flight missions, 
have money set aside for Education and Public Outreach, E&PO, 
we call it. The total amount that NASA spends on educational 
activities of one kind and another is several hundred million 
dollars a year. I think that is generous.
    Chairman Gordon. The gentlelady's time has expired.
    I was--I knew you were going to be able to work in Arizona 
some way, but you were creative today. We are going to have an 
oceanographic meeting soon, and so that is going to be a 
challenge for you, but I know you will--somehow, you will find 
a way to get Arizona, and you do every time.
    Mr. Calvert, I understand, has some additional questions. 
He is recognized for five minutes.
    Mr. Calvert. Well, if global warming does occur, we may 
flood California, and Arizona will be----
    Dr. Griffin. Or a sufficiently big earthquake.
    Mr. Calvert. Or--that is right. We could--I remember there 
was great book written in the 1970s or the 1960s, actually, 
about California falling off a cliff. Hopefully, that doesn't 
happen.

                    Status of China's Space Program

    Mike, I want to kind of carry on a question I had earlier 
about the competition we have out there. You know, I used to be 
in the restaurant business. I used to look across the street 
and look at what my competition was doing and have a better 
menu and try to get customers through the door. And obviously, 
China may have different reasons why they are getting in the 
space business, as we saw with the ASAT demonstration recently, 
which I understand they managed to clutter up outer space by, 
what, about 10 percent more space debris than what we had 
previously. So that is a problem we are going to have to endure 
with.
    How far is China--you have been to China, and you have seen 
their program? How good is their space program? And more 
specifically, do you think they have an opportunity to get 
ahead of us? Do you think they have an opportunity to even get 
to the Moon before we do, because the American public would 
probably like to know that?
    Dr. Griffin. Well, China, of course, has engineers and 
scientists second to none, and they graduate more of them than 
we do. When you have a chance to interact with Chinese 
engineers and scientists, it is abundantly clear that they need 
to--take a back seat to no one. And China is--if their 
statements are to be believed, and they tend to have a record 
for saying what they intend to do, and then doing it, if their 
public statements are to be believed, they have the equivalent 
of about 200,000 people working on their space program. Just 
for reference, our NASA funding purchases the equivalent of 
about 75,000 people. So in terms of--I can't talk about it in 
terms of dollars, because the two economies are so different, 
but if you talk about it in terms of the level of effort that 
they are able to bring to bear, and if you believe their 
statements, and I don't have any reason not to believe them, 
because they have repeated them a number of times, then their 
magnitude of their space effort is about three times as big as 
ours in terms of the number of people.
    Now, they are starting from a position well to our rear. I 
mean, their human space flight capability is--I would 
characterize it as being approximately equivalent to that which 
we had during Project Gemini in the mid-1960s. They can put two 
or three people up in orbit. They are proceeding carefully. 
They are--their intransient capability of their equipment is a 
little bit better than what we had during Project Gemini at the 
time, but its accomplishments so far have been about at that 
level. I would remind you that, for us, Project Gemini was only 
a few years before Apollo when we went to the Moon. So--and the 
Chinese economy today, in real dollars, is about twice as big 
in constant dollars as the U.S. economy was when President 
Kennedy declared the lunar goal.
    So as a matter of technical capability and political will, 
if the Chinese choose to do so, they can mount a lunar mission 
within, you know, a reasonable number of years, say a decade. 
That would easily--be easily possible for them to do. I cannot 
speculate and won't speculate on what Chinese intentions are. I 
just don't know that. As to capability, within some reasonable 
number of years, if they wish to mount a lunar mission, they 
could do so.

                 Future Missions and Foreign Abilities

    Mr. Calvert. At the present time, based upon the schedule 
that we have to have our new CEV and Ares program on track, 
what is the soonest that you think we could get back to the 
Moon?
    Dr. Griffin. Well, that is a question that I--is difficult 
to answer unless one associates it with a funding level. At our 
present funding level, we will return to the Moon around 2019.
    Mr. Calvert. So based on that, it is possible that the 
Chinese could get to the Moon before we do?
    Dr. Griffin. Of course. Yes, sir. It is possible that they 
could be there before we return.
    Mr. Calvert. On low-Earth orbit, on cargo delivery in a 
low-Earth orbit, obviously, we are retiring the Shuttle in 
2010, how long will the--do you believe, in 2010, that the 
Russians are going to have a monopoly in low-Earth orbit in the 
sense that they will be able to deliver the cargo to us? Or are 
we going to have any other opportunities to buy that service 
from someone else?
    Dr. Griffin. Right now, it cannot be said whether the 
Russians will have a monopoly or not. They do today. By 2010--
but after 2010, as you mentioned, we have some other 
possibilities. We have initiated, as you know, two COTS 
demonstrations, Commercial Orbital Transportation Service 
demonstrations, to which we have allocated half a billion 
dollars a year in--or half a billion dollars, total, in seed 
capital. Now this is not intended to cover the total 
development costs. It is money offered as seed capital for--to 
attract--to allow entrepreneurial firms to attract the total 
capital necessary to provide that service. We believe such 
efforts have a good chance of succeeding and that, if they do, 
they will be able to offer service considerably cheaper than we 
can buy it from established providers, and if it matures, 
believe me, we will take advantage of it. In fact, I think it 
may be said that we need for those efforts to be successful.
    So there are those possibilities. But by the nature of a 
commercial transaction, which is conducted at arm's length, 
this is not under the government's, or NASA's, control. We are 
providing seed capital. We are offering all help, if asked for, 
but we are not interfering with how these companies go about 
their business. There are--by the post-2010 timeframe, there 
will be--we also will be close to having capability from the 
Japanese HTV and shortly thereafter the European ATV for cargo 
services. Those, of course, will be expensive. They will not 
allow for crew rotation. And although they are--as with the 
Russians, they are in partnership with the United States on the 
Space Station program, still, they are not indigenous 
providers.
    Chairman Gordon. The gentleman's time has expired.
    Mr. Calvert. Thank you.
    Chairman Gordon. We are going to go a little bit out of--
well, either in order or out of order, and--since Mr. 
Rohrabacher has not had a chance to ask any questions, and then 
we will--and then I think Mr. Udall wants to complete some 
questions that he had earlier.
    So, Mr. Rohrabacher, you are recognized for five minutes.
    Mr. Rohrabacher. Well, thank you very much. And I apologize 
for being in and out.

       Global Warming and Near-Earth Object Budget Prioritization

    Mike, you are doing a great job. It is a tough job, as 
everybody has said. Sometimes Congress actually makes it a 
little tougher by--basically, everybody is insisting that we 
balance the budget, but nobody wants to make decisions here, 
and then everybody wants to complain when you make decisions.
    Your job----
    Dr. Griffin. I have noticed that, sir.
    Mr. Rohrabacher. Right. I used to be a speechwriter for the 
President, and invariably, the leadership would come to me and 
say, ``Look. This speech is way too long.'' And I would say, 
``Okay.'' And they said, ``And by the way, we want you to add 
this, this, and this to the speech.'' So you have a very 
similar problem.
    It is up to us to prioritize. And I know that you have had 
to prioritize, and you have done your very best job at it. And 
we can't just expect always to say, ``You are not spending 
enough money,'' and then expect just to--well, we will just add 
more money. Well, maybe we need to prioritize what programs are 
worth spending the money on and give you some help in that.
    Let me note, for the shortfalls that we have had, that of 
the billions of dollars that we have spent over the last 10 
years, perhaps as much as $5 to $10 billion, trying to prove 
global warming, not to do anything about it, but to prove it. 
The NPOESS catastrophe and the waste of those billions of 
dollars, and some of that can be traced back to trying to 
overload that satellite with missions dealing with global 
warming, which may or may not exist, and--which leads me to my 
question, my first question, which is, I read a recent report 
by NASA that showed that the polar ice caps were melting and 
that there is, indeed, warming going on on Mars. Is that right?
    Dr. Griffin. I did see the brief synopsis of the same 
report.
    Mr. Rohrabacher. Right.
    Dr. Griffin. So yes, sir.
    Mr. Rohrabacher. So there is global warming on Mars.
    Now my question is, then, does that mean that the warming 
trend that we have here may be caused by sunspots and solar 
activity, or does it mean that there are--is human-like 
activity going on on Mars that is causing their temperature to 
warm?
    Dr. Griffin. I--the----
    Mr. Rohrabacher. You don't have to answer that. It is----
    Dr. Griffin. Okay. Thank you. Thank you.
    Mr. Rohrabacher. Now my second question, the one thing I 
want to focus in on, I have also read your recent report on a 
project that I helped try to kick off, which is a survey of 
near-Earth objects that might hit the Earth. Here, again, let 
me note that it was a professional report. I really appreciated 
the job that you did and that your team did. You did a very 
professional analysis of where we go to catalog near-Earth 
objects that might threaten the Earth. Your report concluded 
that, you know--what the threat was and how we had to--how much 
needed to be identified, but it also concluded that we didn't 
have the money to do that.
    Now, let me note, unlike my other colleagues, I will just 
say that is my priority project, but I do fully understand your 
answer to that. And if we are going to deal with this, the 
potential challenge, I understand that there is a one in 62 
chance that, in my lifetime--no, of a lifetime of a baby born 
today, that there will be a huge impact on our Earth of a near-
Earth object that would kill millions of people. Now one chance 
in 62. And it seems to me that we should at least be moving--
inching forward and that when we try to prioritize our various 
spending programs, that that should be part--you know, that 
type of long-range thinking should be part of the process and 
should be one of our goals.
    And I want to thank you for that report and thank you for 
the good job you are doing. And I just would suggest that of 
the $5 to $10 billion that we have spent trying to prove global 
warming, perhaps if we would have spent only $500 million, 
which your report states, we would have a full understanding of 
the potential threats of near-Earth objects that might hit the 
Earth and cause catastrophic loss of life. And that is the type 
of prioritization that I am talking about that we need to do. 
Now I understand that global warming is politically-trendy, et 
cetera, but we, in here, in Congress, you know, we don't have 
money to spend on everything, and we should--when we have a 
choice between spending it on something that we can't do 
anything about, global warming, even if it does exist, even if 
it is one of those trends that go up and down over the years 
with sun spots, like is happening on Mars, but if we can't do 
this, wouldn't it be better to spend our money on trying to 
catalog near-Earth objects and find a method of maybe 
deflecting one off its path towards the Earth if we had that 
opportunity--that chance to do so?
    So with that, if you wanted to comment, that is fine, but I 
sure appreciate your job and the things that I have mentioned 
today, so thank you.
    Dr. Griffin. Thank you.
    We----
    Chairman Gordon. The gentleman's time has expired, and I 
think I can help Mr. Griffin here. We have had a lot of, I 
guess, bad news discussion about our economic bad news 
discussion, but there is one good news, and that is NASA does 
not have to spend any more money proving global warming. It has 
already been done.
    And now the Chairman recognizes Mr. Udall for five minutes.
    Mr. Udall. Thank you, Mr. Chairman.
    I want to propose to my good friend, Mr. Rohrabacher, that 
if he is willing to acknowledge that we don't need to prove the 
global warming theory anymore, we just take all that money and 
put it to applications that would address the problem, 
including energy independence and new technologies. And let us 
quit all the studying and just agree that climate change is 
upon us and begin to do what we need to do.
    Dr. Griffin. I would be happy to hold your gentlemen's 
coats if you wish to go at it.

                                  ITAR

    Mr. Udall. Doctor, turning to another topic that I think 
concerns all of us, and that is ITAR, the Space Station 
Independent Safety Task Force raised questions about NASA's 
ability to interact with our international partners. If I 
could, I would like to direct a series of questions at you and 
then let you take your best cut.
    How serious has an issue, as ITAR, been for the ISS? What 
are your plans for handling those restrictions? What is your 
timetable for resolving any outstanding issues with ITAR? And 
are you making changes to any other missions or mission plans 
as a result of these restrictions?
    And I apologize for the machine-gun nature of those 
questions, but I think they are all related, obviously.
    Dr. Griffin. Well, they are.
    It is a--let me say yes, ITAR is a concern for Space 
Station partnerships, as well as any other international 
partnerships that we attempt to conduct in space activities. 
And I would remind that our entire human space flight program 
is involved in an international partnership and well over half 
of our scientific missions are conducted in the context of 
international partnerships, so it can be difficult.
    The difficulties are of two types. One is the length of 
time necessary to get ITAR approval to conduct even the 
government-to-government programs, which can easily be on the 
order of 18 months or more, from my own personal experience. 
And then the other thing, of course, is the question of whether 
or not the partnership will be allowed and the restrictions 
that are placed on the transfer of information.
    The biggest concern that I have about it is that we 
oftentimes end up excluding ourselves from the global 
marketplace in aerospace and aerospace science because of those 
restrictions in a way that I think keeps American industry out 
of the world, the world market for these goods and services, 
and which does not, in the long run, of course, achieve the 
goal of protecting our security interests, because other 
nations will develop these capabilities on their own.
    So, I have those concerns.
    Now, our plans for dealing with it, we are a federal 
executive agency, and, of course, I follow the directions that 
have been put in place by the Congress and the Administration 
in response to the legislative environment, so we really do not 
have a significant voice in ITAR and export control. We comply 
with the regulatory environment that exists, and we work very 
hard to make sure that we are in compliance, because the 
difficulties of not being in compliance are hard to overstate. 
So my plan is that I comply with the ITAR regulations.
    Mr. Udall. Clearly, if I could make an editorial comment, 
we have more to do in this regard, and I think the Committee 
needs to spend some additional time understanding the 
unintended consequences of ITAR, and I couldn't agree more that 
we shut ourselves out of global marketplaces, and----
    Dr. Griffin. This was a topic that the Defense science 
board attempted to take on and--recently, and then I believe 
they had to cease because of conflicts of interest in and among 
their membership, but the fact that the Defense science board 
chose to take it on, I think, speaks volumes.

     Impact of Reductions on Shuttle Use and Workforce Flexibility

    Mr. Udall. If I could, I would like to turn to the--back to 
the Shuttle and talk about the STaR reductions with which I 
think you are familiar.
    If you could discuss, and I see the time is beginning to 
run down, but you may have to do some of this for the record, 
the impact of those reductions and your plans for assessing the 
appropriate number and mixture of skilled workers needed to 
safely fly the Shuttle through 2010 and then to transition to 
the CEV.
    Dr. Griffin. Let me get that for the record for you. Our 
transition is something we work, literally, every day. We 
discuss it with our Aerospace Safety Advisory Panel that 
reports, also, to you, they have talked about that with you, 
and with our NASA Advisory Council. I think that most people 
believe that we are really going at this, that it is a hard 
problem, and that we are doing fairly well. But we will give 
you an answer for the record.

                   Material requested for the record
    The Space Shuttle Transition and Retirement (STaR) provides funds 
to ensure successful ISS operations post-Shuttle retirement. It does 
this through the purchase of additional spares and by realigning costs 
in several areas that are currently jointly funded with Shuttle, such 
as Mission Operations Directorate, Flight Crew Operations Directorate, 
and flight crew equipment. The new sparing philosophy involves buying 
more spares. The old plan had the failed units returned from the 
International Space Station (ISS) repaired on the ground and then 
returned to space.
    The FY 2008 President's budget request provides $187 million for 
STaR in FY 2008, but reduces the five-year budget for STaR from the 
previous estimate by $270 million in favor of other higher-priority 
elements of the ISS program and other high priority Agency goals, 
particularly TDRSS replenishment satellites. The $270 million cut is 
achieved by reducing STaR reserves by $99 million from previous 
estimates and by creating a management challenge to reduce the Space 
Station's operations cost by $172 million through FY 2012 by finding 
efficiencies and reducing requirements and overall operating costs, 
including STaR. The resulting cost savings will be used to improve the 
Program's reserve posture and offset management challenges as needed.
    As the Constellation System Requirements Reviews are completed this 
year, NASA will gain a much clearer understanding of the demands for 
future workforce skills, which will form the foundation for making any 
future decisions. Although proud of recent progress, NASA acknowledges 
that more needs to be accomplished. These tasks include matching 
available skills with future work, managing attrition, retraining and 
hiring, and using temporary and term appointments to get the 
flexibility to align agency needs with the time-phased workload.
    The nature of the work many NASA employees will do will change as 
we transition human space flight activities from Shuttle operations to 
research and development-focused activities like planning, design, 
testing and verification for Constellation systems. NASA is striving to 
give its employees opportunities to build on their existing skills by 
working on the new exploration systems, so that when this development 
work comes on-line, many of them can transition into new positions. 
Coupled with newly gained skills, the NASA workforce can take the 
skills honed in Shuttle operations and apply them to the design of 
future vehicles to make them fly more efficiently. From a human 
resources perspective, the transition of these key personnel must be 
carefully managed given the time between Shuttle retirement and Ares/
Orion operational capability.
    In order to complete the remaining Shuttle missions safely, 
retention of the NASA workforce, with their skills and tremendous 
dedication, for the duration of the Shuttle program is critical. A 
recent survey of Shuttle personnel across the NASA field Centers 
clearly demonstrates that NASA has highly motivated people who want to 
stay for the remainder of the program and see it succeed.

    Mr. Udall. With the Chairman's indulgence, if I could ask 
two more questions for the record, I would appreciate it.
    Chairman Gordon. Certainly.
    Mr. Udall. In that regard, too, would--if you would 
comment, for the record, about any legislative tools you might 
want to--in regard to the workforce flexibility that you may or 
may not need when it comes to the star reductions. And if, in 
fact, you do need some tools, when they might be delivered--
that request might be delivered to the Congress.

                   Material requested for the record
    On March 28, 2007, NASA provided the NASA Transition Act of 2007 to 
the Congress for consideration. The proposed legislation would provide 
NASA with flexibilities essential to the successful implementation of 
our programs in space exploration, scientific discovery, and 
aeronautics research, including the International Space Station 
Program's Shuttle Transition and Retirement (STaR) project. Title I 
provides two workforce management tools.
    The first authority would be used to encourage employees who are 
working on the Space Shuttle Program to convert to time-limited 
appointments that correspond to major milestones in that Program (or 
Program completion), enabling the Administration to plan the Shuttle 
workforce transition with more precision.
    The second authority would add a new category of employees who 
would be liable only for the employee share of Federal Employee Health 
Benefits Program (FEHBP) premiums if they elect temporary continuation 
of health benefits coverage upon separation from their civil service 
positions. This would include surplus employees at NASA who are 
involuntarily separated due to reduction-in-force or because they 
declined a transfer, or surplus employees who are identified as 
occupying positions that are anticipated to be eliminated under 
reduction-in-force procedures. By authorizing NASA to pay the 
government's share of the FEHBP premium for employees who separate 
because their positions are being eliminated or transferred out of the 
commuting area, the Agency would provide a ``soft landing'' benefit to 
employees who desire continued health coverage while they seek other 
employment and are not otherwise eligible for FEHBP coverage without 
paying the full cost of the premiums.

    The second question I have for the record is one that I 
think has been on many people's minds, and I know you have--
feel it at other times, Dr. Griffin. But this has to do with 
the NASA mission statement. And in the previous statement, 
there was a clause in there ``to understand and protect our 
home planet'', and that clause was eliminated in the current 
mission statement. And there has been a lot of speculation 
about why, and was there any message that was intended to be 
sent by doing so.
    And I do know my time is expired, but I would like an 
answer for the record.

                   Material requested for the record
    The 2006 NASA Strategic Plan clearly states that one of our goals 
is to, ``study Earth from space to advance scientific understanding and 
meet societal needs.'' The plan goes on to discuss the importance of 
current Earth science missions and those we wish to conduct over the 
next decade. A mission statement that calls upon NASA to pioneer the 
future in scientific discovery--as ours does--includes Earth science 
within the realm of scientific discovery.
    Deletion of the phrase ``protect our home planet'' from the 2006 
NASA Strategic Plan brought it into alignment with our statutory 
responsibilities and actual capabilities.
    This past year was truly remarkable for science discovery about the 
Earth, Sun, solar system, and universe. In April 2006, the launch of 
the CloudSat and Cloud-Aerosol Lidar and Infrared Pathfinder Satellite 
Observations (CALIPSO) spacecraft added to the ``A-train'' of 
satellites flying in close proximity around Earth to gain a better 
understanding of key factors related to climate change. In May 2006, 
NASA launched the GOES-O satellite. NASA also recently launched five 
Time History of Events and Macroscale Interactions during Substorms 
(THEMIS) microsatellites to study the Earth's magnetosphere.
    The Earth Science budget for FY 2008 requests $1.5 billion, an 
increase of $32.8 million over the FY 2007 request, to better 
understand the Earth's atmosphere, lithosphere, hydrosphere, 
cryosphere, and biosphere as a single connected system. This request 
includes additional funding for the Global Precipitation Measurement 
(GPM) mission to improve schedule assurance in response to the high 
priority placed on GPM in the Decadal Survey. As the follow-on to the 
highly successful Tropical Rainfall Measuring Mission, NASA's plans to 
launch GPM's first Core satellite no later than 2013, followed by the 
second Constellation spacecraft the following year. The Earth Science 
budget also includes increased funding for the Landsat Data Continuity 
Mission and Glory in order to help keep them on their schedules, and 
provides funds for the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) Preparatory Project (NPP) to 
reflect instrument availability and launch delays. Funds are requested 
for continued development and implementation of the Ocean Surface 
Topography Mission to launch in 2008, the Aquarius mission to measure 
the ocean's surface salinity to launch in 2009, and the Orbiting Carbon 
Observatory mission planned for launch in 2008. NASA will continue to 
contribute to the President's Climate Change Research Initiative by 
collecting data sets and developing predictive capabilities that will 
enable advanced assessments of the causes and consequences of global 
climate change.

    Dr. Griffin. I will give you an answer, for the record, but 
briefly, NASA does not have the tools to ``protect our home 
planet.'' We seek to understand our planet and all others, and 
the revised statement reflects that, but NASA is not a 
protection agency.
    Mr. Udall. Congressman Rohrabacher thinks you have the 
capacity to protect our home planet, particularly when it comes 
to asteroids, and I do have to associate myself with his 
concerns. I think there are very legitimate concerns about 
asteroids.
    Dr. Griffin. As do I.
    Mr. Udall. But thank you for the forthcoming way in which 
you have shared your point of view with us today, and again, I 
want to add my voice to those who believe you are doing an 
outstanding job. And it is our job to get you additional 
resources.
    Dr. Griffin. Thank you, sir.
    Mr. Udall. Thank you.
    Dr. Griffin. Thank you, sir.
    Chairman Gordon. Yeah, the gentleman's time has expired. I 
will suggest that providing good information for us to adapt to 
threats, whether--whatever form they might be, is a form of 
protection.
    And I think that we see that Dr. Ehlers has arrived. The 
gentleman is--has five minutes, if he so chooses.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize, I am 
bouncing between three different committees here, so I can't 
ask a question of extreme intelligence, but I first want to 
thank you, Dr. Griffin, for your good work. It is always good 
to have a steady hand at the helm, and sometimes that is a 
little infrequent in the scientific--pardon me, in the 
governmental arena. So we appreciate you doing that.
    Also, just picking up on this last comment about the 
asteroids, there is, of course, a probability that one will hit 
the Earth at some time. They have hit the Earth in the past, 
but I have to confess, I worry far more about nuclear weapons 
than asteroids. I just think the probability of improper human 
behavior is still, unfortunately, greater than the random 
probability of a heavenly body running into us. So I guess we 
have to take our pick as to which is most important.

                   Space Station Research and Status

    I--just a question, an iconic, classic question about the 
Space Station. Is any significant research being done there, 
anything that is essential to the ongoing efforts of going to 
the Moon or to, some time in the distant future, Mars? Is there 
good reason to keep it going? And if so, for how long should we 
keep it going?
    Dr. Griffin. Peer-reviewed scientific research is now 
coming out of the Space Station. I can cite examples, for the 
record, if not off the top of my head.

                   Material requested for the record
    The International Space Station (ISS) is NASA's long-duration test-
bed for lunar missions as well as a flight analog for Mars transit. The 
six-month ISS mission increments are temporal and operational analogs 
for Mars transit. NASA is using the ISS as a laboratory for research 
that directly corresponds to the Agency needs summarized below:

        1.  Research, Development, Test, and Evaluation of Biomedical 
        Protocols for Human Health and Performance on Long-Duration 
        Space Missions.

        2.  Research, Development, Test, and Evaluation of Systems 
        Readiness for Long-Duration Space Missions.

        3.  Development, Demonstration, and Validation of Operational 
        Practices and Procedures for Long-Duration Space Missions.

    NASA also utilizes the ISS for non-exploration-related life and 
physical science research when the uniqueness of the microgravity and 
space environment unmask phenomena that cannot be observed or studied 
in the normal Earth environment.
    ISS international collaborations provide valuable insights into how 
our Partner countries approach building, operating, and maintaining 
spacecraft. As such, the ISS is a cornerstone in advancing knowledge 
about how to live and work in space for long, continuous periods of 
time and will remain critical to our future exploration missions. 
International collaboration allows for leveraging of data and resources 
to obtain answers for critical research problems.
    Since the start of human occupation of the ISS in November 2000, 
there have been 17 NASA Human Research Program investigations with the 
ISS-based portions of their research completed, supporting the research 
of 44 investigators worldwide. Presently 16 Human Research Program 
investigations are ongoing on the ISS supporting 49 investigators 
worldwide. Over the next 12 months, NASA plans on conducting nine 
additional ISS Human Research Program investigations supporting 25 
investigators worldwide.
    Research and technology experiments have been, are being, and will 
continue to be conducted on the ISS in the areas of Human Research, 
Applied Physical Science Research, and Technology Demonstrations in 
support of space exploration.
    For a complete list of ISS experiments and for further information 
see the following websites:

http://exploration.nasa.gov/programs/station/list.html

http://exploration.nasa.gov/programs/station/expedition.html

http://exploration.nasa.gov/programs/station/publications.html

http://ston.jsc.nasa.gov/collections/TRS/listfiles.cgi?DOC=TP-2006-
213146

http://hrf.jsc.nasa.gov/science.asp

http://exploration.grc.nasa.gov/Exploration/Advanced/ISSResearch/

    Future ISS research beyond the above will consist of the following:

        <bullet>  Human research content that will be documented in the 
        Human Research Program Integrated Research Plan. This plan, to 
        be published in December 2007, will consist of content informed 
        by the Office of the Chief Health Medical Officer crew health 
        standard requirements and Constellation Program needs.

        <bullet>  Physical science research content that will be 
        documented in the Physical Sciences Strategic Plan for use of 
        the Combustion Integrated Rack, the Fluids Integrated Rack, the 
        Microgravity Materials Research Rack, the Microgravity Science 
        Glovebox and the Expedite the Processing of Experiments to 
        Space Station Rack--ISS Utilization from 2010 and beyond. This 
        plan will consist of content informed by National Research 
        Council study recommendations for research and technology 
        supporting space exploration and Constellation Program needs.

        <bullet>  Technology demonstrations that will be informed by 
        the Constellation Program needs.

    As we--and I--again, I would remind everyone that we are 
still assembling the Space Station. It is only 55 percent 
complete.
    Mr. Ehlers. Now that is my next question. Is----
    Dr. Griffin. And that----
    Mr. Ehlers. What----
    Dr. Griffin.--several--I mean, the European laboratory, to 
which we have some access, and the Japanese laboratory, to 
which we have some access, have yet to be in place. The 
European laboratory and the first of the Japanese flights will 
be later this year. So we are still building the Station, and 
its full capability as a research laboratory is mostly in front 
of us. But we can't have a research laboratory until we get the 
power and the water and the air conditioning fully in place. 
And that is what we are doing right now.
    How long should the Space Station be sustained? I believe 
it should be sustained as long as the costs of its operations 
and maintenance, once built, as long as the cost of its 
operations and maintenance seem to be justified by the 
research, which is being returned, then I think the case can be 
made that it should be retained.
    We have already committed to the cost of building it. The 
cost of building it is largely sunk. The cost to complete is 
the cost of finishing the Space Shuttle program out to complete 
the flights. The equipment is built. It is largely sitting at 
Kennedy Space Center, ready to be put on orbit. So ceasing the 
Space Shuttle program--the Space Station program today would 
save some money, but not much, and I think we should commit to 
its completion, as we have--as the President has done, on 
multiple occasions. And when we are done, we should use it in 
the fashion that we have planned. And as for when the time--
again, when the time comes that we are not getting research 
worth the cost of its logistics, we will know that, and it will 
be time to cease its operation.
    Mr. Ehlers. And is the Centrifuge going to be installed, or 
is--has that part been dropped?
    Dr. Griffin. The Centrifuge will not be installed.
    Mr. Ehlers. And is there a particular reason for that? Is 
that a cost factor, or is it--is there--was there a problem 
with building it?
    Dr. Griffin. We are just out of Shuttle flights to deploy a 
Centrifuge, and that particular set of equipment didn't make 
the prioritization.
    Mr. Ehlers. And then what happens when the--when you retire 
the Shuttle? Could you expect the CEV to be the--transporting 
personnel and equipment back and forth?
    Dr. Griffin. After we retire the Shuttle, for a period of 
about four to five years, we will be purchasing commercial 
cargo service from Russia as well as from other nations and, 
hopefully, from indigenous cargo providers in our own nation. 
We will be purchasing crew-rotation services from Russia and, I 
hope, commercial providers within our own country, but again, 
that is a commercial transaction, and it is not something that 
I can guarantee.
    Mr. Ehlers. Right.
    Dr. Griffin. Right now, we are--actually, we are 
negotiating a definitive contract with Russia to provide crew 
rotation and cargo services out through 2012, through the end 
of 2011 until 2012, in accordance with legislative relief that 
the Congress gave us on the ISNA Act. After 2012, we will, of 
course, have to rethink that. In 2015, we will start flying the 
CEV, and if commercial providers are not available, we will use 
the CEV to conduct Station logistics, but I have made it very 
clear that it is my intent that our provider of choice for crew 
and cargo is commercial services, if those can be brought into 
being.
    Chairman Gordon. The gentleman's time has expired.
    Mr. Hall is recognized for five minutes.

                       CEV Projecting and Budget

    Mr. Hall. Actually, on Mr. Udall's questions, maybe I was 
gone to vote or something, and you may have answered this. If 
you have, tell me. But there is some confusion about the answer 
to his question. When asked about the--when he asked about the 
delay in the CEV, it is my understanding that your answer was 
based on the CEV that was delayed until March of 2015. Now, 
somewhere, I understand that there has been a review at NASA, 
or new content, I guess, is the word that you used, that have 
added content, and they still have a launch of 2015, the same 
date, or maybe a couple of months on down. Now, let me finish.
    Dr. Griffin. Okay.
    Mr. Hall. And that is the same date. So, I guess the 
question is, what was deleted to keep the 2015 goal? You added 
new tasks or new content, and the current fiscal year 2008 
budget didn't support initial operating capability in 2014, and 
last month, you said NASA added important content to the 
Constellation program, including one test flight to check out 
orbital systems prior to flying astronauts for the first time. 
Of course, that is logical, and you will be making some 
slippages and some changes between now and 2015, I understand 
that. But what would be eliminated to keep the same date and, 
yet, there was a slippage?
    Dr. Griffin. I understand the question in the large, and 
let me, if--I think I can do this in five minutes.
    Mr. Hall. Okay.
    Dr. Griffin. Let me take it from the top and sketch out the 
whole picture----
    Mr. Hall. Okay.
    Dr. Griffin.--because I think anything less than a complete 
answer is misleading, and I just don't want to do that.
    Mr. Hall. Yeah, and I have found out that they have taken 
from my money that I put in the budget, $15 million to study 
the safety features and $150 million maybe to keep it going, 
that they took $75 million of that out to put John Glenn back 
into space, and I found that out when your head of NASA came 
and sat right where you sit there and told us about his budget. 
But we would like to know ahead of time.
    Dr. Griffin. I am completely forthcoming on that point, 
and----
    Mr. Hall. And I was for old people going into space, too.
    Dr. Griffin. Well, I regard Senator Glenn as a personal 
hero and a valued advisor, but we are not sending him into 
space again with your money. So let me take it from the top.
    I will start at the endpoint. Today, we are sitting on 
March 2015 as our--as what we think our launch capability will 
be for the CEV with crew. We have not ``added any new content'' 
to the program. The way that I would say that is we have 
finalized, after a period of about 18 months of planning, and I 
think a certain amount of planning is necessary, we have 
finalized the content that the CEV program should have, which 
test flight specifically, how many test flights do we need to 
do, what will each test flight attempt to do, and in fact, one 
of the discussions we have been having is upon which test 
flight will we demonstrate the abort system that you earlier 
expressed an interest in? But by and large, content adjustments 
have been, you know, quite minimal. What we are trying to do is 
to lay out the very specific program that we will fly to get 
from here to the delivery of the CEV. We have that.
    That amount of program content comes with a certain cost.
    Now, there have been a number of delays to our hoped-for 
delivery date for the CEV. Let me take a couple of the larger 
ones. When I sat here in 2005, two years ago, it was my hope 
that we could deliver a Shuttle-replacement capability, the 
CEV, some time in 2012, and we were attempting to do that. We 
laid out a plan by which that could be accomplished. We were 
not able to fund that plan. The first disruption to that plan 
was, as Chairman Gordon mentioned earlier, that it was 
necessary to put money into the Space Station and Space 
Shuttle. That--from exploration systems, that required about 
$1.6 billion, and that delayed us from 2012 until--and I won't 
be specific about the time, some time in 2014. There were 
rescissions for Katrina and other purposes. That delayed us. As 
Chairman Gordon mentioned, the amount of money projected to be 
available for NASA from the Administration decreased. That 
caused delays.
    The sum of all of those different delays, all on our side 
of the House, all on the Administration side of the House, 
whether within NASA or not, pushed the program out to late 
2014. At that time, it had been--well, we had never--we had not 
yet re-baselined the program since the contract had been 
awarded to Lockheed. And if you will recall in earlier 
testimony, I had said that we wanted to do our budgeting at a 
65 percent confidence level in contrast to the lower confidence 
levels that had been used in the past, and I believed--I 
strongly believe I have the support of this committee in doing 
that.
    So then we undertook our baselining activity to establish 
with the known program content and given the prior reductions 
in funding and inserting the 65 percent confidence level 
requirement what date would we--what date would fall out. The 
date, which fell out, was March 2015.
    Now, hang on with me for just another minute more.
    Following that, we then had to deal with the issue of the 
reduction in our planned funding, not an actual cut, but the 
reduction in our planned funding due to the 2007 Continuing 
Resolution. As I testified a few moments ago, when Mr. Udall or 
Mr. Gordon, I now forget which, asked the question, that 
specific delay was an additional six months. That, then, took 
us from March 2015 to September of 2015. Okay. Within my own 
resources, within the Exploration Systems Mission Directorate, 
we then terminated some lower--in our judgment, lower-priority 
activities in order to buy back some schedule for the higher-
priority activity, which is the CEV. That, then, returned us to 
March of 2015, which is where we sit today.
    So, to end up, we are at March of 2015 today, but I no 
longer have any latitude, at all, within my Exploration Systems 
budget, to absorb any other funding reductions. There is no 
lesser-priority content left that I can extract from the 
program in terms of moving money around.
    Now, that is a long story, and I am sorry. I hope--it was 
as clear as I can do it.
    Mr. Hall. I thank you for that. And what I gather from that 
is that there was not any program or part of a program 
eliminated or delayed. The slippage was there, and it happened 
just as you have put it on the record.
    Dr. Griffin. I think that is right, sir.
    Mr. Hall. He says you did say the robotic lunar----
    Dr. Griffin. I did. It is in order to----
    Mr. Hall. Okay.
    Dr. Griffin.--achieve the best schedule on CEV, I did 
extract what I determined to be lesser-priority stuff, which 
was the robotic lunar lander that would have followed Lunar 
Reconnaissance Orbiter and certain advanced technology 
development.
    Mr. Hall. So as much as the CR or that elimination, you are 
firm--you are pretty firm, as you can be--possibly be, at this 
date, on the date of March of 2015.
    Dr. Griffin. Right.
    Mr. Hall. I thank you, and I yield back my time.
    Thank you.
    Dr. Griffin. And the CR, by itself, was a six-month delay, 
but there have been other delays, and that is not the only one, 
and I don't want to leave the impression that it was.
    I also must say, for the record, that we have certainly not 
eliminated lunar robotics from our vision. One of the most 
important things we are going to do with lunar robotics is to 
in--place the communications and navigation structure around 
the Moon that will tie it to the Earth-orbiting communications 
and navigation network, and that will be crucial for the out-
years.
    Mr. Hall. You have sure clarified it for me, and I hope it 
helps my friend from the west.
    Dr. Griffin. I have tried. It is very hard.
    Mr. Hall. And I yield back. You have done very well, and I 
thank you for it.
    Chairman Gordon. Thank you, Mr. Hall.

                       Decadal Survey Suggestions

    In conclusion, Dr. Griffin, as you know, there are a lot of 
folks that are interested in the Earth science application 
recent Decadal Survey. I understand that when you were 
answering a question, and I wasn't here, with Mr. Udall, that 
you weren't prepared to say whether or not--if you are going to 
do any of them, not do any of them, or what--which ones they 
might be. So when can we--when can you tell us that you will be 
able to give us an indication if you are going to do any of the 
missions? And if not--and then, but if you are, which ones?
    Dr. Griffin. Well, we are working----
    Chairman Gordon. We have got spare time.
    Dr. Griffin. We are working on a couple of things on that, 
and I am trying to--I just want to get the plan. There--I have 
been before this committee to testify in connection with the 
NPOESS program on other occasions, and with my colleagues 
Admiral Lautenbacher and Dr. Sega. But I believe this committee 
is aware that the climate change research that was previously 
planned to have been done on NPOESS as a result of the Nunn-
McCurdy breach on NPOESS, that climate research instrumentation 
is largely now removed. Okay. NASA's--a few years ago, NASA's 
climate change research money was put toward the trilateral 
NPOESS program, so that money is now no longer in our 
programming. So at OSTP's request, we, along with NOAA, are 
prepared--we have analyzed the descoping of NPOESS, and now we 
are working to provide a report back to OSTP on how we, at NASA 
and NOAA, will undertake to conduct the climate change 
research. That report is due in May. We have commissioned a 
National Research Council study this--to--also for this spring, 
to assess that same question. Into this mix must go the input 
from the Decadal. And so, later in the spring, at most--well, 
when we receive these reports and then for us later in the 
summer, we should be able to provide this committee with an 
assessment, going forward, of how 2009 and beyond budget run-
out will be modified to take into account the loss of climate 
change research on NPOESS and the new conclusions from the 
Decadal. Now, bear in mind that the fiscal year 2008 budget was 
prepared before the Decadal was out. And we did modify the 
fiscal year--we had a look at the Interim Report on the new 
Decadal from Earth science, and we did adjust funding on GPM 
to--you know, to take that into account, but the full effect of 
the Decadal, replanning it to the extent that it affects Earth 
science, won't be available in 2008. It will have to start in 
2009 and beyond.
    Chairman Gordon. That is a fair answer, and we look forward 
to your reporting us--to us on that.
    And again, we thank you for your testimony, as always.
    If there is no objection, the record will remain open for 
additional statements from Members and for answers to any 
follow-up questions that the Committee may ask of the witness. 
Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  The recently released Final Report of the International Space 
Station (ISS) Independent Safety Task Force recommends an additional 
billion dollars to support post-Shuttle logistics. This recommendation 
reflects the Task Force's serious concerns for long-term logistical 
support to the ISS (p. 43, ISS Independent Safety Task Force) and risks 
of depending on the COTS program [i.e., commercial logistics carriers] 
to support expected logistics requirements in the post-Shuttle 
environment.

Q1a.  What is your response to the concerns raised by the Task Force 
and the funding recommendation? Are the concerns valid?

A1a. NASA is taking the International Space Station (ISS) Independent 
Safety Task Force (IISTF) report seriously and is continuing to closely 
examine the logistics support needed to safely maintain and operate the 
International Space Station, as well as the potential cost, performance 
and availability of domestic and international space transportation 
systems during the post-Shuttle timeframe. At this time, many variables 
remain in our analyses, and this represents a program risk that we are 
actively managing and mitigating to the maximum degree possible. The 
IISTF report raises valid concerns that the Agency will continue to 
review. NASA is actively addressing this issue as part of our FY 2009 
budget formulation and are developing a compatible budget and strategy 
that addresses these concerns.

Q1b.  If COTS systems do not prove viable for ISS crew and cargo 
services, what will you do?

A1b. On March 1, 2006, in response to direction in section 505 (c) (2) 
of the NASA Authorization Act of 2005 (P.L. 109-155), NASA submitted to 
the Committee an ISS Logistics Contingency Plan that outlines the 
Agency's plan to provide logistics and on-orbit capabilities to the ISS 
in the event of a contingency such as the Space Shuttle or other 
commercial crew and cargo systems being unavailable. NASA is committed 
to purchasing commercial cargo and crew services to support the ISS 
once these services are successfully demonstrated and cost-effective. 
Although commercial services are the strong preference, NASA could also 
employ Orion/Ares when it is available or purchase launch services from 
within the ISS international partnership.

Q1c.  Do you believe you will have sufficient time to procure Russian 
Progress/Soyuz vehicles, European ATV vehicles, or Japanese HTV systems 
to cover these crew-cargo service requirements?

A1c. NASA is structuring the acquisition process to undertake 
procurement actions as late as possible in relation to the COTS 
demonstration program, while still preserving options that allow lead-
time for alternative sources. NASA recognizes the implications of 
delaying cargo transportation services and is carefully considering the 
risk to International Space Station maintenance while taking all steps 
feasible to mitigate the risk.

Q1d.  With the COTS uncertainty, how great a risk is there of not 
having a viable Station or having it shut down, due to inadequate 
logistical support?

A1d. It is not possible to predict a specific degree of risk with high 
certainty at this time. Each International Space Station (ISS) 
increment yields new data on system, subsystem and component 
performance and our analyses are continually refined with operational 
experience. The ISS Program is committed to delivering the highest 
performance possible within available resources. The contingency 
Shuttle flights play a key role in providing a robust COTS 
transportation plan.

Q2.  The International Space Station Independent Safety Task Force 
concluded that both of the Space Shuttle flights book-kept as 
``contingency'' flights [i.e., ULF-4 and ULF-5 Shuttle missions] ``are 
needed to assure the long-term viability and perhaps survivability of 
the ISS.'' The Task Force goes on the recommend that ``The 
Administration, Congress, and NASA should commit to completing the 
Shuttle assembly manifest, including ULF-4 and ULF-5, to enable the 
accomplishment of the ISS program's objectives.''

Q2a.  Do you agree with the Task Force's recommendation?

A2a. NASA agrees the two contingency flights play an important role in 
assuring long-term viability of the International Space Station (ISS). 
For this reason, the Agency is continuing to hold open the option to 
add these missions following deployment of the ISS international 
elements and achievement of a six-crew capability--both of which remain 
a higher priority.

Q2b.  In the wake of the Safety Task Force's report, has the 
Administration--including OMB--committed to completing the Shuttle 
assembly manifest, including the ULF-4 and ULF-5 missions?

A2b. The Administration is committed to completing the International 
Space Station assembly manifest and honoring our international 
commitments as demonstrated by the current baseline assembly sequence. 
The decision on whether or not to add the two potential contingency 
flights to this baseline and begin detailed flight planning and 
integration is not required at this time. A better-informed decision 
can be made in the future as the assembly process advances and the 
schedule margin available prior to Space Shuttle retirement becomes 
clear.

Q3.  The Final Report of the International Space Station Independent 
Safety Task Force discusses the risks of micrometeoroid and orbital 
debris to the ISS. How does NASA plan to address those risks?

A3. In its final report, the International Space Station (ISS) 
Independent Safety Task Force (IISTF) notes that ``The ISS Program has 
done considerable work to research and model the MMOD environment. This 
work has enabled the Program to identify criteria for design and to 
determine the level of risk from MMOD to the ISS vehicle and crew. More 
importantly, these criteria have aided NASA and the IPs in identifying 
and incorporating design solutions to address the problem.''
    The report continues to state that ``The ISS is the first crewed 
spacecraft to be developed considering MMOD protection as a primary 
design requirement.'' NASA, the European Space Agency and the Japanese 
Space Agency (JAXA) elements meet established ISS requirements for 
micrometeoroid and orbital debris (MMOD) protection. As the IISTF, 
report states that ``Russian hardware that was designed before they 
were intended for use on ISS (i.e., Russian SM, Soyuz, and Progress) 
fall short of meeting the specifications.'' The IISTF recommends that 
``the ISS program should place the highest priority on options to 
decrease the risk of MMOD,'' specifically:

         ``5.1.1 The ISS Program should launch and install the Service 
        Module MMOD modification kits at the earliest practical 
        opportunity consistent with other safety risk trade-offs.''

         ``5.1.2 For current systems, the Russians should pursue and 
        implement design options to meet the integrated programs MMOD 
        requirements. If necessary, the program should negotiate or 
        barter with the Russians to implement the Progress and Soyuz 
        MMOD enhancements.''

    NASA continues to monitor the Russian Segment MMOD risk as its top 
program risk and has taken steps to mitigate this risk. Roscosmos and 
NASA have been in discussions regarding enhancements to the Service 
Module (SM), Soyuz and Progress vehicles. MMOD environment models are 
being revalidated and the MMOD failure probabilities for docked Russian 
vehicles are being reviewed with our Russian partners.
    In December 2006, 17 Conformal SM Debris Panels were delivered on 
STS-116/12A.1. The panels, along with six panels delivered earlier, 
will be installed on the SM in June 2007. Operational procedures are 
also in place to orient the SM solar arrays as a MMOD shield.
    NASA is currently pursuing a modification to an existing contract 
with the Russian manufacturer of the Service Module, RSC-Energia, to 
complete a feasibility study for SM MMOD deployable wings that will 
further enhance protection against MMOD risks. The study is expected to 
verify the design and deployment methods this year, allowing sufficient 
time for design, manufacture, installation procedure development and 
crew training. The SM MMOD wings are currently manifested for delivery 
to ISS on Assembly Flight 20A in 2010. The proposal to execute this 
contract modification with RSC-Energia is currently undergoing 
interagency review to ensure compliance with the reporting requirements 
of the Iran Nonproliferation Amendments Act (P.L. 109-112).

Q4a.  What is NASA doing to further the development of supersonic 
aircraft?

A4a. The Supersonics Project of the Fundamental Aeronautics Program in 
NASA's Aeronautics Research Mission Directorate is focused on 
maintaining intellectual stewardship of aeronautical core competencies 
for the Nation in the supersonic flight regime and on developing 
advanced technologies and concepts that can be leveraged by industry to 
develop future supersonic aircraft.
    From before the first flight of the X-1, through the development of 
early supersonic aircraft designs, to the understanding of rocket 
booster plume effects on the supersonic performance of the Space 
Shuttle, NASA researchers and facilities have played a key role in 
finding solutions to the problems of supersonic flight. Recent advances 
have contributed to a resurgent interest in supersonic cruise flight. 
Sonic boom reduction technology, for example, may make overland 
supersonic cruise a reality. Benefits to the general public would 
include reduced travel time for business and pleasure, rapid delivery 
of high-value, time-critical cargo such as medical items, and rapid 
response of disaster first responders. Supersonic cruise technology is 
also of high interest to the U.S. military.
    One of the most significant barriers common to both military and 
civilian supersonic cruise applications is overall aircraft efficiency. 
Significant efficiency improvements over what has been demonstrated to 
date will in fact be required to make such systems viable. 
Breakthroughs in cruise efficiency will be required to achieve the 
needed improvements, and for civil aircraft, the technical challenges 
are compounded by environmental factors such as airport noise, sonic 
boom, and high altitude emissions.
    The Supersonics Project team has identified technology challenges 
for future supersonic aircraft. These include elimination of the 
efficiency, environmental and performance barriers to practical 
supersonic cruise flight. Recognizing that the solutions to these 
challenges will be highly integrated, the Supersonics Project is 
partnering with both the Hypersonics and Subsonic Fixed Wing teams to 
develop rapid multi-disciplinary design, analysis and optimization 
methods and frameworks that this team can in turn apply to its selected 
vehicle class challenges.
    The specific technology challenge areas and the levels of 
improvement that are required to realize the vision of future 
supersonic cruise are:

Efficiency Challenges

    Supersonic Cruise Efficiency: To achieve economic viability, 
supersonic cruise civil aircraft need to achieve unprecedented levels 
of cruise efficiency, without excessively penalizing performance in 
other speed regimes. Cruise efficiency, comprising airframe and 
propulsion efficiency needs to be increased by a combined total of 
approximately 30 percent in order to provide the required supersonic 
cruise range.

    Light Weight and Durability at High Temperature: Significant 
reduction in high-temperature airframe and propulsion system weight is 
a key element of achieving practical supersonic flight. New material 
and structural systems must achieve these weight targets without 
effecting life or damage tolerance. Overall, a reduction on the order 
of 20 percent of structural and propulsion system weight is envisioned 
to be required.

Environmental Challenges

    Airport Noise: Supersonic aircraft must meet the same airport noise 
regulations as subsonic aircraft, without incurring significant weight 
or cruise performance penalties. This challenge is particularly 
difficult because supersonic cruise requires lower bypass ratio than 
state-of-the-art subsonic aircraft. Approximately 20 EPNdB of jet noise 
reduction relative to an unsuppressed jet will be required to meet this 
challenge.

    Sonic Boom: In order to achieve maximum utility, supersonic 
overland flight must be achievable. This requires that the aircraft 
must be designed and operated so that no unacceptably loud sonic boom 
noise is created over populations. It is estimated that a reduction of 
loudness on the order of 30 PLdB relative to typical military aircraft 
sonic booms will be required.

    High Altitude Emissions: Supersonic aircraft cruise most 
efficiently at altitudes where exhaust emissions have a potentially 
large impact on the atmosphere. The impact must be minimized or 
eliminated. As an example, the emission of oxides of Nitrogen must be 
reduced from 30 g/kg of fuel to five.

Performance Challenges

    Aero-Propulso-Servo-Elastic (APSE) Analysis and Design: Slender 
supersonic aircraft exhibit unique Aero/Propulsive/Servo/Elastic 
behavior. Controlling this behavior is key to designing a vehicle that 
is safe, comfortable and easy to fly. Controlling flutter, gust, and 
maneuver loads in a manner that is synergistic with the vehicle 
structural design, is an important element of reducing empty weight.

Multi-disciplinary Design, Analysis and Optimization Challenges

    Understanding and exploiting the interactions of all these 
supersonic technology challenges is the key to the creation of 
practical designs. This requires the development of a flexible 
integration framework in which variable fidelity analysis tools can be 
used in a ``plug and play'' fashion depending on the type of problem 
being studied.

    The Supersonic Project is addressing all of these challenges 
through a combination of in-house research and partnering strategies 
with academic and industrial entities. Detailed five-year plans have 
been setup to achieve the goals mentioned above and can be found at 
http://www.aeronautics.nasa.gov. It is expected that the resolution of 
these challenges will lead to furthering the goal of developing viable 
supersonic aircraft.

Q4b.  What is NASA doing to develop our understanding of low-sonic boom 
supersonic flight so that appropriate sonic boom standards can be 
established? What is the timetable for those activities?

A4b. The issue of sonic boom is considered by the Supersonics Project 
as one of the key technical challenges that need to be addressed in 
order to make viable supersonic cruise flight a reality (see the answer 
to the first part of the question). Leveraging past NASA contributions 
for the understanding of sonic boom creation, propagation, impact and 
minimization, the Supersonics project is currently focused on 
furthering our understanding of the effect of the sonic boom 
phenomenon, and on developing tools and technologies that can be used 
to tailor the sonic boom so that this impact is significantly reduced.
    Past research efforts have helped understand the effect of both N-
wave and low-boom (tailored) signatures on outdoor noise levels. These 
efforts have ranged from psycho-acoustic studies (in the sonic boom 
simulator at the NASA Langley Research Center) to flight tests (DARPA/
NG/NASA Shaped Sonic Boom Demonstrator, F-15 low-boom flights at the 
NASA Dryden Flight Research Center, and the Quiet Spike flights in 
partnership with Gulfstream Aerospace) that give a fairly good 
understanding of what would be acceptable to the public in an outdoor 
setting.
    Current in-house research efforts focus on:

        <bullet>  Assessment of the effects of the atmosphere on the 
        propagation of shaped sonic booms. Atmospheric turbulence and 
        winds can significantly distort the predicted shape of a ground 
        shaped boom signature.

        <bullet>  Development of building transmission models to better 
        understand the impact on indoor perception (noise, vibration, 
        rattle). Indoor noise is now becoming the leading obstacle to 
        realizable low-boom aircraft.

        <bullet>  Development of high-fidelity prediction tools for the 
        understanding of the creation and propagation of the entire 
        boom signature. To date most efforts in sonic boom reduction 
        have focused on the front portion of the boom signature 
        (created by the front portion of the aircraft). The more 
        complicated aspects of shaping the aft end of the signature 
        (including engine plume effects) remain to be solved.

    The timeline for the key deliverables in our understanding of the 
boom phenomenon and its tailoring for realizable low-boom supersonic 
aircraft is included in the tables of milestones (taken from our Task 
Plans) below:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In addition to these in-house efforts, the Supersonics Project is 
engaging the research and industrial communities by means of the NASA 
Research Announcement (NRA). The second round of the NRA closed in late 
March 2007, and a large number of proposals addressing the sonic boom 
challenge are currently being reviewed and it is anticipated that they 
will be awarded during the summer months. These research contributions 
will be aligned with the goals of the Supersonic Project in this area 
and will significantly enhance NASA's contributions.

Q5.  NASA's FY 2008 proposed budget cuts ISS and Shuttle reserves to a 
total of just $100 million in FY 2008. That represents a 1.6 percent 
reserve level. Do you consider that an appropriate level of reserves 
for two large and complex human space flight programs?

A5. In the FY 2008 President's budget request, the Space Shuttle 
Program reserves are $62 million and the International Space Station 
(ISS) reserves are $38 million. These levels of reserve are tight, but 
executable if no major anomalies occur. NASA reduced its Shuttle 
reserve posture to address remaining program threats. The program 
retains the capability to meet the manifest, but its flexibility is 
reduced if technical problems arise. The ISS Program reserves in 2007 
are depleted, as the program enters one of the most challenging 
assembly years yet. The program will seek to rebuild additional reserve 
levels throughout the year by closely monitoring costs.
    Enactment of Katrina transfer authority to reimburse Shuttle and 
ISS programs would improve these programs' risk posture. Shuttle and 
ISS loaned funds for immediate Katrina needs in FY 2005. Without 
Katrina transfer authority, reserve levels assumed in the FY 2008 
request for Shuttle and ISS will be insufficient to address other 
threats that may become reality.

Q6.  We have heard you use the term ``go as you can afford to pay'' 
with respect to the components of NASA's Exploration program. NASA 
officials have also said the Agency is not going to use the ``year by 
year'' approach that was used for ISS development. Could you please 
explain the difference between these two general approaches and in what 
ways the development programs in the Exploration program will differ 
from the development program for the ISS?

A6. Both the International Space Station (ISS) Program and the 
Constellation Program have been planned in a phased process based upon 
technical requirements, but the ``go as you can afford to pay'' 
strategy for exploration includes several factors intended to avoid the 
problems experienced by the ISS Program. For the ISS Program, NASA 
planned the full architectural scope and specific deliverable content 
during the Preliminary Design. During that early phase, the ISS Program 
did not have the cost estimation and cost management tools that NASA 
uses today and overran their budget during the later phases of 
development. Due to these overruns, limits were put on the program's 
annual budget late in the process, introducing many inefficiencies and 
limiting NASA's ability to most effectively manage the program. These 
annual spending constraints put the ISS Program into a ``year by year'' 
operating mode.
    The cost estimation process is more refined for the Constellation 
Program than it was with the ISS Program, so overruns are less likely. 
Constellation employs a flexible development approach based on 
establishing milestones to achieve initial operational capability to 
low Earth orbit in 2015 and a first lunar landing in 2018. NASA also 
developed a carryover strategy, which helps to mitigate minor funding 
fluctuations. In addition, exploration consists of several different 
projects; as available resources vary, funding can shift between the 
exploration projects to minimize deleterious effects on development. 
The improved cost estimation process, carryover strategy, and 
separation of projects in exploration all allow NASA to be more 
flexible and achieve milestones within the currently projected budget.

Q7.  To what level of technical maturity will NASA take it Next 
Generation Air Transportation System (NextGen) technologies? Does FAA 
agree with NASA on the level of technical maturity to be achieved by 
NASA prior to hand-off to the FAA? If so, please provide the agreement 
to the Committee.

A7. First, it is important to note that all three of the Aeronautics 
Research Mission Directorate (ARMD) research programs (Fundamental 
Aeronautics, Aviation Safety, and Airspace Systems) contribute directly 
and substantively to the Next Generation Air Transportation System 
(NextGen). Together, these programs address critical air traffic 
management, environmental, efficiency, and safety-related research 
challenges, all of which must be worked in order for the NextGen vision 
to be realized. The outputs of this focused commitment and investment 
will include advanced concepts, algorithms, tools, and methods, in 
addition to technologies, and all of these products will be critical to 
the success of NextGen.
    It should be evident from the clearly stated goals of the NextGen 
that a focus on fundamental, cutting-edge research is absolutely 
essential to the successful realization of the NextGen vision. The 
Vision 100 Century of Aviation Reauthorization Act (Public Law 108-176) 
clearly states that ``The integrated plan shall be designed to ensure 
that the Next Generation Air Transportation System meets air 
transportation safety, security, mobility, efficiency, and capacity 
needs beyond those currently included in the Federal Aviation 
Administration's operational evolution plan. . .'' (emphasis added). In 
other words, the NextGen vision is not simply an incremental advance on 
the existing system; it represents a true paradigm-shift from what we 
have today, and it requires a commitment to cutting-edge research 
across a breadth of aeronautical disciplines (from noise and emissions 
research to safety research to advanced mathematical optimization 
algorithms for airspace management, just to name a few). Such a 
commitment is precisely what NASA's new program is offering. Our return 
to fundamental, innovative research will increase the probability of 
development of the revolutionary technologies that will be required for 
the successful implementation of NextGen and will broaden the advanced 
technology development options.
    While many have embraced NASA's return to the cutting-edge, and 
understand that such a focus is critical to the NextGen vision, some 
have raised concerns about ``technology transition.'' According to 
Public Law 108-176, it is the responsibility of the Joint Planning and 
Development Office (JPDO) to facilitate ``the transfer of technology 
from research programs such as the National Aeronautics and Space 
Administration program and the Department of Defense Advanced Research 
Projects Agency program to federal agencies with operational 
responsibilities and to the private sector.'' In other words, the 
responsibility for transition resides with the JPDO and all of its five 
member agencies. This responsibility is reinforced in the newly drafted 
JPDO Memorandum of Understanding, which both NASA and the Federal 
Aviation Administration (FAA) have signed.
    Transition of research into operational use is of course not a new 
challenge, nor is it particular to the FAA and NASA. One way to 
jeopardize successful transition, however, regardless of the agencies 
involved, is for the parties to become fixated on ``technology maturity 
levels,'' or ``technology readiness levels.'' The level of maturity to 
which a technology is developed is irrelevant if that technology does 
not enable the desired goals of the intended users. Successful 
transition requires the researchers and the users to engage closely 
from the very beginning on whatever is being developed or invented. The 
users must understand the assumptions and limitations that the 
researchers are operating under as they perform their research and the 
researchers must understand how their assumptions will impact the 
usefulness of their technology or method. Successful transition relies 
upon a close working relationship among those who conduct the research 
and those who use its results, and the JPDO has been established 
precisely to address this challenge. NASA intends to work closely with 
all of the member agencies of the JPDO, including the FAA, throughout 
the entire technology development process to ensure that, to the 
greatest extent practicable, researchers and system operations 
personnel collaborate to make the technology development and transition 
as effective as possible. Figure 1 below illustrates our approach in 
the case of the transition of our airspace systems research to the FAA. 
This approach enables both NASA and the FAA to do what each does best 
according to its charter and mission in the best interest of the 
Nation.
    Finally it must be noted that the Enterprise Architecture and the 
Integrated Work Plan, the primary planning documents of the NextGen, 
are still being developed by the JPDO. Baseline versions for each of 
these documents are scheduled for completion during FY 2007. However, 
these documents will need to be vetted with the stakeholder community 
and will undoubtedly continue to evolve over the next few years. As 
these documents mature, gaps will most likely be identified in 
technology development, knowledge, schedule, or other areas, and NASA, 
the FAA, and the other JPDO member agencies (DOD, DHS, DOC) will work 
together to address those specific gaps as they impact NAS transitions 
and system implementation. At the moment, in the absence of these 
plans, no agreement can or does exist regarding what specific gaps need 
to be addressed and how they need to be addressed. Therefore, in the 
interim, NASA will continue to work with the JPDO to refine its 
technical roadmaps and resource plans, which have been developed in 
substantial collaboration with the JPDO, as information regarding the 
JPDO plans becomes available.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Q8.  In 2003, NASA was authorized to demonstrate enhanced use leasing 
(EUL) at two centers, allowing the agency to retain the proceeds form 
leasing out underutilized real property and to accept in-kind 
consideration in lieu of cash for rent. NASA has requested that 
Congress extend this authority to additional centers. GAO recently 
issued its report and recommended that NASA develop an agency wide EUL 
policy to address weaknesses in the agency's implementation of EUL.

        a.  What is the status of NASA's agency wide EUL policy?

        b.  What are NASA's plans and timeframe for implementing the 
        policy, specifically in the areas pointed out by the GAO (best 
        economic value criteria, measures of effectiveness, and 
        accounting controls)?

A8. NASA has begun development of the new Agency-wide EUL policy. The 
NASA-wide EUL policy will include the recommendations from the 
Government Accountability Office (GAO) to provide clear and unambiguous 
requirements and procedures on EUL as well as procedures and lessons 
learned from the two NASA centers in the EUL demonstration program. The 
policy will be based on sound business practices and will establish 
controls and processes to ensure accountability and to protect the 
government's interests. NASA anticipates that the Agency-wide guidance 
will be implemented before the end of the current fiscal year, and 
guide the execution of any expansion or modifications of the existing 
EUL authority that may be enacted by Congress.

Q9.  NASA recently delivered the report on Near Earth Objects called 
for in the NASA Authorization Act of 2005. However, that Act also 
directed NASA ``to plan, develop, and implement a Near-Earth Object 
Survey program. . .for near-Earth objects equal to or greater than 140 
meters in diameter. . .'' and to deliver a report that provides ``a 
recommended option and proposed budget to carry out the Survey program 
pursuant to the recommended option.'' The report delivered does not in 
fact provide a recommended option that would fulfill the statutory 
requirement regarding surveying near-Earth objects equal to or greater 
than 140 meters in diameter. When do you intend to comply with the 
statutory requirement?

A9. NASA intends to continue its existing NEO program as currently 
planned. However, NASA will also take advantage of opportunities using 
potential dual-use telescopes and spacecraft--and partner with other 
agencies--to attempt to achieve the legislative goal within 15 years. 
At the present time, NASA cannot initiate a new program.

Questions submitted by Representative Ralph M. Hall

Exploration Systems

Q1a,b.  The FY 2007 Continuing Resolution cut the Exploration Systems 
program by $577 million. Please describe the program changes NASA has 
taken or will take in FY 2007 to accommodate these reductions? Exactly 
what projects within the Exploration Systems program will be reduced or 
eliminated as offsets?

A1a,b. The FY 2007 reduction will primarily impact the funds available 
for the Orion CEV and Ares I CLV development work in FY 2008-2010, not 
the current fiscal year. While near-term milestones will be achieved, 
the Constellation program will not likely be able to meet several 
milestones originally planned during the FY 2008-2010 timeframe. Due to 
the cumulative effect of previously underestimated costs to retire/
transition the Space Shuttle and support the International Space 
Station (ISS), the reduction from the FY 2007 request reflected in the 
FY 2007 Continuing Resolution, and the maturing design and integrated 
flight tests baselined for the Constellation program, it is unlikely 
that NASA will be able to bring these new Exploration capabilities 
online by 2014. NASA is working to define program options within the 
Exploration Systems budget for FY 2008 to shore up funding for the 
Orion CEV and Ares I launch vehicle. We will communicate NASA's plan to 
our oversight Committees later this year.
    While the Lunar Reconnaissance Orbiter (LRO) and its secondary 
payload, the Lunar Crater Observing and Sensing Satellite (LCROSS), 
remains on schedule for launch in 2008, all other activity under the 
Lunar Precursor Robotic Program, which were directed towards future 
precursor robotic missions, will cease. Exploration Systems Mission 
Directorate (ESMD) will not be working on additional independent 
robotic missions, such as a robotic lander, at this time. ESMD will 
instead focus on analysis and processing of available lunar data (from 
LRO and other international missions) and execute a Lunar Mapping 
effort that will support the Lunar surface operations planning of the 
Constellation program.
    In the Exploration Technology Development Program several lower 
priority technology efforts will be impacted. The spacecraft autonomy 
and reliable software projects and the NASA Institute for Advanced 
Concepts will be closed out in an orderly fashion and several other 
research and technology efforts, such as dust mitigation, non-toxic 
cryogenic propulsion systems, and radiation hardened and low 
temperature electronics will be reduced.

Q1c.  Is NASA contemplating cuts to the science and aeronautics 
programs as offsets, and if so please identify them along with budget 
offsets?

A1c. NASA's initial FY 2007 Operating Plan, submitted to the Committee 
on March 15, 2007, included the reductions to Exploration Systems 
resulting from the funding reductions reflected in the FY 2007 
Continuing Resolution. No reductions to science and aeronautics were 
made as offsets to these reductions.

Q2.  Based on your FY 2008 Budget Request, NASA plans to spend nearly 
$26 billion on the Constellation program beginning in FY 2008 through 
FY 2012. Of this $26 billion, nearly $16 billion is planned for fiscal 
years 2011 and 2012. What is NASA's basis for the large increases in FY 
2011 and 2012?

A2. FY 2011 and FY 2012 show increased activity and costs as the Ares I 
Crew Launch Vehicle, Orion Crew Exploration Vehicle, and Ground 
Operations facilities move from design phases to hardware fabrication, 
integration, and ground and flight testing. This period includes two 
ascent abort test flights, two Orion/Ares uncrewed test flights, 
preparations for the first crewed flight, and the start of production 
for follow-on flights. Constellation is taking over selected Shuttle 
infrastructure and costs in this period, and staffing up ground 
operations to prepare for operational flights. Also, in this time 
frame, we will see the start of significant development work for 
systems to return to the Moon--the Ares V Cargo Launch Vehicle, Lunar 
Surface Access Module, and other lunar Surface Systems.

Shuttle

Q3.  If further delays are experienced in the Shuttle flight rate it is 
likely that one or several flights could be eliminated from the 
manifest. How will NASA decide which flights to cancel?

A3. NASA is committed to safely flying the Shuttle through its 
retirement in 2010 to complete construction of the ISS, which will 
fulfill our commitments to our International Partners and enable us to 
conduct exploration-focused research on-board. The Shuttle manifest 
calls for 13 assembly flights to the ISS and one to service the Hubble 
Space Telescope. In addition, two ISS logistics flights may be flown 
There is currently sufficient schedule margin in 2010 such that if a 
flight had to slip out of 2008 or 2009 it could still be flown before 
September 2010. If any of these flights slip beyond September 30, 2010, 
we will investigate the current state of ISS and delete the least 
critical equipment to be transported to ISS. This process will evaluate 
the maintenance backlog to prioritize what components will be flown.

Q4.  Bill Gerstenmaier has recently said that NASA is nearly ``past the 
point of no return'' in shutting down vital shuttle suppliers in 
anticipation of retiring the Shuttle. Exactly what milestones will 
signal the ``point of no return?'' How is NASA ensuring sufficient 
spares remain available to support Shuttle operations through 2010? How 
has NASA determined at this point whether those suppliers will be 
needed for Orion or Ares?

A4. There is no single ``point of no return.'' As contracts are 
completed and hardware delivered, it becomes increasingly difficult to 
reestablish contracts and procure hardware for the Space Shuttle. For 
example, aluminum lithium ingot production for the external tank has 
been terminated and all procured ingots provided to Orion. This loss of 
material will eliminate the option of cost-effectively continuing 
manufacture of multiple tanks.
    NASA is building additional spares to insure that the Agency can 
fully support the manifest through the end of FY 2010. NASA carefully 
reviews each Shuttle component with the Orion and Ares programs and 
determines if the supplier will be needed for the future program prior 
to ceasing the Agency's relationship with the supplier.

Space Station Human Research Program

Q5a.  What is the limiting factor in achieving the Human Research 
Program goals?

A5a. The following factors could be construed as limiting to the 
success of the Human Research Program:

        <bullet>  Significant deviations from the planned Shuttle and 
        Soyuz launch sequence.

        <bullet>  Sample Return capability to maintain the viability of 
        physiological samples.

        <bullet>  The availability of non-assembly crew time.

        <bullet>  Availability of crew members as subjects for 
        research.

Q5b.  How will NASA sustain the Human Research Program if any of the 
Shuttle logistics flights are not flown by 2010?

A5b. NASA will have to rely on the capabilities of commercial services 
if available, or our International Partners if necessary, to fulfill 
the up mass and down mass requirements.

Q5c.  How much has NASA budgeted for the alternative transportation?

A5c. The table below shows the NASA budget for ISS crew and cargo 
services and the budget to develop additional alternative capabilities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Questions submitted by Representative Mark Udall

Q1.  Does NASA plan to initiate any of the new missions recommended by 
the Earth Science Decadal Survey and if so, what are the next missions 
that NASA would initiate? Does the FY 2008 budget request with its 
five-year runout currently contain any funds to initiate any of the 
Decadal Survey-recommended missions?

A1. With the Decadal Survey now in hand, NASA is actively developing an 
integrated Earth Science mission roadmap to address the Earth Science 
scientific priorities identified in the Decadal Survey. As recommended 
in the Decadal Survey, the new NASA integrated mission roadmap will 
take into account contributions from international partners, the 
availability of supporting measurements from precursor missions that 
are expected to still be operating after 2010, and the data expected 
from National Polar-orbiting Operational Environmental Satellite System 
in light of the Nunn-McCurdy recertification.
    NASA will work to address the science priorities outlined in the 
Decadal Survey through the Earth System Science Pathfinder (ESSP) 
missions and Earth Systematic Missions. The FY 2008 budget request 
includes $492.3 million (over five years) for a new ESSP mission; this 
budget request supports a solicitation to be released in late FY 2008, 
with launch of a small-to-medium class mission in the 2014 time frame. 
While ESSP missions are competitively selected from among proposals 
submitted by researchers, the ESSP Announcement of Opportunity will 
solicit proposals for missions addressing one or more of the top four 
scientific priorities assigned to NASA in the Decadal Survey: 
quantitative measurement of solar irradiance and spectrally resolved 
Earth radiation budget; active and passive microwave measurements of 
soil moisture and vegetation freeze/thaw cycles; detailed measurements 
of ice sheet dynamics and extent; and solid Earth processes combined 
with measurements of vegetation canopy characteristics.
    In addition, the FY 2008 budget requests includes the start of a 
funding wedge for additional future Decadal Survey missions, with a 
small amount of funding ($1.2 million) for early work in FY 2009-2011 
and growing to $30.6 million in FY 2012. This funding supports future 
Earth Systematic Missions.

Q2.  The FY 2008 budget total reductions of $270 million for FY 2008-
2012 from the Space Shuttle Transition and Retirement (STaR) funding.

Q2a.  What is the impact of the STaR reductions?

A2a. The Space Shuttle Transition and Retirement (STaR) provides funds 
to ensure successful ISS operations post-Shuttle retirement. It does 
this through the purchase of additional spares and by realigning costs 
in several areas that are currently jointly funded with Shuttle, such 
as Mission Operations Directorate, Flight Crew Operations Directorate, 
and flight crew equipment. The new sparing philosophy involves buying 
more spares. The old plan had the failed units returned from the ISS 
repaired on the ground and then returned to space.
    The FY 2008 budget request provides $187 million for STaR in FY 
2008, but reduces the five-year budget for STaR from the previous 
estimate by $270 million in favor of other higher-priority elements of 
the ISS program and other high priority Agency goals, particularly 
TDRSS replenishment satellites. The $270 million cut is achieved by 
reducing STaR reserves by $99 million from previous estimates and by 
creating a management challenge to reduce the Space Station's 
operations cost by $172 million through FY 2012 by finding efficiencies 
and reducing requirements and overall operating costs, including STaR. 
The resulting cost savings will be used to improve the Program's 
reserve posture and offset management challenges as needed.

Q2b.  What are NASA's plans for assessing the appropriate numbers and 
mix of skilled workers needed to safely fly the Shuttle through 2010 
and to transition from Shuttle to CEV?

A2b. As the Constellation System Requirements Reviews are completed 
this year, NASA will gain a much clearer understanding of the demands 
for future workforce skills, which will form the foundation for making 
any future decisions. Although proud of recent progress, NASA 
acknowledges that more needs to be accomplished. These tasks include 
matching available skills with future work, managing attrition, 
retraining and hiring, and using temporary and term appointments to get 
the flexibility to align agency needs with the time-phased workload.
    The nature of the work many NASA employees will do will change as 
we transition human space flight activities from Shuttle operations to 
research and development-focused activities like planning, design, 
testing and verification for Constellation systems. NASA is striving to 
give its employees opportunities to build on their existing skills by 
working on the new exploration systems, so that when this development 
work comes on-line, many of them can transition into new positions. 
Coupled with newly gained skills, the NASA workforce can take the 
skills honed in Shuttle operations and apply them to the design of 
future vehicles to make them fly more efficiently. From a human 
resources perspective, the transition of these key personnel must be 
carefully managed given the time between Shuttle retirement and Ares/
Orion operational capability.
    In order to complete the remaining Shuttle missions safely, 
retention of the NASA workforce, with their skills and tremendous 
dedication, for the duration of the Shuttle program is critical. A 
recent survey of Shuttle personnel across the NASA field Centers 
clearly demonstrates that NASA has highly motivated people who want to 
stay for the remainder of the program and see it succeed.

Q3.  You have indicated that ISS research is being deferred. However, 
you also testified last year that NASA expects to cease funding the ISS 
after 2016. That leaves a very limited window to conduct the research 
NASA has said it needs to conduct to answer questions related to human 
exploration of the solar system. Given that NASA's current ISS research 
and utilization plan contains no documentation of specific research 
questions to be answered along with the specific research protocols and 
milestones to be met to achieve the answers to those research 
questions, what specific documentation can you provide to Congress to 
demonstrate that NASA has credible and appropriate plans for 
utilization of the ISS prior to NASA's planned withdrawal from the 
program?

A3. NASA's tactical and strategic plan for utilization of the 
International Space Station (ISS) and a list of recent reports are 
described below.

Tactical Plan for ISS

1.  Launch and conduct manifested payloads. Examples are provided:

        <bullet>  Human Research--Analyzing Interferometer for Ambient 
        Air, Bisphosphonates as a Countermeasure to Space Flight 
        Induced Bone Loss, Validation of Procedures for Monitoring Crew 
        Member Immune Function, Vibrational Inhibition of Bone Erosion.

        <bullet>  Life Science Research--Streptococcus pneumoniae Gene 
        Expression and Virulence Potential in the Space Environment, 
        Advanced Plant Experiments on Orbit--Cambium.

        <bullet>  Physical Science Research--Shear History Extensional 
        Rheology Experiment, Coarsening in Solid Liquid Mixtures-2, 
        Capillary Channel Flow, Zero Boil-Off Tank Experiment, Smoke 
        and Aerosol Measurement Experiment, Multi-User Droplet 
        Combustion Apparatus/Flame Extinguishment Experiment, Light 
        Microscope Module/Constrained Vapor Bubble.

        <bullet>  Constellation Program Technology Demonstration--
        Electronic Nose, and Vehicle Cabin Air Monitor.gQ04
    For a list of specific ISS experiments and for further information 
see the following website: http://exploration.nasa.gov/programs/
station/list.html

2.  Develop future ISS experiments based on National Research Council 
(NRC) or program needs.

    The Human Research Program (HRP) is currently developing an 
integrated research plan, which has as an important ISS research 
element and extends past 2010. HRP is developing NASA Research 
Announcements (NRA's) in the following areas: Space Radiation, 
Exploration Medical Capability, Human Health Countermeasures, 
Behavioral Health & Performance, and Space Human Factors & 
Habitability, which will include experiments conducted on the ISS. NASA 
will develop physical science NRA's based on NRC study recommendations 
for research supporting exploration and emphasizing the use of existing 
flight hardware.
    Future technology demonstration experiments will be informed by 
Constellation Program needs.

Strategic Plan for ISS:

    The ISS is NASA's long-duration testbed for lunar missions as well 
as a flight analog for Mars transit. The six-month ISS mission 
increments are temporal and operational analogs for Mars transit. NASA 
is using the ISS as a laboratory for research that directly corresponds 
to Agency needs, as summarized below:

        1.  Research, Development, Test, and Evaluation of Biomedical 
        Protocols for Human Health and Performance on Long-Duration 
        Space Missions.

        2.  Research, Development, Test, and Evaluation of Systems 
        Readiness for Long-Duration Space Missions.

        3.  Development, Demonstration, and Validation of Operational 
        Practices and Procedures for Long-Duration Space Missions.

    NASA also utilizes the ISS for non-exploration-related life and 
physical science research when the uniqueness of the microgravity and 
space environment unmask phenomena that cannot be observed or studied 
in the normal Earth environment.

Reports:

        1.  The National Aeronautics and Space Administration (NASA) 
        Research and Utilization Plan for the International Space 
        Station (ISS), 2006. Website to obtain the NASA ISS utilization 
        report: http://exploration.nasa.gov/documents/reports.html

        2.  Also, NASA is currently developing two reports--the HRP ISS 
        Research Plan, to be published in December 2007, and a 
        comprehensive ISS Research Plan.

Q4.  With respect to the CEV program:

Q4a.  What effect, if any, will slipping the date of the first Initial 
Operational Capability (IOC) (i.e., first crewed launch) have on the 
nature of existing contracts for the Constellation program?

A4a. The slip of the Initial Operational Capability (IOC) will not 
change the plans for the existing Orion contracts.

Q4b.  How much is NASA spending on Constellation programs per month? 
Does current spending reflect costs at full-scale program levels or at 
levels to reduce the pace? What will the maximum monthly costs per 
month be once Constellation is fully ramped up?

A4b. The Constellation program is spending about $120 million per month 
as of mid-FY 2007. Constellation is still ramping up, so the current 
rate does not reflect any changes due to the funding reductions 
reflected in the FY 2007 Revised Continuing Appropriations Resolution. 
Peak rate within the budget horizon will be about $540 million per 
month in 2012, assuming the FY 2007 funding reduction is recovered.

Q4c.  Are you confident that NASA now understands the costs required to 
retire/transition space shuttle, support ISS and accommodate the design 
and integrated flight tests for the Constellation program?

A4c. A major focus of NASA's formulation of the FY 2009 budget is to 
adequately quantify the costs to retire and transition the Space 
Shuttle and understand the impact of that activity on the International 
Space Station (ISS) and Constellation programs. NASA's Space Operations 
Mission Directorate and Exploration Systems Mission Directorate have a 
joint transition team that is managing the day-to-day issue of 
transition from both an overall Agency perspective, as well as issues 
specific to the Space Shuttle and ISS. Significant progress has been 
made in identifying the risks and challenges associated with Shuttle 
retirement, transition of key Shuttle workforce, and the disposition of 
facilities across all NASA Centers. While there has been significant 
progress made in understanding the issues under a joint transition 
effort, much work still remains regarding the understanding of the 
costs required to retire the Space Shuttle program and transition to 
Constellation systems. It is being managed as a top risk. Independent 
of transition dynamics, the operational costs of supporting the ISS are 
well understood and the Constellation program has completed its Systems 
Requirement Review and is progressing to complete the Preliminary 
Design Review in 2008. NASA's confidence level to achieve initial 
operational capability for the Orion Crew Exploration Vehicle by 2015 
is currently at 65 percent.

Q5.  Is funding provided in the FY 2008 budget request to develop 
alternative means of obtaining the climate measurements eliminated from 
NPOESS as a result of Nunn-McCurdy? If so, how much? If not, why not?

A5. While NASA's FY 2008 budget request does not include funding to 
develop alternative means for obtaining these climate measurements, 
NASA and the National Oceanic and Atmospheric Administration (NOAA) 
have recently agreed to provide those funds required to fly the Ozone 
Mapping and Profiler Suite (OMPS) Limb sensor on the National Polar-
orbiting Operational Environmental Satellite System Preparatory Project 
(NPP) mission. NASA is working as part of a broad Administration effort 
to assess options for recovering the climate measurements that the 
other de-manifested NPOESS sensors would provide. As a follow-on 
activity to the recently released Decadal Survey for Earth Science, 
NASA and NOAA have asked the National Research Council to assess the 
loss of climate measurements from NPOESS and provide mitigation 
recommendations. An addendum to the Decadal Survey is due this summer.

Q6.  The Earth Sciences Decadal Survey discusses he need for 
transitioning research satellites to operational systems. The NASA 
Authorization Act of 2005 calls for NASA-NOAA coordination on research 
to operations.

Q6a.  How often has the NASA-NOAA Joint Working Group met? When was the 
most recent meeting?

A6a. The NASA-NOAA Joint Working Group has formally met twice, once in 
January 2006 and once in April 2006. In addition to these meetings, 
NASA and NOAA have been working together in order to address specific 
issues of interest to both agencies, as described in the NASA response 
to question 6b below.

Q6b.  What specific issues has it addressed?

A6b. The NASA-NOAA Joint Working Group has addressed a number of 
issues, as detailed below.

        1.  The primary focus of NASA-NOAA joint activities has been on 
        the National Polar-orbiting Operational Environmental Satellite 
        System (NPOESS). NASA and NOAA worked together in late 2006 and 
        early 2007 to develop a white paper, requested by the Office of 
        Science and Technology Policy, on the impacts of the de-
        manifestation of the NPOESS climate sensors. NASA and NOAA also 
        worked together to restore the Ozone Mapping and Profiler Suite 
        Limb sensor on the NPOESS Preparatory Project (NPP) mission.

        2.  Discussions on coordinating research and operations were 
        held at the two NASA-NOAA roundtables in 2006.

        3.  As required by the NASA Authorization Act of 2005 (P.L. 
        109-155), NASA and NOAA have been coordinating the development 
        of a report to Congress detailing proposed joint activities for 
        FY 2008. This report will be delivered to Congress shortly.

        4.  The NASA senior review process for operating missions has 
        been altered to more specifically reflect the recommendations 
        of the National Research Council (NRC) to bring NOAA in as part 
        of a separate review involving operational users of NASA 
        satellite data.

        5.  NASA and NOAA are jointly reviewing the results of the 
        Decadal Survey for Earth Science, as well as working with the 
        NRC on their addendum to that report to assess the loss of 
        climate measurements from NPOESS.

Q6c.  Is the Joint Working Group with NOAA able to effectively plan for 
transitions from research to operations?

A6c. While NASA is making progress working with NOAA, it is still very 
early in the planning process, especially given the relatively recent 
release of the Decadal Survey for Earth Science, to be able to say that 
the problem of transitioning from research to operations is solved. 
However, recent examples of NASA-NOAA coordination, such as working 
together to restore the OMPS-Limb sensor and conducting a coordinated 
senior review process to look at mission continuation, demonstrate that 
the agencies are making progress.

Questions submitted by Representative Baron P. Hill

Q1.  A report by the National Research Council on humans in space 
recommended that the medical and the psychological issues related to 
humans engaging in long-duration space flight need to be better 
understood. It also suggested that countermeasures for the effects of 
exposure to both cosmic rays and solar proton radiation and reduced 
gravity will have to be developed.

     What efforts is NASA undertaking to respond to these 
recommendations with regards to solar proton radiation?

A1. The Agency has developed the NASA Space Radiation Laboratory (NSRL) 
at the Department of Energy's Brookhaven National Lab at Upton, New 
York. The NSRL opened in October 2003 for scientific research studying 
the effects of space radiation and the development of shielding and 
biological countermeasures to solar proton and galactic cosmic rays. 
The NASA Human Research Program supports more than $30 million per year 
on research conducted at NSRL through competitive research awarded to 
U.S. universities or government laboratories.
    The NSRL is a unique facility in the world for simulating both 
solar protons and galactic cosmic ray heavy ions. NSRL can accelerate 
protons to energies of 3,000 Megaelectron volt (MeV), and heavy ions 
from carbon to gold to high energies. These energies provide an 
accurate representation of both solar protons and galactic cosmic ray 
heavy ions.
    In comparison, other proton facilities located around the country 
(i.e., Indiana University Cyclotron Facility, Loma Linda University 
Medical Center, Massachusetts General Hospital, the University of 
Florida, and the University of Texas's MD Anderson Hospital) can 
accelerate protons only up to energies of a few hundred MeV, which is 
insufficient to properly simulate solar protons. Also, such facilities 
cannot properly simulate galactic cosmic ray proton and heavy ions.

Q2.  Researchers at the Indiana University Cyclotron Facility (IUCF) 
are collaborating with NASA to better understand the radiation risk 
from solar protons during space exploration. How has this research 
effort supported the recommendations from the NRC report?

A2. To date, no results from IUCF have emerged to better understand the 
radiation risk from solar protons. However, pilot studies of new 
dosimetry systems are underway and could lead to advance response 
capabilities for solar proton events.

Q3.  The IUCF is currently being utilized by NASA to support various 
aspects of its mission. What additional NASA requirements might be met 
through the use of IUCF as a support facility?

A3. The IUCF is working with the NASA Johnson Space Center's 
Engineering Directorate to develop new instruments for dosimetry 
applicable to solar proton irradiation.
    The Agency's research program at the NASA Space Radiation 
Laboratory (NSRL) is addressing all of the concerns of the recent 
National Research Council report. IUCF has severely limited capability 
in NASA's space radiation protection research goals because the 
energies possible are not sufficient to simulate space radiation. NSRL 
is the only facility capable of addressing the problems of solar proton 
and galactic cosmic radiation risk to astronauts.

Questions submitted by Representative Charles A. Wilson

Q1.  As part of the Constellation Systems architecture, NASA is 
developing major space flight hardware, such as Orion, Ares I, Ares V, 
and the Lunar Surface Access Module. Experience has shown that robust 
testing of such space flight hardware, particularly large integrated 
testing, is essential for mission success. What is being done to assure 
that the hardware of Constellation Systems will be thoroughly tested 
and that NASA facilities will be effectively utilized across the 
Constellation Systems theme?

A1. NASA agrees that past experience has shown that a robust test and 
verification program is essential for mission success. Recognizing this 
need, the Constellation Program took the proactive approach of standing 
up a Test & Verification (T&V) Office early in the program to provide 
the necessary leadership. The T&V Office is responsible for producing a 
robust integrated verification strategy essential to ensuring mission 
success. It has documented this strategy in what is now called the 
Constellation Program Master Integration and Verification Plan.
    The plan was baselined in December 2006 as part of the 
Constellation Program's System Requirement Review. This plan provides 
the framework for the Program's integrated verification strategies 
including major test activities such as Avionics and Software 
Integrated Testing, Propulsion Systems Testing (e.g., J-2X), individual 
Flight Element Environmental Testing (e.g., Acoustics or Thermal/Vacuum 
testing), Flight Element Integrated Testing (e.g., Orion to Ares I), 
Multi Element Integrated Testing (e.g., Orion to International Space 
Station (ISS), Orion to Lunar Surface Access Module (LSAM)/Ares V-Earth 
Departure Stage (EDS) ), Flight Testing (Ares 1-X) and In-space 
Integrated Testing (e.g., Orion to ISS Rendezvous and Docking).
    The T&V Office also has the lead for identifying facility 
requirements necessary to fulfill the Program's integrated verification 
strategy. To perform the function, the T&V Office set up the 
Constellation Asset Management Panel (CAMP) to review and provide 
Constellation Program recommendations on the use of existing 
commercial, Department of Defense, and NASA institutional assets 
required in support of Constellation integrated verification planning 
activities.
    The Shuttle Program has developed a facility capability list that 
CAMP is currently reviewing for potential Constellation use. The 
Constellation Program's recommended infrastructure plan will then be 
coordinated with Agency Level Boards and Forums such as the Shuttle 
Transition Control Board or the Human Space Flight Capabilities Forum 
to ensure that NASA T&V facilities will be effectively utilized across 
the Constellation Program.

Q2.  A critical element of the Exploration Vision is the establishment 
of lunar outposts for extended missions on the Moon. To enable such 
outposts, advanced technologies will need to be developed in the areas 
of surface power, communications, propulsion and habitation. And these 
technologies will need to be verified and demonstrated prior to 
entering into systems development. What are NASA's plans, in terms of 
schedule and funding, for developing and demonstrating these critical 
technologies?

A2. NASA is conducting advance technology development in several areas 
as outlined in more detail below.

Surface Power

    Preliminary plans for the lunar outpost call for the use of solar 
power systems during the initial assembly phase. After the outpost is 
complete, nuclear power systems may be tested on the Moon to reduce 
risk for future human missions to Mars.
    A key element of solar power systems that does require new 
technology development is energy storage, which will allow the outpost 
to operate during the lunar night. NASA is developing advanced 
batteries and regenerative fuel cells to store energy generated by 
solar power systems. Energy storage technologies will also provide 
power for mobile lunar surface systems such as rovers and spacesuits.
    Major milestones for energy storage technology are:

        <bullet>  2007--Demonstrate lithium-ion battery for spacesuits 
        in desert field test.

        <bullet>  2008--Demonstrate fuel cell power system for lunar 
        rover in desert field test.

        <bullet>  2009--Demonstrate 10 kW regenerative fuel cell.

        <bullet>  2012--Integrated test of solar power system with 
        energy storage.

    NASA is also developing concepts and technologies for affordable 
nuclear fission surface power systems. NASA is developing proof-of-
concept liquid metal cooling systems for the nuclear reactor, and 
Stirling converters to generate power from the heat supplied by the 
reactor.
    Major milestones for nuclear power technology include:

        <bullet>  2007--Complete affordable fission surface power 
        conceptual design studies

        <bullet>  2008--Demonstrate a 10 kW power conversion system in 
        the laboratory

        <bullet>  2010--Demonstrate deployment of a simulated fission 
        surface power system in desert field tests

        <bullet>  2011--Demonstrate integrated power conversion and 
        simulated liquid metal cooled reactor operations

Communications

    NASA is planning a communications infrastructure and developing 
advanced communications technologies to support the lunar exploration 
program. It is envisioned that a communications relay satellite in 
lunar orbit will be required to provide communications for the lunar 
outpost.
    The Lunar Reconnaissance Orbiter mission to be launched in 2008 
will fly a miniature radar instrument (mini-RF) that will demonstrate 
many significant technology and miniaturization improvements including 
an ability to operate in two frequency bands and has an antenna much 
smaller than previous synthetic aperture arrays.

Propulsion

    NASA's technology efforts in propulsion are focused on delivering 
prototype high-performance cryogenic propulsion systems for the Human 
Lunar Lander, and on improving the performance and reliability of the 
RS-68 engines needed by the Ares V rocket.
    The key elements of the Human Lunar Lander propulsion system 
include a deep throttling liquid hydrogen/oxygen engine for the descent 
stage, a liquid methane/oxygen engine for the ascent stage, reaction 
control system thrusters, and zero boil-off cryogenic propellant 
storage.
    Major milestones for propulsion technology include:

        <bullet>  2007--Testing of deep throttling RL-10 engine for 
        Human Lunar Lander descent stage

        <bullet>  2008--Prototype reaction control system thruster

        <bullet>  2008--Prototype liquid methane/oxygen main engine for 
        Human Lunar Lander ascent stage

        <bullet>  2010--Demonstrate zero boil-off cryogenic propellant 
        storage

        <bullet>  2012--Integrated liquid methane/oxygen propulsion 
        system including main engine, thrusters, and cryogenic 
        propellant storage

    The development schedule and major milestones for the RS-68 engine 
are still in the planning phase so that NASA and Air Force requirements 
can be aligned.

Habitation

    NASA is developing critical life support and habitation 
technologies. These include atmospheric management, environmental 
monitoring and control, advanced air and water recovery systems, waste 
disposal, and fire detection and suppression. These technologies will 
enable sustainable life support systems for long-duration missions and 
protect crew health from hazardous contaminants.
    Major milestones for habitation technology include:

        <bullet>  2007--Test prototype carbon dioxide and moisture 
        removal system for Orion

        <bullet>  2007--Test bacteria monitoring instrument on ISS

        <bullet>  2008--Deliver eNose for flight on ISS (instrument to 
        detect atmospheric contaminants)

        <bullet>  2009--Deliver Vehicle Cabin Air Monitor instrument 
        for flight on ISS

        <bullet>  2011--Test atmosphere revitalization system for lunar 
        outpost

        <bullet>  2011--Test water recovery system for lunar outpost

        <bullet>  2012--Test waste management system for lunar outpost

    Funding for developing and demonstrating technologies is reflected 
below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Q3.  Assuring the safety, health and performance of astronauts is 
critical to the success of the Exploration Systems Mission and must be 
our highest priority. However, funding for the Human Research Program 
has been dramatically reduced in recent years with no significant 
growth in funding requested for FY 2008 and beyond. It is hard to 
reconcile this funding plan with the criticality of keeping and 
maintaining the health and safety of our astronauts. What is NASA's 
plan to develop the necessary understanding of the effects of zero and 
partial gravity environments on humans, develop effective 
countermeasures to mitigate risks and deliver required medical care to 
astronauts on exploration missions, including outposts on the lunar 
surface?

A3. NASA believes that assuring the safety, health and performance of 
astronauts is critical to the success of the Exploration Systems 
Mission. NASA has responded to the Vision for Space Exploration by 
restructuring and focusing its biomedical research program. Part of 
this restructuring included the establishment of the Human Research 
Program (HRP). The HRP is working more closely with NASA's Medical 
Operations community to focus its research and technology investment to 
investigate and mitigate the highest risks to astronaut health and 
performance to ensure that appropriate countermeasure investments and 
mitigation strategies are made that satisfy exploration mission 
requirements.
    HRP is helped by its interaction and integration with the National 
Space Biomedical Research Institute (NSBRI), a consortium of 12 
academic institutions from across the Nation. The goal of this 
important partnership is to conduct research to understand the effects 
of microgravity on humans, and to develop effective countermeasures to 
mitigate the risks associated with space flight. Further, NASA has 
established a flow-down of requirements from the Office of the Chief 
Health and Medical Officer (OCHMO) to the various Program Elements of 
the HRP at the Johnson Space Center. The NASA OCHMO has developed an 
initial set of space flight health standards that serve to guide the 
HRP in the expansion of the evidence base regarding human space flight 
health and performance risks.
    This document establishes NASA's space flight crew health standards 
for the pre-flight, in-flight, and post-flight phases of human space 
flight. These standards apply to all NASA human space flight programs 
and are not developed for any specific program. A copy of the document 
can be found at: http://standards.nasa.gov/default.taf. The highest 
priority risks have been identified by HRP and allocated to the Program 
Elements within the HRP.
    The main Program Elements within HRP include Space Radiation, 
Exploration Medicine Capability, Human Health and Countermeasures, 
Behavioral Health & Performance, and Space Human Factors & 
Habitability. The HRP is using the ISS as a research platform to 
understand the effects of long duration space flight on humans, to 
identify research gaps associated with long-duration space flight, and 
to develop and test countermeasures that reduce the medical risks of 
human space flight. NASA is also using ground-based space analog 
environments (e.g., bed rest, Antarctica, undersea habitat) to 
understand the effects of zero and partial gravity on humans. The HRP 
strives to strengthen its partnerships with academia, other federal 
agencies (e.g., NIH, DOE), international space agencies, the emerging 
commercial space transportation industry and other private industries, 
in order to leverage resources and provide the most extensive evidence 
base possible and help ensure the timely development and validation of 
countermeasures and technologies to mitigate risks to our astronauts on 
exploration missions.

Questions submitted by Representative Ken Calvert

Exploration Systems

Q1.  Based on experience to date with the Orion and Ares programs, what 
do you consider the three highest risks, and what steps are being taken 
to address them?

A1. The Constellation Program utilizes an active risk management 
approach, which involves regularly identifying, evaluating, and 
retiring the risks which are affecting the program. At the present 
time, the Constellation Program has identified the following top three 
risks: (a) a human space flight capabilities gap from Shuttle 
retirement until Ares Initial Operational Capability (IOC); (b) Orion 
Crew Exploration Vehicle (CEV) mass allowance; and (c) ground flight 
test qualification for the first crewed lunar return.

        a.  A prolonged gap between Shuttle retirement and Ares IOC 
        increases the risk that NASA will lose launch processing and 
        mission operations capabilities.

            Constellation is on a path to complete Design Development 
        Test & Engineering for high-risk hardware to support IOC in a 
        timely fashion. Additionally, test flights and requirements for 
        crew launch & crew exploration vehicles are being reviewed to 
        align technical, schedule, and budget targets to minimize the 
        deleterious impact of the hiatus in NASA crewed vehicle 
        launches.

        b.  Current Crew Exploration Vehicle (CEV) mass estimates are 
        exceeding previously established allowances.

            By the late summer of 2007, the requirements will stabilize 
        and mature, allowing NASA to analyze the design decisions and 
        determine their effects on current and target weights. For a 
        further risk reduction, two external consultants will 
        accomplish mass properties reviews six months prior to 
        preliminary design review and critical design review.

        c.  The first crewed lunar return may occur without a full-
        scale test of the CEV heat shield, since current U.S. arc jet 
        facilities capabilities do not provide full coverage of lunar 
        return entry environments and a flight test of the heat shield 
        has not been programmed.

    A Thermal Protection System Analysis of Alternatives study is 
underway to develop a risk mitigation strategy in 2007. Options being 
evaluated include ground facility upgrades, exploring non-NASA ground 
test facility capabilities, sub-scale test flights, and full-scale test 
flights.

Shuttle

Q2.  What is the effect of the delay of STS-117 on NASA's overall plan 
to fly out the Shuttle manifest? If flown in mid-May, as currently 
forecast, will NASA still be able to fly all remaining missions, 
including the Hubble servicing mission by December 2010?

A2. On June 8, NASA successfully launched Space Shuttle Atlantis' STS-
117 mission to the International Space Station (ISS). Completion of 
this mission allows NASA to fly out the remaining flights needed for 
ISS assembly. By the end of 2008 or the first part of 2009, the ripple 
in the manifest caused by this delay will have settled out, and NASA 
will be back on track to complete the manifest by the end of FY 2010. 
NASA will still have the same schedule margin as today to complete any 
ISS assembly flights and the Hubble servicing mission.
    The Space Shuttle and ISS Programs agreed to the manifest changes 
during an April 16, 2007, meeting to evaluate options following the 
STS-117 mission's delay, which was caused by hail damage to the 
external fuel tank. Flights beyond STS-124 have not been assessed. Both 
Shuttle and ISS Program officials will continue to assess options for 
the remainder of the shuttle flights, and those target launch dates are 
subject to change.
    Upcoming shuttle missions:

        --  STS-118 targeted for no earlier than Aug. 9, 2007, on 
        Endeavour

        --  STS-120 targeted for no earlier than Oct. 20, 2007, on 
        Discovery instead of Atlantis

        --  STS-122 targeted for no earlier than Dec. 6, 2007, on 
        Atlantis instead of Discovery

        --  STS-123 targeted for no earlier than Feb. 14, 2008, on 
        Endeavour

        --  STS-124 targeted for no earlier than April 24, 2008, on 
        Discovery instead of Atlantis

    The orbiters for STS-120, 122 and 124 were exchanged to best meet 
the demands of the missions and to have the least amount of impact on 
the overall flight schedule.

Aeronautics

Q3.  Under the FY 2007 continuing resolution, NASA's aeronautics 
program received an additional $166 million. How does the agency intend 
to allocate this unanticipated sum during the balance of this fiscal 
year?

A3. Below are details outlining how NASA intends to spend the $187 
million increase reflected in the Agency's initial FY 2007 Operating 
Plan. The $187 million total includes the $166 million difference 
between the $724 million President's FY 2007 budget request for the 
Aeronautics Research Mission Directorate (ARMD) and the $890 million 
reflected in the FY 2007 Revised Continuing Resolution (P.L. 110-5) , 
and further includes an increased overhead assessment to ARMD of $21 
million. NASA allocated the Congressional FY 2007 budget augmentation 
to the three Aeronautics Research Programs consistent with the funding 
priorities reflected in the FY 2007 President's Budget request. NASA 
also increased the Aeronautics Test Program (ATP) budget level to fund 
strategic facility investments that will benefit both the Agency and 
the aeronautics user community.
    The breakdown of the FY 2007 budget augmentation by research 
project is shown below.

Airspace Systems Program ($31.2 million)

The Next Generation Air Transportation System (NGATS) Air Traffic 
        Management (ATM): Airportal Project: $6.7 million
    The Airportal Project develops and validates algorithms, concepts, 
and technologies to increase throughput of the runway complex and 
achieve high efficiency in the use of airportal resources such as 
gates, taxiways, runways, and final approach airspace. Currently, the 
growth of air traffic demand and fleet diversity is causing the 
operational volume at hub airports to rapidly approach their maximum 
capacity. NASA research in this project will lead to development of 
solutions that safely integrate surface and terminal area air traffic 
optimization tools and systems with Four-Dimensional (4D) trajectory 
operations. The budget augmentation is directed toward:

        <bullet>  Application of data-mining techniques to study safe 
        and efficient surface operations

        <bullet>  Human-in-the-loop simulations to test runway 
        incursions and 4D taxi clearances

        <bullet>  Investigation of human roles and responsibilities in 
        the airportal to enable gate-to-gate NGATS operations

        <bullet>  Comparison of competing concepts for metroplex 
        operation during super density operations

    Funds have also been used to enhance critical core competencies in 
data mining for surface traffic optimization, human-in-the-loop 
simulation modeling that supports research in automated separation 
assurance, autonomous operations technologies, modeling and simulation 
for airspace system design and human factors design issues for 
transitioning to the future NGATS.

The NGATS ATM: Airspace Project: $24.5 million
    The Airspace Project develops and explores fundamental concepts and 
integrated solutions that address the optimal allocation of ground and 
air automation technologies necessary for NGATS. The Project will focus 
NASA's technical expertise and world-class facilities to address the 
question of where, when, how and the extent to which automation can be 
applied to moving aircraft safely and efficiently through the National 
Airspace System (NAS). Research in this Project will address 4D 
Trajectory Operations, including advances in the science and 
applications of multi-aircraft trajectory optimization that solve the 
demand/capacity imbalance problem while taking into account weather 
information and forecast uncertainties and keeping aircraft safely 
separated. The Project's research will develop and test concepts for 
advanced traffic flow management to provide trajectory planning and 
execution across the spectrum of time horizons from ``strategic 
planning'' to ``separation assurance.'' Ultimately, the roles and 
responsibilities of humans and automation influence every technical 
area and will be addressed. The budget augmentation expands the 
research and development portfolio for NGATS to include:

        <bullet>  Integration of weather information with automation 
        concepts, algorithms and technologies for traffic flow 
        management and super density operations

        <bullet>  Development of design principles to allow multi-
        objective trades of capacity, safety and uncertainty for NGATS 
        and application of these principles to examine critical 
        technical issues regarding insertion of new vehicles, 
        procedures, operations, technologies and safety systems in 
        NGATS

        <bullet>  Models of NGATS procedures and technologies that are 
        integrated into NASA's software baselines such as the Airspace 
        Concept Evaluation System, ACES, a core investment analysis 
        tool used by the Joint Program and Development Office (JPDO), 
        and

        <bullet>  Multi-vehicle coupled capacity and safety concepts, 
        algorithms and technologies.

    Funds have also been used to enhance critical core competencies in 
human-in-the-loop simulation modeling that supports research in 
automated separation assurance, autonomous operations technologies, 
modeling and simulation for airspace system design and human factors 
design issues for transitioning to the future NGATS.

Aviation Safety Program ($28.5 million)

    The Aviation Safety program is committed to providing the means to 
conduct experiments that support its program objectives. The program 
uses testbeds and simulators to conduct its core research experiments, 
however, the opportunities offered by new testbeds and improved 
simulators will fundamentally strengthen the outcome of the 
foundational, discipline and multi-disciplinary research that is 
planned.

Integrated Resilient Aircraft Controls (IRAC) Project: $8.6 million
    The ability to conduct full-scale flight experiments as part of the 
IRAC Project will expand the quality and potential application of the 
results of the validation and verification (V&V) efforts within the 
project in the field of adaptive controls--the most promising direction 
for resilient control. The F/A-18 provides the ability to conduct full-
scale experiments that, in concert with the sub-scale model and 
analytical methods, are key in the field of adaptive control for both 
aeronautics and space applications. Funds will therefore be used to 
provide an integrated, one-time upgrade to the F/A-18 testbed. Funds 
will also be used to enhance critical core competencies in adaptive 
flight control, software design & validation and autonomous systems 
technology.

Integrated Vehicle Health Management (IVHM) Project: $5.7 million
    Funds will be used to develop an IVHM testbed that will provide the 
computer processing capability to develop and validate tools and 
methods for integrating and analyzing large and disparate sources of 
data. The capability will be used to support the development of 
advanced data-mining tools and methods in the IVHM Project. Funds will 
also be used to enhance critical core competencies in icing research, 
software design & validation and autonomous systems technology.

Integrated Intelligent Flight Deck (IIFD): $11.6 million
    The IIFD Project relies significantly on simulation of off-nominal 
conditions for its research. Funds will be used for simulator upgrades 
that will provide unique capabilities to integrate human-display 
testing, as well as better integration of sensor modeling. Funds will 
also be used to enhance critical core competencies in computer science 
and human factors research.

Aircraft Aging and Durability (AAD): $2.6 million
    Funds will provide large-scale composite containment test specimens 
that will be used for in-house experiments, as well as for research 
conducted under cooperative agreements with external research 
organizations (our NRA partners). Funds will also be used to enhance 
critical core competencies in composite research.

Fundamental Aeronautics Program ($93.1 million)

    The Fundamental Aeronautics (FA) Program is dedicated to the 
mastery and intellectual stewardship of the core competencies of 
aeronautics for the Nation across all flight regimes. The long-term 
research that the FA Program conducts is both focused and integrated 
across disciplines, and will be used to provide feasible solutions to 
the performance and environmental challenges of future air vehicles. 
Funds from the budget augmentation are targeted to further and 
accelerate this mission. In order to achieve significant results more 
rapidly, we are focusing on investments in advanced research ideas, 
improved facilities, stronger external partnerships, and additional 
testing and validation. In addition to the project-specific content 
provided below, funds from the budget augmentation will be used for 
four program-wide research initiatives that are intended to jump-start 
efforts to develop NASA's future computational capabilities (for 
predictive capabilities in fluid mechanics, combustion, acoustics, and 
materials and structures), to create environments and standards for 
multi-disciplinary analysis and optimization, to generate innovative 
new ideas, methods, and sensors to acquire experimental data that we 
cannot obtain today, and to speed-up the development of advanced, high-
temperature, multi-functional materials for higher propulsive 
efficiency and to sustain harsh environments across the speed regime 
(in both airframe and propulsion applications).

Hypersonics Project: $33.4 million
    The goal of the Hypersonics project is to conduct long-term, 
cutting-edge research in the core competencies of the hypersonic regime 
to address the technical challenges for two high-payoff missions: 
Highly Reliable Reusable Launch Systems (HRRLS) and High Mass Mars 
Entry Systems (HMMES). Funds from the budget augmentation will be used 
to enhance our capabilities to acquire data relevant for the validation 
of tools for the entry, descent, and landing (EDL) phase of planetary 
re-entry, for enhanced research in combined-cycle approaches for 
hypersonic propulsion, and to support partnerships (specifically, for 
the HyBoLT/SOAREX/ALV-X1 partnership with ATK, and the X-51 partnership 
with the Air Force and DARPA). Through these partnerships, we intend to 
create databases for transition to turbulence in very high-speed flows 
and to solve key outstanding problems in supersonic combustion for 
hypersonic, air-breathing systems. Funds will also be used to enhance 
critical core competencies in advanced structural concepts, durability 
technologies, nondestructive evaluation methods and arc jet 
experimental techniques.

Subsonic Fixed Wing Project: $34.1 million
    The goal of the Subsonic Fixed Wing project is to conduct long-
term, cutting-edge research in the core competencies of the subsonic 
fixed wing regime to enable improved prediction methods and 
technologies for lower noise, lower emissions (including NOX, 
CO<INF>2</INF>, water vapor, volatiles, unburned hydrocarbons, 
particulate matter, and soot), and higher performance for subsonic 
aircraft. Funds from the budget augmentation will be used to enhance 
the results produced in collaboration with our NRA partner institutions 
by allowing for the proof-of-concept development and testing of a 
number of innovative ideas. We also intend to improve key facilities 
that can significantly strengthen the quality of acoustics and 
emissions/combustion experimental data in support of future concepts 
for significant reductions in noise and emissions. Furthermore, funds 
will be used to build and enhance new and existing partnerships to 
enable future improvements to the aircraft fleet (specifically, our X-
48B/BWB partnership with AFRL and Boeing in pursuit of revolutionary 
aircraft concepts, our Ultra-High Bypass Ratio Fan partnership with 
Pratt & Whitney, and our Cruise Efficient Short Take-Off and Landing 
partnership with AFRL and Northrop-Grumman). The content of all of 
these partnerships is focused on the development of new aircraft 
concepts that can enable the 2-3X growth in the air transportation 
system with minimal environmental impact. Funds will also be used to 
enhance critical core competencies in combustion foundational research 
and system integration of aerodynamics and heat transfer in the 
propulsion flow path.

Subsonic Rotary Wing Project: $12.8 million
    The goal of the Subsonic Rotary Wing project is to conduct long-
term, cutting-edge research in the core competencies of the subsonic 
rotary wing regime to enable improved prediction methods and 
technologies for lower noise, lower emissions, and higher performance 
for rotary wing aircraft. Higher performance includes improved speed, 
range, payload capacity, propulsion efficiency, and control systems for 
safe operations. A number of necessary facility improvements will be 
made to enable the acquisition of additional data to assess the 
performance of key efforts in the project (gear spur, variable-speed 
transmission). The variable-speed transmission effort, a potentially 
revolutionary technology that can be used to increase the cruise speed 
of rotorcraft vehicles, will see significant benefits from this budget 
augmentation. In addition, funds will be used to enhance and develop 
external partnerships and to allow for additional data to be obtained 
during key tests planned for the coming months. For example, additional 
data will be gathered during the DARPA SMART rotor test to assess the 
ability of actively-controlled helicopter blades to reduce the noise 
from blade-vortex interactions during high-speed flight and descent. 
Funds will also be used to enhance critical core competencies in 
advanced control methods and cabin noise modeling and reduction.

Supersonics Project: $12.8 million
    The goal of the Supersonics project is to conduct long-term, 
cutting-edge research in the core competencies of the supersonic regime 
to address the technical challenges for two supersonic vehicle classes: 
practical supersonic cruise aircraft and supersonic descent for High 
Mass Mars Entry Systems. Funds from the budget augmentation will be 
used to improve key facilities for the acquisition of acoustic data and 
the development of improved materials for high-temperature operation. 
Additional test opportunities will be made possible in the areas of 
sonic boom assessment and impact, noise suppression through advanced 
nozzle concept development, and aeroelastic predictive methodologies. 
Furthermore, funds will be used to enhance our ability to predict the 
supersonic deceleration phenomena of the EDL phase. Funds will also be 
used to enhance critical core competencies in high-temperature sensors, 
advanced inlet/nozzle concepts, aero-propulsive-servo-elasticity, 
composite structures, and lightweight multi-functional materials.

Aeronautics Test Program ($34.6 million)

Flight Operations and Test Infrastructure: $28.7 million
    The budget augmentation will be used to ensure the strategic 
availability of critical capabilities at the Dryden Flight Research 
Center, which include Western Aeronautical Test Range (WATR), support 
aircraft (chase, pilot proficiency, and project support), testbed 
aircraft (directly participates in tests) and loads laboratory and 
simulators.

Aero Ground Test Facilities: $5.9 million
    The budget augmentation will be used to upgrade the Unitary Wind 
Tunnel and Arcjet facility at Ames Research Center and the National 
Transonic Facility at the Langley Research Center to support NASA's 
missions over the long-term.

Q4.  During last year's committee hearings on the Decadal Survey for 
Aeronautics, many industry and academic witnesses expressed deep 
concern about NASA's plans to limit its R&D efforts to a basic level of 
development. They argued that such a policy could jeopardize the 
success of the Joint Planning and Development Office by halting 
development of promising air traffic management technologies at a level 
that FAA would be unable to adopt them into the next generation air 
transportation system. What steps are NASA and FAA taking to ensure 
this ``technology gap'' doesn't come into play?

A4. First, it is important to note that all three of the Aeronautics 
Research Mission Directorate (ARMD) research programs (Fundamental 
Aeronautics, Aviation Safety, and Airspace Systems) contribute directly 
and substantively to the Next Generation Air Transportation System 
(NextGen). Together, these programs address critical air traffic 
management, environmental, efficiency, and safety-related research 
challenges, all of which must be worked in order for the NextGen vision 
to be realized. The outputs of this focused commitment and investment 
will include advanced concepts, algorithms, tools, methods, and 
technologies, and all of these products will be critical to the success 
of NGATS.
    It should be evident from the clearly stated goals of the NextGen 
that a focus on fundamental, cutting-edge research is absolutely 
essential to the successful realization of the NextGen vision. The 
Vision 100 Century of Aviation Reauthorization Act (Public Law 108-176) 
clearly states that ``The integrated plan shall be designed to ensure 
that the Next Generation Air Transportation System meets air 
transportation safety, security, mobility, efficiency, and capacity 
needs beyond those currently included in the Federal Aviation 
Administration's operational evolution plan. . .'' (emphasis added). In 
other words, the NextGen vision is not simply an incremental advance on 
the existing system; it represents a true paradigm-shift from what we 
have today, and it requires a commitment to cutting-edge research 
across a breadth of aeronautical disciplines (from noise and emissions 
research to safety research to advanced mathematical optimization 
algorithms for airspace management, just to name a few). Such a 
commitment is precisely what NASA's new program is offering. Our return 
to fundamental, innovative research will increase the probability of 
development of the revolutionary technologies that will be required for 
the successful implementation of NextGen and will broaden the advanced 
technology development options.
    While many have embraced NASA's return to the cutting-edge, and 
understand that such a focus is critical to the NextGen vision, some 
have raised concerns about ``technology transition.'' According to 
Public Law 108-176, it is the responsibility of the Joint Planning and 
Development Office (JPDO) to facilitate ``the transfer of technology 
from research programs such as the National Aeronautics and Space 
Administration program and the Department of Defense Advanced Research 
Projects Agency program to federal agencies with operational 
responsibilities and to the private sector.'' In other words, the 
responsibility for transition resides with the JPDO and all of its five 
member agencies. This responsibility is reinforced in the newly drafted 
JPDO MOU, which both NASA and the FAA have signed.
    Transition of research into operational use is of course not a new 
challenge, nor is it particular to the FAA and NASA. One way to 
jeopardize successful transition, however, regardless of the agencies 
involved, is for the parties to become fixated on ``technology maturity 
levels,'' or ``technology readiness levels.'' The level of maturity to 
which a technology is developed is irrelevant if that technology does 
not enable the desired goals of the intended users. Successful 
transition requires the researchers and the users to engage closely 
from the very beginning on whatever is being developed or invented. The 
users must understand the assumptions and limitations that the 
researchers are operating under as they perform their research, and the 
researchers must understand how their assumptions will impact the 
usefulness of their technology or method. Successful transition relies 
upon a close working relationship among those who conduct the research 
and those who use its results, and the JPDO has been established 
precisely to address this challenge. NASA intends to work closely with 
all of the member agencies of the JPDO, including the FAA, throughout 
the entire technology development process to ensure that, to the 
greatest extent practicable, researchers and system operations 
personnel collaborate to make the technology development and transition 
as effective as possible. Figure 1 below illustrates our approach in 
the case of the transition of our airspace systems research to the FAA. 
This approach enables both NASA and the FAA to do what each does best 
according to its charter and mission in the best interest of the 
Nation.
    Finally, it must be noted that the Enterprise Architecture and the 
Integrated Work Plan, the primary planning documents of the NextGen, 
are still being developed by the JPDO. Baseline versions for each of 
these documents are scheduled for completion during FY 2007. However, 
these documents will need to be vetted with the stakeholder community 
and will undoubtedly continue to evolve over the next few years. As 
these documents mature, gaps will most likely be identified in 
technology development, knowledge, schedule, or other areas, and NASA, 
the FAA, and the other JPDO member agencies (DOD, DHS, DOC) will work 
together to address those specific gaps as they impact NAS transitions 
and system implementation. In the interim, NASA will continue to work 
with the JPDO to refine its technical roadmaps and resource plans, 
which have been developed in substantial collaboration with the JPDO, 
as information regarding the JPDO plans becomes available.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


<all>

</pre></body></html>
